<html>
<title> - NOMINATIONS OF JULIUS GENACHOWSKI TO BE COMMISSIONER AND CHAIRMAN AND ROBERT M. McDOWELL TO BE COMMISSIONER OF THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[Senate Hearing 111-447]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-447

                   NOMINATIONS OF JULIUS GENACHOWSKI
                  TO BE COMMISSIONER AND CHAIRMAN AND
                 ROBERT M. McDOWELL TO BE COMMISSIONER
                OF THE FEDERAL COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                  U.S. GOVERNMENT PRINTING OFFICE
54-287 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 16, 2009....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     3
Statement of Senator Klobuchar...................................     5
Statement of Senator Pryor.......................................     6
    Prepared statement...........................................     6
Statement of Senator Udall.......................................     7
Statement of Senator Johanns.....................................     7
Statement of Senator Lautenberg..................................     9
Statement of Senator Dorgan......................................     9
Statement of Senator Warner......................................    10
    Prepared statement...........................................    11
Statement of Senator Begich......................................    12
Statement of Senator Kerry.......................................    12
Statement of Senator Cantwell....................................    36
Statement of Senator Thune.......................................    75

                               Witnesses

Hon. Charles E. Schumer, U.S. Senator from New York..............     4
Julius Genachowski, Nominated to be Commissioner and Chairman, 
  Federal Communications Commission..............................    14
    Prepared statement...........................................    16
    Biographical information.....................................    18
Hon. Robert M. McDowell, Commissioner, Federal Communications 
  Commission.....................................................    40
    Prepared statement...........................................    44
    Biographical information.....................................    46

                                Appendix

Hon. Chuck Grassley, U.S. Senator from Iowa, prepared statement..    81
Response to written questions submitted to Hon. Robert M. 
  McDowell by:...................................................
    Hon. John D. Rockefeller IV..................................    81
    Hon. Daniel K. Inouye........................................    82
    Hon. Frank R. Lautenberg.....................................    83
    Hon. Mark Pryor..............................................    85
    Hon. Mark Warner.............................................    85
    Hon. Mark Begich.............................................    86
    Hon. Olympia J. Snowe........................................    87
    Hon. Johnny Isakson..........................................    89
    Hon. Chuck Grassley..........................................    91
Response to written questions submitted to Julius Genachowski by:
    Hon. John D. Rockefeller IV..................................    92
    Hon. Daniel K. Inouye........................................    93
    Hon. John F. Kerry...........................................    93
    Hon. Byron L. Dorgan.........................................    95
    Hon. Maria Cantwell..........................................    97
    Hon. Frank R. Lautenberg.....................................    98
    Hon. Mark Pryor..............................................    99
    Hon. Tom Udall...............................................   100
    Hon. Mark Warner.............................................   103
    Hon. Mark Begich.............................................   104

 
                   NOMINATIONS OF JULIUS GENACHOWSKI
                    TO BE COMMISSIONER AND CHAIRMAN
                      AND ROBERT M. McDOWELL TO BE
                          COMMISSIONER OF THE
                   FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                         TUESDAY, JUNE 16, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. I think many more of our members will be 
arriving, but the cream of the crop is here.
    [Laughter.]
    The Chairman. Mr. Genachowski, in welcoming you, I want to 
say that communications technology is a vibrating, pulsing 
driver of our Nation, and it has been let to lapse a bit. For 
our Nation, I think, to meet any kind of challenge, no matter 
what you look at, if our communications are not perfect, our 
ways of communicating with each other are not perfect between 
different strata, different parts of the country are not 
perfect, we are in lots and lots of trouble, if we are not 
already.
    Because good communications policy will lay the foundation 
of these noble and hard-to-achieve goals, we need real 
expertise--expertise--that means people who really know what 
they are talking about--at the Federal Communications 
Commission. As I have said before, I believe that being an FCC 
Commissioner is one of the most daunting, awesome, fearsome, 
time-consuming, sleep-depriving jobs in Washington, D.C., and I 
think it is also one of the most under-appreciated and is one 
of the very most important.
    The powers of the FCC are absolutely vast. People have no 
idea. The decisions that it makes impact every single American 
one way or another whether they know it or not or whether they 
care or not. It does. So it has to be done right.
    From the bills that we pay for phone and cable services to 
our ability to reach public safety in times of crisis, that is 
just a little part of it. From the content that gets broadcast 
into millions of living rooms throughout America to the 
broadband networks that can bring equal opportunities to our 
largest cities and our smallest rural areas, the FCC oversees 
it all.
    The decisions this agency makes are vital to our Nation's 
future. Because we entrust FCC Commissioners with these vast 
powers--oh, I did not let you introduce him, but I will before 
he speaks--we expect a lot from our Commissioners. We expect a 
lot. I apologize, Chuck.
    Yet over the last decade, the agency has, at least to this 
Senator, been disappointing. Too often, FCC Commissioners have 
focused on making sure that the policies that they advocate 
serve the ideas and the needs of the companies that they 
regulate and their bottom lines. That is not the kind of 
committee this should be and it is not what the FCC should be.
    Time and time again, the FCC has short-changed consumers 
and the public interest. The influence of special interests at 
the agency is especially troubling, even noteworthy, in the 
distasteful way that they clamor for their preferred candidates 
for FCC office.
    That is why I remain deeply interested in FCC reform, and 
that is why I continue to weigh the merits of FCC 
reauthorization. I want an FCC that is transparent, that 
inspires public confidence, and that makes our digital 
infrastructure a model for the world. Tragically, this has not 
been the case for some time.
    But if the past has been bleak, we have cause for optimism 
because I have met the Administration's nominee for the 
Chairman, that being you. I am thoroughly impressed. Mr. 
Genachowski brings to the job both public and private-sector 
experience. He has the enthusiasm for the power of 
communications, but the tasks before him are complex. The days 
undoubtedly will be long.
    So, Mr. Genachowski, let me be very clear about what the 
challenge before you is in my view. Fix the agency or we will 
fix it for you. Fix this agency. Prove to us that the FCC is 
not battered beyond repair.
    Show us that the FCC can put consumers first and give them 
confidence that when they interact with the agency, they will 
get a fair response.
    Show us that the American people can trust the data that 
the FCC produces and that it can guide us to good and honest 
policy.
    Show us that the American people can have affordable and 
robust broadband no matter who or what or where they might 
live.
    Show us that parents can have confidence to view the 
programming in their homes without their children being exposed 
to violent and, I would say, indecent content.
    Show us that the agency can think beyond its borders. I 
work with industry and government to create jobs. So does the 
FCC. We have got to expand entrepreneurship, grow educational 
resources, and improve health care.
    And that is just for starters.
    I wind up by saying let me remind you that the Congress and 
the American people look to you for these reforms.
    I thank you for joining us today. I was proud to meet your 
family, who you must introduce after Senator Schumer introduces 
you, and your willingness to serve. I am awed by your 
willingness to serve because you are going to be a lot older 
when you are finished.
    [Laughter.]
    The Chairman. And I look forward to your testimony.
    I think I should let the Ranking Member go first.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Mr. Chairman, I do have an opening 
statement, but I would be happy to let Senator Schumer 
introduce the nominee. I would be happy to.
    The Chairman. Why do you not go ahead? Please go ahead.
    Senator Hutchison. OK.
    Mr. Chairman, thank you. Thank you for holding this 
hearing.
    I have met with Mr. Genachowski and I too am very 
impressed. I think he certainly has the capability to handle 
this job, and it is a big one, as the Chairman has said 
eloquently.
    I want to talk about a couple of areas that I think are 
very important and where the FCC is going to have a major role.
    Of course, broadband. We know that there was a major 
commitment to broadband help in the stimulus package, and the 
FCC is currently putting together a broadband map. I believe it 
is so important that we assure that everyone has broadband 
access before we go into underserved areas. Unserved should 
come before underserved as a matter of a level playing field 
where some have already made an investment, but also because 
our rural areas must be able to have broadband before we go 
into an area that has some but not enough.
    Second, broadcasters have certainly been through a 
technology revolution, and they have provided invaluable 
services to our Nation. I just hope that we will not overburden 
broadcasters as they are trying to deal with the increased 
competition in their field with new regulatory burdens and 
reporting requirements that would just make it more difficult 
for them to thrive in this market.
    I do think that the FCC has a major role to play in 
enforcing decency over the airwaves. I am the mother of two 
young children, and I am amazed at some of the things that are 
on networks that are supposed to be OK for children. I hope the 
FCC will look carefully at what is appropriate for children and 
young people as they are looking at the open airwaves that we 
all appreciate.
    Net neutrality is going to be a huge issue for the FCC, and 
I do want to know what the nominees that we are going to hear 
from today will believe is the right way to go in any future 
network management proposals, because I think that it is going 
to be very important that we again keep the ability of a 
company to have control of its own Internet workings, and I 
hope that there would be less interference in that, except 
where necessary, of course.
    And last, Mr. Chairman, copyright protections are a 
critical aspect of promoting richness in programming and 
entertainment options. I hope that we will hear from the 
nominees about their views on what we should be doing in 
protecting copyrights in the entertainment industry.
    So, as the Chairman has said and I think I have filled in 
some of the details, you have a huge portfolio at the FCC. I 
think responsible, common-sense regulation is going to be what 
I am looking for for our FCC Commissioners. I am very pleased 
that you are here and Mr. McDowell after you.
    Mr. Chairman, thank you for holding this hearing.
    The Chairman. Thank you very much, Senator Hutchison.
    Now, with the forbearance of the Committee, since we have a 
most senior Democrat--I forget the State.
    [Laughter.]
    The Chairman. But he is very important. He is very shy, and 
if I do not call on him, he may just leave the room. Senator 
Chuck Schumer?

             STATEMENT OF HON. CHARLES E. SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. Thank you, Mr. Chairman. First, I want to 
thank you, Ranking Member, all the members for giving me the 
honor to introduce Julius Genachowski, one of my former 
staffers and good friends, before he is confirmed to be 
Chairman of the FCC. I have had the pleasure of knowing Julius 
for more than 20 years. In fact, after his New York upbringing, 
he went to college and then I hired him right out of college, 
and he worked for me long and hard. I have been blessed with a 
dedicated and hard-working staff, but Julius will always stand 
out, thanks in large part to the work ethic that his family 
instilled in him.
    His parents, Azriel and Adele, are in the audience today, 
and I have had the pleasure of knowing them. They can speak 
volumes about the adoration they have for Julius and his 
brothers, Joey and Alan, who are also here. And I would like to 
say hello to his wife, Rachel, and his three beautiful 
children, Jake, Aaron, and Lilah.
    I remember that Julius demonstrated a passion for consumer 
rights from the day he came to Congress. And one of his 
signature issues was working on what is now called the Schumer 
Box, which is what is on all credit card applications. It 
should have been called the Genachowski Box, but his name was 
too long, so they put mine in.
    [Laughter.]
    Senator Schumer. But he did most of the work and deserves 
most of the credit. It helped dramatically reduce credit card 
interest rates once people knew what they were. They used to be 
buried in the fine print.
    And I know he is going to carry that dedication to consumer 
rights to his role as FCC Chairman, should he be confirmed by 
this Committee and by the Senate.
    I think it is fair to call Julius a real renaissance man of 
public service. In addition to working for me, he served on the 
House Select Committee on the Iran-Contra affair. He has 
clerked for three Federal judges, including Justices Brennan 
and Souter. Of course, he has had extensive knowledge of the 
FCC, where he worked as special counsel to General Counsel 
William Kennard, who later became Chairman and then to Chairman 
Reed Hundt. The FCC has been a passion for Julius for a very 
long time, and it is so nice to see him nominated for the 
position he knows so well and cares so much about.
    His resume in the public sector demonstrates a widespread 
knowledge of agency experience, and it gives him a well-rounded 
background on all the issues that are before the FCC. And he 
has a great deal that he could--he is a modest fellow, but he 
could boast about his private sector work, which demonstrates 
his understanding of where the Government rubber hits the tech 
company road and how those two entities must work together to 
shape the future of telecommunications.
    He has held numerous positions at IAC/InterActive Corp. 
That is a Fortune 500 media and technology company. He was a 
special advisor for General Atlantic, a global growth equity 
firm, and most recently, he co-founded both LaunchBox Digital 
and Rock Creek Ventures, which helped to advise, launch, and 
accelerate tech companies in their early stages.
    So Julius is creative, knowledgeable, and respected, 
probably as creative, knowledgeable, and respected a nominee 
that the FCC has ever seen. I admire his ability to blend 
pragmatism with bold thinking. He knows that telecommunications 
in an economy that is fundamentally based on interconnectivity 
is instrumental to job creation and entrepreneurship in the 
U.S.
    The President knows that Julius has the ability to harness 
telecommunication technology, to shape our country's 
initiatives from health care to education to energy, and that 
is why he chose Julius to serve as Chairman of the Technology, 
Media and Telecommunications Policy Working Group that created 
the Obama technology and innovation plan.
    So I could not think of a more well-prepared nominee, 
someone who cares more about the agency, someone who has more 
qualities that will make him live up to the strong and 
appropriately high challenges that you, Mr. Chairman and 
Ranking Member Hutchison, have laid before him. And, I am proud 
to introduce him to this Committee.
    Thank you very much for letting me testify.
    The Chairman. Thank you very much, Senator Schumer. We 
value you greatly, and your presence is most welcome.
    I would like to call now on Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Mr. Chairman, I am very pleased today to 
be here for Mr. Genachowski's nomination. I see his family is 
here, which is very exciting. I met his young son out by the 
bathroom, which was also very exciting.
    I am very pleased, after meeting with him and just his 
focus on what he wants to do with the agency. One of my pet 
peeves is while the agency's website was at one point a really 
groundbreaking website, I think it has kind of fallen behind 
and a lot of people complain about access on the website. And I 
was glad that he wanted to look at that.
    I was telling him outside that the DTV transition is going, 
at least in my State--I will not speak for everyone--better 
than we thought, and that the FCC Commissioner McDowell and I 
talked about this on Friday, and the Commerce Department have 
worked together on this. I think a lot of our fears were 
unfounded. Of course, there are problems and glitches that will 
have to be fixed.
    Then, of course, just as the other Senators spoke about, 
the broadband issue is very important to me.
    The other thing--did you want to have me ask questions, Mr. 
Chairman? Are we just doing the opening statements? Is this 
what we are doing here?
    The Chairman. Did you have a treatise in mind?
    Senator Klobuchar. No, I did not. But I was just so happy 
to get called on to give an opening statement. So I will just 
finish up here.
    The Chairman. That is fine.
    Senator Klobuchar. OK.
    The last thing that we spoke about briefly was something 
that Senator Warner and I have introduced legislation--and we 
hope other members of the Committee will look at it--called Dig 
Once. It is the simple idea that if you are going to be 
building a Federal highway, a Federal road project, and you 
want to put in conduit for broadband--and we know we want to do 
this all over the country--that you should be doing it at the 
same time. Literally something like 90 percent of the cost of 
broadband installation is that of roadwork, and you can 
literally save about 10 times the cost if you simply do it at 
the same time.
    It certainly was popular in my State yesterday when they 
were dealing with the road construction season in Minnesota 
with all of the orange cones, delays and closed highways. I 
hope it is something that the FCC will be taking very 
seriously.
    So I wanted to wish you and your family the best. We are 
very excited for your new leadership at the FCC, and we are 
excited to be working with you. Thank you.
    The Chairman. Thank you.
    Senator Pryor?

               STATEMENT OF HON. MARK L. PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman. I will just submit 
my opening statement for the record, but I want to welcome Mr. 
Genachowski to the Committee.
    Mr. Chairman, it is good to have you back in the saddle, 
feeling 100 percent and running this committee like you should 
be.
    Thank you.
    [The prepared statement of Senator Pryor follows:]

  Prepared Statement of Hon. Mark L. Pryor, U.S. Senator from Arkansas
    I want to express my congratulations to you both on your 
nomination, and re-nomination to service on the Federal Communications 
Commission.
    We need a Commission that can ensure that our Nation's 
communications infrastructure is sufficient to reach all consumers.
    We need a plan on how we can deploy high-speed broadband to rural 
America as an essential element of education and economic development.
    Last, I believe it is the role of the FCC to use technology to 
empower parents to choose appropriate programming--rather than to judge 
or prohibit content.

    The Chairman. Thank you, sir.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman. Let me also echo 
what Senator Pryor said about having you back in the saddle. It 
is good to see you up there, see you vibrant and strong, and we 
very much appreciate your leadership on this Committee.
    The Chairman. Do I have to ride horses?
    [Laughter.]
    Senator Udall. If you come to my State, you are going to 
ride a horse. OK? We will saddle you up and you will do just 
fine. No doubt about it.
    I would like to echo also what the Ranking Member, Senator 
Hutchison, said about broadband, and I think Senator Klobuchar 
and Mr. Genachowski also mentioned it. It is so important, I 
think, that we get the country connected. If we look at the 
various points in our history where we were not connected, with 
the railroads in the 1880s, we made a major investment, and we 
encouraged railroads to serve the entire country. Then with FDR 
in the 1930s and 1940s, we realized we were not connected in 
terms of electricity, and we brought electricity to rural areas 
with rural electric co-ops. I really hope that your tenure at 
the FCC shows the leadership to lead out on broadband.
    And I applaud Senator Warner and Senator Klobuchar for 
their bill in thinking through how we put this in.
    One of the areas I would like you to think about and 
address in your opening statement is Indian Country. We have 
some real problems out there in terms of, not only broadband, 
but telephones.
    I remember when President Clinton was trying to demonstrate 
the digital divide, and I think I told this to you in our 
meeting. He started out in the Silicon Valley and he ended up 
in Shiprock, New Mexico. And the young lady who introduced him 
was a star student. She got up and did the introduction, and 
she talked about how she won a computer. Then she took it home, 
but she did not have a phone line. She did not have the ability 
to plug it in. And he used that trip from the Silicon Valley to 
Shiprock, New Mexico out on the Navajo Reservation to show the 
huge digital divide.
    So I hope that your leadership there will move us down the 
road, and this Committee will also step up to the plate.
    It is wonderful to see you here. As Amy said, it was 
wonderful to see that tie on your son out there.
    [Laughter.]
    Senator Udall. He is a very impressive young man. I do not 
know where he is. You are going to introduce him, but he seems 
to have disappeared.
    Mr. Genachowski. He is still preparing.
    Senator Udall. But thank you very much. Thanks, Mr. 
Chairman.
    The Chairman. Thank you.
    Senator Johanns?

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Mr. Chairman, thank you very much.
    I cannot be here for long today because of some other 
commitments, but I did want to stop by and offer a few 
thoughts.
    First of all, Mr. Genachowski, we have not had an 
opportunity really to meet or to talk at any length. So I look 
forward to that opportunity.
    But I have to tell you, looking at your background and your 
resume, two things come to mind. The first is, congratulations 
on kind of a remarkable career. You have prepared yourself well 
for what you are about to get yourself into, which is a job 
with huge responsibility. Second, it just occurs to me if you 
are not qualified for this, I do not know who would be 
qualified.
    So I really wish you the very, very best and look forward 
to working with you on a whole range of issues.
    So many good things have been mentioned, and I do not want 
to repeat them other than to indicate that yes, of course, for 
me issues like broadband, broadband in rural areas, and 
sparsely populated areas, would of course be important. Much of 
Nebraska is that way.
    Second, whether we hear about it today--or maybe sometime 
you can stop by the office--I would love to visit with you 
about the community advisory boards. I cannot say there is huge 
controversy out there, but there is some controversy. There is 
some concern that, you know, if a local broadcaster does not 
know the community, who could possibly know the community? But 
again, I do not want to sidetrack during this hearing on the 
issue. I think this is something that I can visit with you 
about and I am anxious to do that.
    I would also like to hear some thoughts at some point about 
economic growth in rural areas. I do think the Commission is 
uniquely situated to help us in more rural States, and maybe it 
is broadband. Maybe there are some other things that we can do 
together to try to boost economic activity. I always said as a 
Governor and as a former Mayor, creating a job in Omaha is 
vastly different than creating a job in a community of 2,000 
people that is in a very rural part of the State. So I would 
love to visit with you about that.
    The second thing, just to wrap up, Mr. Chairman, I do also 
want to put in a very strong endorsement for someone who I hope 
will be your future colleague, and that is, Commissioner 
McDowell, who will follow you. I just think the two of you have 
a great opportunity to work together. I have found Commissioner 
McDowell to be bright, extremely fair, and open-minded. I think 
you can create a bond and a working relationship that kind of 
extends across the aisle, like many of us do on this Committee. 
I really encourage that and urge it. Looking at your resume, 
knowing him better than I actually know you at this point, I 
just think there is a tremendous amount of brain power that, 
put to work, can really help our great Nation.
    The final thing. Having sat in your seat at one point in my 
career, I just want to say congratulations, and I would say the 
same thing to Commissioner McDowell. Your family can be so 
proud of this day. This is really great, and I wish you the 
very, very best. I am very anxious to work with you in the 
weeks and months ahead.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator, very much.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    Welcome, Julius Genachowski. I enjoyed our chance to chat.
    When we saw what recently happened, the Federal 
Communications Commission faced a major test when they moved 
the entire country from analog to digital. This move promises 
better programming and picture and sound quality for our 
residents and businesses, and it will free up space for 
wireless broadband and public safety needs.
    Despite a slow start and a few delays, I am pleased with 
how successful the transition was, and I look forward to the 
benefits that it will bring to those residents of New Jersey 
who had been, in previous years, out of the quality of 
transmission.
    Commissioner McDowell, as well as Acting Chairman Copps, 
and Commissioner Adelstein, deserves credit for making the 
transition work. They worked very hard on it, and it was 
reflected. They showed the kind of leadership that we expect 
from the FCC.
    If you are confirmed--and there is little doubt in my 
mind--and Robert McDowell is confirmed, we expect them to 
continue the commitment and the leadership that we have seen. 
Based on the proven track record, I believe that you will be up 
to the task.
    We heard from Chuck Schumer about your past experience, and 
we know that he was very impressed with the kind of work that 
you did and takes total credit for whatever developments you 
have had.
    If these nominees, you and Mr. McDowell, are confirmed, you 
are going to still have some very critical tasks that have to 
get attention. Our work on digital transition is not yet done. 
We need a plan for a public safety broadband network using some 
airwaves that were freed up by the switch to digital.
    And we still need to make our communications system work 
for the residents of New Jersey. New Jersey is the only State 
without its own media market. New Jersey's only commercial 
high-powered station, WWOR, has failed to meet its obligation 
of our State. So we are going to talk to you about that, and I 
am not sure that we are going to have the time to ask questions 
and still meet other obligations in my case.
    The FCC is drafting a national broadband plan, getting 
broadband in underserved communities, not just the underserved 
rural ones. It is essential that we continue to help people 
continue to learn, get newer, better jobs, and keep America 
competitive.
    And I look forward to our contact in the future, knowing 
that we have an able skipper at the helm. And I congratulate 
you.
    The Chairman. Thank you, Senator.
    Senator Dorgan?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much. I am 
going to support both nominees. Commissioner McDowell, of 
course, is nominated for a second term, and I am pleased to 
support him.
    Let me associate myself with the remarks of the Senator 
from Nebraska. I think, Mr. Genachowski, you have a perfect 
background to assume the chairmanship, and I will be happy to 
vote for you.
    Let me say, however, that it seems to me you will lead a 
rather unhealthy agency, and by that, I mean we have been 
through a period of substantial secrecy, I believe a very 
difficult work environment and with questions about unbiased 
policy research studies. Some of them perhaps do not match 
someone's impression of what should have come out of the 
studies, so they were not released. A lot of very important, 
serious questions were raised about the stewardship of the FCC.
    So I am pleased that we have an opportunity now for a new 
direction. Commissioner Copps has, I think, done a fine job in 
an acting capacity, but we need more transparency, more 
openness, in policy development. You are going to have to 
develop a national broadband plan, which is a big, big issue 
and has so many important considerations. Policies on spectrum, 
what spectrum out there lies fallow, why, how much of it, why 
is it not used, what can we do about that, the failed program 
on forbearance petitions, net neutrality--which by the way, you 
can solve yourself. We have an active and aggressive debate 
here in the Congress on net neutrality, but you could actually 
remove that burden by taking a very significant step in solving 
that issue and restoring net neutrality provisions.
    And then there's the issue of public interest obligations 
and substantial concentration of broadcast properties around 
the country, and the fact that many of us think that 
concentration has been very unhealthy.
    So that is a very significant, sizable menu of great 
importance to the entire country. Again, I am pleased when we 
have nominees come before us who are extraordinarily well 
qualified. I think that is the case with you, and I am pleased 
to support your nomination and Commissioner McDowell's as well.
    The Chairman. Thank you, Senator Dorgan.
    Senator Warner?

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. It is great to 
have you back, as others have mentioned.
    Let me also add one more kudos to Julius' background. I 
actually had the opportunity to get to know him many, many 
years ago when we used to play basketball at the YMCA here in 
town together. Then he stopped playing with me and he started 
playing with this other guy who now lives down the street at 
1600 Pennsylvania Avenue. So it was great over the last few 
years for Julius and I to reconnect. He has got a pretty mean 
jump shot and is someone that I know has a deep friendship with 
the President.
    I want to echo a couple of comments that Senator Dorgan 
made. As somebody who at least used to know a little something 
about telecom, I do think we have a chance--and I also will be 
supporting Commissioner McDowell. I actually have to step away. 
I hope to come back and to be able to introduce my fellow 
Virginian, somebody I am proud to support.
    But I do think there is a chance to kind of reestablish the 
stature and prominence of the FCC. It is a terribly important 
agency that has a critically important scope of work, and I 
look forward to working with you.
    I want to just echo a couple of very quick comments, one on 
broadband. Making sure we get it right is terribly important. 
With Senator Klobuchar--her bill is on trying to make sure we 
think smartly about how we deploy the fiber. But it is also 
important that we think clearly about making sure that we have 
got an accurate mapping of broadband capabilities around the 
country, that we really think creatively about last-mile 
concerns. Broadband, as you know, does no good if you can bring 
it to a town hall, but you do not have any ability to get it 
out around the balance of the community. I think we really need 
to be creative about how we put incentives in place and help 
smaller communities, in particular, aggregate demand so they 
can have a sustainable broadband network, even if the public 
sector makes the initial investment. How do we keep that system 
operating over the long haul?
    Senator Dorgan also mentioned some of the issues around 
spectrum. We are quite successful on the D block auctions on 
the 700 MHz space, but trying to make sure that we have that 
next-generation public safety spectrum that is fully 
interoperable is, candidly, I think still an embarrassment in 
this country that this many years after 9/11, we do not have 
that fully interoperable, full-functioning public safety 
spectrum across the whole country. It is going to be right on 
your menu and making sure, again, as we do this analysis of 
what spectrum exists out there and how we make sure we get it 
out to the public and, perhaps at the same time, generate some 
revenue.
    So, Julius, I look forward to working with you. It is great 
to have you back in the public sector. Again, I have to step 
away for a minute, but I do hope to get back to introduce my 
fellow Virginian, Robert McDowell, who I know will continue to 
be a great Commissioner and a great partner, I think, with 
Julius in getting the FCC back on track.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Warner follows:]

   Prepared Statement of Hon. Mark Warner, U.S. Senator from Virginia
    Good afternoon. I am pleased to introduce my fellow Virginian, 
Federal Communications Commissioner, Robert McDowell to the Committee 
this afternoon.
    Rob is a native and life-long resident of Vienna, Virginia who 
joined the Commission in 2006. On June 8, 2009, President Barack Obama 
nominated him for a second term.
    Since coming to the Commission, Rob has collaborated with his 
fellow Commissioners to develop and establish American communications 
policy. Among other endeavors, he has worked to: create rules governing 
wireless auctions; establish a framework for unlicensed use of TV 
``white spaces'' spectrum; develop incentives to encourage the 
development of new broadband technologies; review public interest 
benefits as part of the approval process of proposed corporate mergers; 
and adjudicate enforcement proceedings.
    Prior to joining the FCC, he was a senior executive for two telecom 
trade associations. He brings approximately sixteen years of private-
sector experience in the communications industry to the FCC.
    Rob is a graduate of Duke University and the Marshall-Wythe School 
of Law at the College of William and Mary. Upon his graduation from law 
school, Rob joined the law firm of Arter & Hadden.
    Rob has been extensively involved in civic and political affairs in 
the Commonwealth of Virginia. Between college and law school, he served 
as a chief legislative aide to a member of the Virginia House of 
Delegates. He has been a candidate for the Virginia General Assembly 
twice and is a veteran of several Presidential, Congressional and state 
campaigns.
    He has also served as a gubernatorial appointee to the Governor's 
Advisory Board for a Safe and Drug-Free Virginia, and to the Virginia 
Board for Contractors. He has served on the Board of the McLean Project 
for the Arts since 1994 and was its Chairman from 2005 to 2007.
    I want to congratulate my fellow Virginian, Rob McDowell, on his 
nomination for a second term.

    The Chairman. Thank you, Senator.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman.
    I will be very brief, Julius. Thank you for the time that 
you came and met with me and your commitment to consider coming 
to Alaska again and see what we are doing up there.
    I just want to echo everything that people have said here. 
Your credentials are incredible and a great addition to the 
FCC. So there is no question where I am going to be on this.
    I have some questions I will probably ask you to put on the 
record.
    But again, thank you for being here and to your family that 
I know needs to support you in this endeavor, as you will be 
drawn across the country at times to present, discuss, and have 
issues brought to your attention that will require you to leave 
Washington, D.C. at times. So, again, thank you for your 
willingness to do this, and again, thank you for the time that 
we spent together going over very Alaskan-type issues. And I 
will probably ask you a few on the record.
    But again, congratulations, and I will leave it at that.
    The Chairman. Thank you, Senator Begich.
    Senator Kerry?

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you very much, Mr. Chairman. It is 
good to have you back. I was going to slap you on the thigh and 
welcome you back, but I did not know which leg it was, so I did 
not.
    [Laughter.]
    Senator Kerry. Mr. McDowell, I want to congratulate you on 
your second nomination to serve on the Commission, and I look 
forward to supporting you also. I particularly want to express 
my support. We have had a chance to chat, and I think you know 
I support you, but I want to express it publicly. I think you 
are the right person to lead this Commission at a time of great 
economic uncertainty, and the experience that you bring from 
your previous tenure at the Commission, as well as your own 
private-sector experience, is just the right recipe for the 
Commission during these difficult times.
    The FCC regulates, as you know, an industry that makes up 
roughly one-fifth of the U.S. economy, and I regret to say that 
the tenure and stewardship, if you can call it that, of your 
predecessor really, I thought, was a bleak period, a difficult 
period for all of us at the FCC. I think it is a trail of 
missed opportunities, of acts of commission and omission that 
wound up just not taking advantage of the revolution in the 
communications world and the need to come up with some 
fundamental policies, not the least of which is just the 
broadband penetration of our Nation which slipped from 
something like 4th to 21st. That is not a positive statement 
about competitiveness or America's preparedness to step up.
    You are going to have an enormous influence on industries 
that we rely upon to serve as dynamic drivers for the future of 
our economy, and we are going to look to you for that 
leadership. I am confident from what you have said already and 
from your past that you understand that challenge.
    Obviously, this hearing comes at a time of great 
transformation in the way that we are communicating with each 
other in this country. Just 4 days ago, broadcast television 
stations completed the digital transition, shutting off analog 
signals that have delivered air broadcast television to 
households for more than 60 years. That transition did a lot 
more than just bring a clearer TV picture into those rooms 
where people got their box and got ready for it. It cleared the 
way for a vast amount of beach-front spectrum to be put to 
better use. Senator Dorgan and others have commented on that 
use and what we need to do. But thanks to the digital switch, 
next-generation wireless broadband networks are being built 
across the country and consumers are going to reap the benefits 
of that.
    So when confirmed, you are going to begin to craft the 
FCC's national broadband plan, and that I think is perhaps the 
most important task you are going to face as Chairman, given 
the way we have gone backward and the level of the challenge.
    As part of that process, I hope you are going to consider 
taking a look at the way we manage and allocate spectrum, both 
publicly and privately, in order to see that we use it more 
efficiently. I have introduced legislation with Senator Snowe 
and others on this Committee to require the Commission to work 
with NTIA on a comprehensive spectrum inventory, and I think 
that such an effort would play an integral role in any plan for 
achieving universal broadband service.
    There is obviously no shortage of challenges waiting for 
you as you enter the Chairman's office. The quarterly 
contribution rate to the Universal Service Fund is as high as 
it has ever been. Yet, the fund does not cover broadband 
service. And nearly 8 years after 9/11, shockingly we still 
have not made good on the 9/11 Commission's recommendation to 
build an interoperable public safety communications network. 
So, from addressing these challenges and others, to maintaining 
the openness of the Internet, which many of us, I think you 
know, care about passionately, as well as maintaining a 
laboratory for innovation, I think you are going to see some of 
the biggest challenges that we have faced in this field, but I 
am confident that this Commission is up to the task of 
implementing the President's technology agenda.
    So we look forward to a swift confirmation and we 
particularly look forward to working closely with you. We hope 
that you will commit in the hearings to a strong, candid, and 
really cooperative relationship with the Committee.
    Thank you.
    The Chairman. Thank you, Senator Kerry.
    We turn now to you, Julius Genachowski. For those of you 
who may be trying to figure out how to pronounce his name, we 
have had researchers at work for 3 days on that and it is 
pronounced ``chow'' not ``cowski.'' Genachowski.

                STATEMENT OF JULIUS GENACHOWSKI,

           NOMINATED TO BE COMMISSIONER AND CHAIRMAN,

               FEDERAL COMMUNICATIONS COMMISSION

    Mr. Genachowski. Well----
    [Laughter.]
    Mr. Genachowski. We have changed our name. It is 
Genachowski.
    [Laughter.]
    Senator Kerry. That is your first victory over the 
Chairman.
    [Laughter.]
    The Chairman. All of these people are going to be laid off.
    [Laughter.]
    The Chairman. I would hope that you would introduce your 
family.
    Mr. Genachowski. Thank you, Chairman Rockefeller. First, 
thank you to you for your generous introduction--I should 
proceed to introducing my family before we lose my kids. I 
could not be happier that my wife, Rachel Goslins, is here and 
all three of my children, starting youngest to oldest, Aaron 
Genachowski, Lilah, and my oldest son, Jake are here. I am so 
pleased that my parents, Azriel and Adele Genachowski, were 
able to come from New York, and also my brothers, Joey and 
Alan. I believe that a couple of cousins are here too, Rabbi 
Menachem Genak and Alexis Brooks. So thank you all for coming.
    Chairman Rockefeller and Ranking Member Hutchison, 
distinguished Members of the Committee, thank you for the 
opportunity to appear before you today. I am grateful for this 
chance. I look forward to answering your questions and seeking 
your support for my nomination.
    Mr. Chairman, over the years, I have had a chance to see 
your commitment to American consumers, your dedication to 
protecting the safety of our Nation's communities. I look 
forward to working with you on these and other vital issues.
    Senator Hutchison, I have great respect for the leadership 
you bring to the Committee, and I look forward to working with 
you on the vital issues in the communications area.
    I would like to thank Senator Schumer for taking the time 
to introduce me and for his decision 24 years ago to give a 
young college graduate his first job.
    Thank you for the chance to have me introduce my family.
    Mr. Chairman, it is a tremendous honor to have been 
nominated by President Obama to serve as Chairman of the 
Federal Communications Commission, and while this hearing is an 
honor for me, it is something even more for my family. It is a 
celebration of the hope and dreams that brought my parents to 
the United States about 50 years ago.
    My parents are immigrants. My father fled the Nazi terror 
and ultimately came to the United States. My mother joined him, 
and together they raised a loving family and became role models 
for their children. My father as a hard-working businessman, my 
mother as a hard-working homemaker, both completely committed 
to family and community. From my parents, I learned the meaning 
of the American Dream.
    I learned something else too. My father came to the U.S. to 
study engineering. I will never forget the day when I was in 
high school, about as old as my oldest son is now. My dad and I 
were on a college trip to Boston. I remember him leading me 
into the dusty stacks of the MIT library and showing me 
engineering plans he had drafted as a graduate student. They 
were for a device designed to some day help blind people read 
words on paper by translating text into physical signals.
    The formulas and drawings did not make much sense to me 
then, and Dad, I confess they still do not. But the core lesson 
has remained with me: communications technology has the power 
to transform lives for the better.
    We have all seen and lived--and many of the members spoke 
about it in their opening statements--the implications of the 
communications revolution. In the 20th Century, we saw a world 
reshaped by communications technologies and networks: the 
telephone, radio and television, satellites, computers, and the 
birth of the Internet.
    Now, in the 21st Century, communications has the potential 
to unleash new waves of innovation, increasing opportunity and 
prosperity, driving American competitiveness and leadership, 
connecting our country, strengthening our democracy, and 
transforming lives for the better.
    The Federal Communications Commission has an important role 
to play in pursuing these goals and, in doing so, on behalf of 
all Americans.
    If confirmed, I look forward to learning from and working 
closely with the Committee on these essential topics.
    In this time of profound economic challenge, our 
communications sector can make a significant contribution to 
our Nation's near-term economic recovery and long-term economic 
success. Congress has entrusted the FCC with the important task 
of developing a national broadband plan. A world-leading 
broadband infrastructure in America can be an ongoing engine 
for innovation and job creation throughout our country, from 
our rural towns to our inner cities, while helping address 
vital national challenges such as public safety and education, 
health care and energy, ultimately helping give all of our 
country's children the future we dream for them.
    As communications devices and networks become ever more 
essential to the daily lives of every American and as the media 
landscape changes dramatically, the need has never been greater 
for an FCC that sees the world from the perspective of 
consumers and families.
    Mr. Chairman, I am honored by the possibility of returning 
to Government and serving our country. My 2 decades of 
professional experience have been divided between public 
service and the private sector. I began as a Congressional 
staffer in the 1980s. I remember walking these hallways, 
knocking on doors, and looking for a job.
    After law school, I was fortunate to serve as a law clerk 
in the courts, and I served on the staff of the FCC in the 
1990s, at a time when one of the agency's tasks was 
implementing the historic E-Rate provision, championed by you, 
Mr. Chairman, and Senator Snowe, connecting classrooms and 
libraries to the Internet.
    I wanted to work in Government because this great country 
had given so much to my family, and I wanted to give back, and 
because I believed that Government can be a force for good and 
can help improve the lives of all Americans. These are still my 
ideals today.
    For the last decade, I have worked in the private sector 
with large media and technology companies, as well as small 
businesses and entrepreneurial startups. I saw firsthand how 
communications technologies and networks can serve as 
foundations for innovation and for expanding our economy. The 
experience reinforced my deep respect for private enterprise, 
the indispensable engine of economic growth.
    My time in the private sector also taught me what it means 
to operate in a dynamic and ever-changing marketplace. I 
learned the power of pragmatism and the danger of dogma. And if 
confirmed, I would strive to bring that spirit of common sense 
to my role in Government.
    My career inside and outside Government has convinced me 
that the FCC can be a model for excellence in Government, 
fighting for consumers and families, fostering investment and 
innovation through open, fair, and data-driven processes, a 
21st century agency for the information age. The FCC should 
consult closely with Congress and work effectively and 
efficiently for the American people. There are so many devoted 
and talented public servants at the FCC, many of whom I was 
fortunate to work with earlier in my career at the agency. I 
hope the Committee will give me the opportunity to work with 
them again.
    Before closing, I would like to salute the work of Acting 
Chairman Michael Copps and Commissioners Jonathan Adelstein and 
Robert McDowell. I would like to congratulate Commissioner 
McDowell on his renomination. I would like to salute the 
Commission for the hard work they have done in connection with 
the digital television transition. Our country has benefited 
greatly from their service.
    Thank you again, Mr. Chairman, for the opportunity to 
appear before you. I look forward to answering your questions.
    [The prepared statement and biographical information of Mr. 
Genachowski follows:]

Prepared Statement of Julius Genachowski, Nominated to Be Commissioner 
            and Chairman, Federal Communications Commission
    Thank you, Chairman Rockefeller, Ranking Member Hutchison, and 
other distinguished Members of the Committee, for the opportunity to 
appear before you today. I am grateful for the chance to learn about 
areas of interest to you, to answer your questions as best I can, and 
to seek your support for my nomination.
    Mr. Chairman, over the years I have witnessed your commitment to 
American consumers, and your dedication to protecting the safety of our 
Nation's communities. I look forward to working with you on these and 
other vital issues.
    Senator Hutchison, I have great respect for the leadership you 
bring to the Committee, and I look forward to the opportunity to work 
with you on the important issues in this area.
    I'd like to thank Senator Schumer for introducing me today--and for 
his decision 24 years ago to give a young college graduate his first 
job. Senator Schumer sets a high bar for public service, and I am 
honored to call him a mentor and a friend.
    Please allow me to introduce the members of my family who are here 
today. I could not be more grateful for the love and support of my 
wonderful wife, Rachel Goslins, and my incredible children--Jake, 
Lilah, and Aaron. I'm so pleased that my parents are here, Adele and 
Azriel Genachowski, and my two brothers, Joey and Alan Genachowski.
    Mr. Chairman, it is a tremendous honor to have been nominated by 
President Obama to serve as Chairman of the Federal Communications 
Commission. While this hearing is an honor for me, it is something even 
more for my family. It is a celebration of the hope and dreams that 
brought my parents to the United States almost 50 years ago.
    My parents are immigrants. My father fled the Nazi terror and 
ultimately came to the United States. My mother joined him, and 
together they raised a loving family and became role models for their 
children--my father as a hard-working businessman, my mother as a hard-
working homemaker, both completely committed to family and community. 
From my parents, I learned the meaning of the American Dream.
    I learned something else too. My father came to the U.S. to study 
engineering. I'll never forget the day--I was in high school, about as 
old as my oldest son is now--my dad and I were on a college trip to 
Boston. I remember him leading me into the dusty stacks of the MIT 
library, and showing me engineering plans he had drafted as a graduate 
student. They were for a device designed to someday help blind people 
``read'' words on paper by translating text into physical signals.
    The formulas and drawings didn't make much sense to me then--and, 
Dad, I confess, they still don't--but the core lesson has remained with 
me:
    Communications technology has the power to transform lives for the 
better.
    We've all seen, and lived, the implications of the communications 
revolution. In the 20th Century, we saw the world reshaped by 
communications technologies and networks--the telephone, radio and 
television, satellites, computers, and the birth of the Internet.
    Now in the 21st Century, communications has the potential to 
unleash new waves of innovation: increasing opportunity and prosperity, 
driving American competitiveness and leadership, connecting our 
country, strengthening our democracy--and transforming lives for the 
better.
    The Federal Communications Commission has an important role to play 
in pursuing these goals, and in doing so on behalf of all Americans.
    If confirmed, I look forward to learning from and working closely 
with the Committee on these essential topics.
    In this time of profound economic challenge, our communications 
sector can make a significant contribution to our Nation's near-term 
economic recovery and long-term economic success. Congress has 
entrusted the FCC with the important task of developing a national 
broadband plan. A world-leading broadband infrastructure in America can 
be an ongoing engine for innovation and job creation throughout the 
country, from our rural towns to our inner cities, while helping 
address vital national challenges such as public safety and education, 
health care and energy independence--ultimately helping give all of our 
country's children the future we dream for them.
    As communications devices and networks become ever more essential 
to the daily lives of every American, and as the media landscape 
changes dramatically, the need has never been greater for an FCC that 
sees the world from the perspective of consumers and families.
    Mr. Chairman, I am honored by the possibility of returning to 
government and serving our country.
    My two decades of professional experience have been divided between 
public service and the private sector. I began as a Congressional 
staffer in the 1980s--I remember walking these hallways, knocking on 
doors, looking for a job. After law school, I was fortunate to serve as 
a law clerk in the courts. And I served on the staff of the FCC in the 
1990s, at a time when one of the agency's tasks was implementing the 
historic E-Rate provision, championed by you, Mr. Chairman, and Senator 
Snowe, connecting classrooms and libraries to the Internet.
    I wanted to work in government because this great country had given 
so much to my family and I wanted to give back, and because I believed 
that government can be a force for good and help improve the lives of 
all Americans. These are still my ideals today.
    For the last decade I've worked in the private sector--with large 
media and technology companies as well as small businesses and 
entrepreneurial start-ups. I saw first-hand how communications 
technologies and networks can serve as foundations for innovation and 
for expanding our economy. The experience reinforced my deep respect 
for private enterprise, the indispensable engine of economic growth.
    My time in the private sector also taught me what it means to 
operate in a dynamic and ever-changing marketplace. I learned the power 
of pragmatism and the danger of dogma. If confirmed, I would strive to 
bring that spirit of common sense to my role in government.
    My career inside and outside government has convinced me that the 
FCC can be a model for excellence in government, fighting for consumers 
and families, fostering investment and innovation, through open, fair, 
and data-driven processes--a 21st Century agency for the information 
age. The FCC should consult closely with Congress, and work effectively 
and efficiently for the American people. There are so many devoted and 
talented public servants at the FCC, many of whom I was fortunate to 
work with earlier in my career at the agency. I hope the Committee will 
give me the opportunity to work with them again.
    Before closing, I would like to salute the work of Acting Chairman 
Michael Copps, and Commissioners Jonathan Adelstein and Robert 
McDowell. Our country has benefited greatly from their service.
    Thank you again, Mr. Chairman, for the opportunity to appear before 
you. I look forward to answering your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Julius M. Genachowski.
        (Julius Raddatz Genachowski, 1/91-4/97).

    2. Position to which nominated: Chairman of the Federal 
Communications Commission.
    3. Date of Nomination: March 23, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office Address: 709 G Street, NW, Suite 300, Washington, DC 
        20001.

    5. Date and Place of Birth: August 19, 1962; Brookline, MA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Rachel Goslins, documentary filmmaker and consultant. 
        Current positions and places of employment: film director at 
        JWM Productions (part-time); consultant to Independent 
        Television Service (ITVS) (part-time) as director of the 
        Independent Digital Distribution Lab, a joint project of ITVS 
        and PBS; head of Triple Leo Productions, a self-owned 
        production company.

        Children: Jacob Genachowski, age 17; Lilah Genachowski, age 4; 
        Aaron Genachowski, age 2.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Harvard Law School; Juris Doctor; magna cum laude, 1991.

        Columbia College; Bachelor of Arts; magna cum laude, 1985.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.


------------------------------------------------------------------------
   Job Title(s)          Employer            Dates          Location
------------------------------------------------------------------------
Co-Founder and      LaunchBox Digital   2007-Present    Washington, D.C.
 Manager
------------------------------------------------------------------------
Co-Founder and      Rock Creek          2006-Present    Washington, D.C.
 Managing            Ventures
Director
------------------------------------------------------------------------
Special Advisor     General Atlantic    2006-Present    Washington, D.C./
                                                         New York
------------------------------------------------------------------------
Chief of Business   IAC/                2003-2005       New York
 Operations and      InterActiveCorp
 Member of Office
 of the Chairman
------------------------------------------------------------------------
General Counsel     IAC/                2000-2003       New York
                     InterActiveCorp
------------------------------------------------------------------------
General Counsel     USA Broadcasting    1997-2000       New York
 and Senior Vice     (IAC/
 President,          InterActiveCorp
 Business            predecessor)
Development
------------------------------------------------------------------------
Chief Counsel to    Federal             1995-1997       Washington, D.C.
 the Chairman        Communications
                    Commission
------------------------------------------------------------------------
Special Counsel to  Federal             1994-1995       Washington, D.C.
 the General         Communications
 Counsel            Commission
------------------------------------------------------------------------
Law Clerk           Justice David H.    1993-1994       Washington, D.C.
                     Souter,
                    U.S. Supreme Court
------------------------------------------------------------------------
Law Clerk           Justice William J   1992-1993       Washington, D.C.
                     Brennan, Jr.
                     (Ret.), U.S.
                     Supreme Court
------------------------------------------------------------------------
Law Clerk           Chief Judge Abner   1991-1992       Washington, D.C.
                     J. Mikva, United
                     States Court of
                     Appeals for the
                     D.C. Circuit
------------------------------------------------------------------------
Legal Intern        U.S. Department of  Summer 1989     Boston, MA
                     Justice, United
                     States Attorney's
                     Office, Organized
                     Crime Strike
                     Force
------------------------------------------------------------------------
Legislative         Congressman (now    1985-1986;      Washington, D.C.
 Assistant; Press    Senator) Charles    1988
 Secretary           E. Schumer
------------------------------------------------------------------------
Professional Staff  U.S. House Select   1987            Washington, D.C.
                     Committee on Iran-
                     Contra Affair
------------------------------------------------------------------------

    I believe each of these jobs represent management-level experience 
and/or experience that relates to serving as Chairman of the Federal 
Communications Commission.
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    Advisory Board of the Obama-Biden Transition Project; co-leader of 
the Transition's Technology, Innovation and Government Reform Working 
Group.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.


------------------------------------------------------------------------
        Name of Organization                     Affiliation
------------------------------------------------------------------------
Bandwidth.com                        Advisor
------------------------------------------------------------------------
Beliefnet                            Director and Stockholder
                                      Representative
------------------------------------------------------------------------
Brennan Center for Justice           Member, Program Advisory Board
------------------------------------------------------------------------
CampusU, Inc.                        Advisor
------------------------------------------------------------------------
Common Sense Media                   Director
------------------------------------------------------------------------
E2 (Environmental Entrepreneurs)     Advisory Board, Member
------------------------------------------------------------------------
Exent                                Advisor through Rock Creek Ventures
------------------------------------------------------------------------
Fora.tv                              Advisor
------------------------------------------------------------------------
General Atlantic                     Special Advisor
------------------------------------------------------------------------
Gizmoz                               Consultant through Rock Creek
                                      Ventures
------------------------------------------------------------------------
Hillcrest Labs                       Advisor
------------------------------------------------------------------------
IAC InterActiveCorp (and             Chief of Business Operations,
 predecessors)                        General Counsel, Member of Office
                                      of the Chairman
------------------------------------------------------------------------
JackBe                               Director
------------------------------------------------------------------------
Jagen                                Consultant through Rock Creek
                                      Ventures
------------------------------------------------------------------------
Jana Partners                        Consultant
------------------------------------------------------------------------
LaunchBox Digital                    Co-Founder and Manager
------------------------------------------------------------------------
Mark Ecko Enterprises                Advisory Director and Consultant
------------------------------------------------------------------------
New Resource Bank                    A Founding Organizer and Advisor
------------------------------------------------------------------------
Obama for America                    Chairman, Technology, Media and
                                      Telecom Policy Advisory Committee;
                                      technology adviser to the
                                      campaign; member, National Finance
                                      Committee
------------------------------------------------------------------------
Advisory Board of the Obama-Biden    Member
 Transition Project
------------------------------------------------------------------------
Rapt                                 Advisor
------------------------------------------------------------------------
Rearden Commerce                     Advisor
------------------------------------------------------------------------
Rock Creek Ventures                  Co-Founder and Managing Director
------------------------------------------------------------------------
Social Median                        Advisor
------------------------------------------------------------------------
Styleclick                           Director
------------------------------------------------------------------------
The Motley Fool                      Director
------------------------------------------------------------------------
Thummit (and predecessor)            Chairman and Director
------------------------------------------------------------------------
Ticketmaster Entertainment, Inc.     Director
------------------------------------------------------------------------
Track Entertainment                  Advisor through Rock Creek Ventures
------------------------------------------------------------------------
Truveo                               Advisor
------------------------------------------------------------------------
Viewpoints Network                   Advisor
------------------------------------------------------------------------
Web.com                              Director
------------------------------------------------------------------------
WebLoyalty                           Director
------------------------------------------------------------------------

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.


------------------------------------------------------------------------
    Name of          Type of          Nature of      Start
  Organization     Organization     Relationship      Dale     End Date
------------------------------------------------------------------------
Adas Israel      Religious        Member              1992   Present
------------------------------------------------------------------------
Brennan Center   Non-Profit       Member, Program     2002   Present
 for Justice                       Advisory Board
------------------------------------------------------------------------
Common Sense     Non-Profit       Director            2005   Present
 Media
------------------------------------------------------------------------
E2               Non-Profit       Advisory Board,     2003   Presently
 (Environmental                    Member                     an E2
 Entrepreneurs)                                               member;
                                                              Advisory
                                                              Board
                                                              Member in
                                                              2006 and
                                                              2007
------------------------------------------------------------------------
Maret Parents    Educational      Class               2005   2006
 Association                       Representative
------------------------------------------------------------------------
Obama for        Political        Chairman,           2007   2008
 America                           Technology,
                                   Media and
                                   Telecom Policy
                                   Advisory
                                   Committee;
                                   technology
                                   adviser to the
                                   campaign;
                                   member,
                                   National
                                   Finance
                                   Committee
------------------------------------------------------------------------
Advisory Board   Political        Member              2008   2009
 of the Obama-
 Biden
 Transition
 Project
------------------------------------------------------------------------
Society of       Educational      Member              1984   Present
 Sachems,         Honor Society
 Columbia
 College
------------------------------------------------------------------------
Swiss            Cultural         Member              2004   2005
 Benevolent       Society
 Society of New
 York
------------------------------------------------------------------------
Swiss Club of    Cultural         Member              2004   2006
 Washington,      Society
 D.C.
------------------------------------------------------------------------

    None of these organizations restricts membership on the basis of 
sex, race, color, religion, national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.


------------------------------------------------------------------------
     Political Candidate/Party/Election       Contribution
                 Committee                       Amount          Date
------------------------------------------------------------------------
Lisa Madigan/Citizens for Lisa Madigan                 $500    6/27/2008
------------------------------------------------------------------------
Paul Hodes/Paul Hodes for Congress                     $500    6/14/2008
------------------------------------------------------------------------
Paul Hodes/ Paul Hodes for Congress                    $500    3/30/2008
------------------------------------------------------------------------
Democratic Senatorial Campaign Committee             $5,000   12/31/2007
------------------------------------------------------------------------
Barack Obama/Obama for America                       $2,300    3/31/2007
------------------------------------------------------------------------
Barack Obama/Obama for America                       $2,100    1/18/2007
------------------------------------------------------------------------
Deval Patrick for Governor                             $500    11/5/2006
------------------------------------------------------------------------
Barack Obama/Obama 2010 Inc.                           $854    7/11/2006
------------------------------------------------------------------------
David Yassky/ David Yassky for Congress                $750    3/15/2006
------------------------------------------------------------------------
Democratic Congressional Campaign Committee          $1,000     2/2/2006
------------------------------------------------------------------------
Deval Patrick for Governor                             $500   12/30/2005
------------------------------------------------------------------------
David Yassky/David Yassky for Congress                 $500   12/14/2005
------------------------------------------------------------------------
Hopefund Inc.                                        $1,000    3/14/2005
------------------------------------------------------------------------
Anthony D. Weiner                                    $2,500    12/3/2004
------------------------------------------------------------------------
Anthony D. Weiner/Friends of Weiner                  $1,000   11/24/2004
------------------------------------------------------------------------
Anthony D. Weiner/Friends of Weiner                    $750   11/24/2004
------------------------------------------------------------------------
America Coming Together                              $2,000   10/14/2004
------------------------------------------------------------------------
Anthony D. Weiner                                      $540   10/12/2004
------------------------------------------------------------------------
Jamie Metzl/Friends of Jamie Metzl                     $500    7/29/2004
------------------------------------------------------------------------
Barack Obama/Obama for Illinois                      $1,000    6/24/2004
------------------------------------------------------------------------
John Kerry/Kerry-Edwards 2004 Inc. General           $2,000    5/29/2004
 Election Legal and Accounting Compliance
 Fund
------------------------------------------------------------------------
John Kerry/John Kerry for President                  $2,000    3/31/2004
------------------------------------------------------------------------
John Kerry/John Kerry for President                  $2,000    3/31/2004
------------------------------------------------------------------------
Barack Obama/Obama for Illinois                        $500    2/12/2004
------------------------------------------------------------------------
Wesley Clark/Clark for President                       $500    1/22/2004
------------------------------------------------------------------------
Wesley Clark/Clark for President                     $1,000   12/24/2003
------------------------------------------------------------------------
Barack Obama/Obama for Illinois                        $500   12/23/2003
------------------------------------------------------------------------
Barack Obama/Obama for Illinois                      $2,000    9/30/2003
------------------------------------------------------------------------
LA PAC                                               $1,000    8/24/2000
------------------------------------------------------------------------
Anthony D. Weiner/Friends of Anthony D.                $500    6/30/2000
 Weiner
------------------------------------------------------------------------
Anthony D. Weiner/Friends of Anthony D.                $500    6/30/2000
 Weiner
------------------------------------------------------------------------
Anthony D. Weiner/Friends of Anthony D.                $500    12/8/1999
 Weiner
------------------------------------------------------------------------
Barry Dwayne Ford/Friends of Barry Ford                $500    12/1/1999
------------------------------------------------------------------------
Al Gore/Gore 2000                                    $1,000    4/27/1999
------------------------------------------------------------------------
Charles Schumer                                        $500    9/14/1998
------------------------------------------------------------------------

    During the recent Presidential campaign, I served in voluntary 
capacities on the Obama Presidential Campaign: as a member of the 
National Finance Committee; Chairman of the Technology, Media and 
Telecom Policy Advisory Committee; and as a technology advisor to the 
campaign. I also provided volunteer assistance to the following 
campaigns: Barack Obama (Senate 2004); Anthony Weiner (various races 
for Congress and New York City Mayor (2005)); David Yassky (Congress 
2006); Kerry-Edwards 2004; Charles Schumer (Senate 1998).
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Harvard Law School, graduated with honors--magna cum laude.

        Columbia College, graduated with honors--magna cum laude.

        Member of honorary society, Senior Society of Sachems at 
        Columbia College.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.


------------------------------------------------------------------------
        Written Work               Date                Location
------------------------------------------------------------------------
Article on Why Venture       October 21,      Venture Capital Journal
 Capitalists Should Support   2008             (Also published on the
 Barack Obama, co-authored                     Internet, at
 with Mark Gorenberg                           www.pehub.com)
------------------------------------------------------------------------
Blog post on Startup         February 4,      LaunchBox Blog
 Lessons From the Campaign    2008
 Trail
------------------------------------------------------------------------
Blog post on the Obama Tech  December 8,      my.barackobama.com
 and Innovation Plan          2008
------------------------------------------------------------------------
Case note on Doe v.          April 1990       Harvard Law Review
 University of Michigan
------------------------------------------------------------------------
Op Ed on The Credit Card     January 12,      Washington Post
 Puzzle: Why the Rates        1986
 Never Fall, co-authored
 with Representative (now
 Senator) Charles Schumer
------------------------------------------------------------------------
                             Speech or Panel
------------------------------------------------------------------------
Government 2.0, Technology   August 26, 2008  2008 Rocky Mountain
 Roundtable                                    Roundtable
                                              (Denver, CO)
------------------------------------------------------------------------
Challenge Day Panel          June 16-18,      Supernova 2008, in
                              2008             partnership with Wharton
                                               Business School,
                                               University of
                                               Pennsylvania (San
                                               Francisco, CA)
------------------------------------------------------------------------
Panel: POTUS 2.0             January 30,      State of the Net
                              2008             Conference
                                              (Hyatt Regency,
                                               Washington, D.C.)
------------------------------------------------------------------------
Panel: Media and Values      August 13-15,    FOCAS, Aspen Institute
                              2007            (Aspen, Colorado)
------------------------------------------------------------------------
Panel: Rewiring Politics     June 20, 2007    Supernova 2007, in
                                               partnership with Wharton
                                               Business School,
                                               University of
                                               Pennsylvania (San
                                               Francisco, CA)
------------------------------------------------------------------------
Panel: User Created Content  November 28,     Video on the Net (Von)
                              2006             Conference
                                              (Boston, MA)
------------------------------------------------------------------------
Panel: The Past and Future   March 20, 2006   The George Washington
 of Electronic Commerce                        University (Funger Hall,
                                               22nd and G Streets, NW,
                                               Washington, DC)
------------------------------------------------------------------------
Panel: Where We Are and      February 2,      7th Annual Early Stage
 Where We're Going            2006             Capital Forum
------------------------------------------------------------------------
Panel: Distributed Business  June 22, 2005    Supernova 2006, in
                                               partnership with Wharton
                                               Business School,
                                               University of
                                               Pennsylvania (San
                                               Francisco, CA)
------------------------------------------------------------------------
Panel on Telecom Policy      July 8, 1997     National Council of La
                                               Raza, Telecom Policy
                                               Roundtable (1111 19th
                                               St., NW)
------------------------------------------------------------------------
Panel at a conference on     March 25, 1996   Cardozo School of Law (New
 The Jurisprudence of                          York, NY)
 Ratings
------------------------------------------------------------------------
Panel at a conference on     February 1996    London, England
 Communications
------------------------------------------------------------------------

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    On July 11, 2007, I testified at a hearing of the Committee on 
Small Business of the U.S. House of Representatives. The hearing was 
on: ``Small Businesses at the Forefront of the Green Revolution: What 
More Needs to be Done to Keep Them Here?'' I testified as a member of 
the founding group of New Resource Bank, which specializes in serving 
the needs of green entrepreneurs and sustainable businesses.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have worked for two decades in the fields of communications, 
technology, media, and law--nine years in public service, and eleven 
years in the private sector--and I believe I have strong qualifications 
to serve as Chairman of the Federal Communications Commission.
    I am fortunate to have direct experience in senior positions at the 
FCC. I served at the FCC from 1994 to 1997, working for over 2 years as 
Chief Counsel to the Chairman, after starting at the FCC as Special 
Counsel to the General Counsel.
    My experience in the public sector also includes time in other 
parts of government. I clerked for 2 years at the Supreme Court--for 
Justice David L. Souter, and for Justice William J. Brennan, Jr. (ret.) 
and for 1 year on the U.S. Court of Appeals for the D.C. Circuit, for 
Chief Judge Abner Mikva. Earlier, I worked for 3 years in the U.S. 
Congress. I served as an aide to then-Representative (now Senator) 
Charles E. Schumer and on the staff of the House Select Committee on 
the Iran-Contra Affair. In 1997, I was listed in American Lawyer as one 
of the ``Public Sector 45''--``45 pioneering lawyers under the age of 
45.''
    My private-sector experience in communications includes serving 
from 1997-2005 in senior management at IAC/InterActiveCorp, a global 
Fortune 500 Internet and media company, with thousands of employees and 
billions of dollars of revenue. I began my work at IAC (when it was 
called USA Networks, Inc.) as General Counsel and Senior Vice 
President, Business Development of USA Broadcasting, a broadcast 
television operating business of the company. My subsequent positions 
at IAC included Chief of Business Operations, General Counsel, and a 
member of the Office of the Chairman. Most recently, I am Co-Founder 
and Managing Director of LaunchBox Digital and Rock Creek Ventures. 
These entities have launched, advised, and invested in technology and 
other early-stage companies, providing me important direct experience 
with entrepreneurs and innovators creating new businesses. I also serve 
as a Special Advisor at General Atlantic, a growth equity firm. In 
2005, I was listed in Business Week as one of ``25 Managers to Watch'' 
in the media industry.
    I have also been active at the intersection of social 
responsibility and the marketplace. For example, I am part of the 
founding group of New Resource Bank, a commercial bank that specializes 
in serving the needs of green entrepreneurs and sustainable businesses.
    I have been an active member of non-profit organizations. I have 
served as a director of Common Sense Media, a non-partisan, non-profit 
organization which is dedicated to improving the media and 
entertainment lives of children and families. I have also served on the 
advisory board of E2 (Environmental Entrepreneurs), a national group of 
business leaders who advocate for good environmental policy while 
building economic prosperity.
    I would like to be Chairman of the FCC because I have seen over the 
course of my own life the power of technology and communications to 
improve the lives of Americans. I was fortunate to learn from my 
parents not only the importance of this country's promise of 
opportunity, but also the role that technology can play in extending 
the American Dream. My parents are immigrants; my father came to the 
United States to study engineering at the Rensselaer Polytechnic 
Institute and the Massachusetts Institute of Technology. My parents 
benefited from the opportunities this country offers and inspired in me 
a desire to help ensure that all Americans can enjoy the benefits that 
communications and technology can bring.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The FCC must have appropriate and professional management and 
accounting controls in place to ensure that the agency and its 
employees are discharging their duties effectively; it must have all 
appropriate accounting and procedural safeguards in place to avoid 
waste, fraud and abuse. It is essential that the FCC Chairman ensure 
that the agency's Managing Director and Inspector General--as well as 
all of the agency's Bureaus and Offices--protect the integrity of the 
agency's programs and preserve the public's trust. If confirmed, my 
overarching management objective for the agency will be to make it a 
model for excellence in government, and I am confident my experience 
can help the agency achieve this goal.
    As noted in response to question 18, my prior experience includes 
serving in a senior role at the FCC--as Chief Counsel to the FCC 
Chairman--which I believe would be of great value in successfully 
managing the FCC as Chairman. In addition, I have held senior 
management roles in the private sector at a large company. From 1997-
2005, I served in senior management roles at IAC/InterActiveCorp, a 
global Fortune 500 company with thousands of employees and billions of 
dollars of revenue, where my positions included Chief of Business 
Operations and General Counsel. In 2005 I was recognized by a national 
business publication as one of 25 leading managers in the media 
business. Finally, through my various other private-sector roles, I 
have extensive experience with companies of all sizes.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    First, the FCC faces an immediate and pressing challenge relating 
to America's transition from analog to digital broadcast television. 
The FCC must do everything it can to minimize consumer dislocation and 
confusion, and to help American viewers of over-the-air television 
navigate the complex and challenging transformation of this important 
medium.
    Second, the FCC has the vital challenge of ensuring that the United 
States has world-leading 21st century communications networks that are 
accessible to all Americans. Congress recently tasked the FCC with 
developing a national broadband plan, and if confirmed, I look forward 
to implementing that Congressional provision. I believe our 
communications networks are our national platform for innovation, 
opportunity and prosperity. They are essential to American 
competitiveness, and the sector can play an important role in economic 
recovery and job creation. An integral part of this challenge is to 
ensure that all Americans have access to broadband networks, whether 
they live in rural areas or cities. whether they are school children or 
adults operating a small business. These are examples; there are 
countless ways in which universally accessible broadband can benefit 
all Americans. Another important challenge is to ensure that protecting 
the interests of consumers is a key component of the FCC's work. 
Communications services are increasingly important in the daily lives 
of Americans, and their cost and complexity are increasing as well. The 
Commission must ensure that consumers of these services are properly 
protected in the marketplace. A final critical challenge is ensuring 
that our Nation's communications networks are up to the task of 
preserving and advancing public safety. We need to make sure that 
America's first responders have the tools they need to do their jobs 
safely and effectively.
    Third, I believe the FCC has the challenge of becoming a model for 
excellence in government. This task is critical to the FCC meeting its 
mission and priorities. The agency must be fair and fact-based in its 
work, and must become more transparent and collaborative than ever 
before. It is essential that the agency have an excellent working 
relationship with Congress, and if confirmed, I look forward to working 
with Congress on establishing priorities and addressing the many issues 
in the FCC's jurisdiction. In addition, the FCC should be a leader in 
using technology to help make government more responsive to consumers 
and to all parties affected by FCC actions.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    See part II of Schedule C of SF-278.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Federal Communication 
Commission's designated agency ethics official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the FCC's designated agency ethics official.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Federal Communication 
Commission's designated agency ethics official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the FCC's designated agency ethics official.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    While I was serving as General Counsel of IAC/InterActiveCorp, an 
Internet and media company, and its subsidiary USA Broadcasting, I 
participated as part of my responsibilities in public policy matters 
that affected the company. This included participation on behalf of the 
company, before it sold its TV stations in 2001, in Federal 
Communications Commission proceedings relating to television 
broadcasting, including the purchase, sale, and ownership of broadcast 
television stations, and digital television. In addition to owning 
broadcast television stations until 2001, IAC/InterActiveCorp (and its 
predecessor companies, known as USA Interactive, Inc., and, before 
that, USA Networks, Inc.) owned cable networks including USA Network, 
Sci Fi Channel, Trio, and HSN, and a television production studio, 
until 2002, after which most of IAC's operating businesses were 
predominantly Internet businesses.
    I serve on the Board of Directors of Common Sense Media, a non-
partisan, not-for-profit organization, dedicated to improving the media 
and entertainment lives of children and families. As a co-founder of 
New Resource Bank, which specializes in serving the needs of green 
entrepreneurs and sustainable businesses, I testified before the House 
Committee on Small Business on ways to help small ``green businesses.'' 
(See also response to A(17)). In addition, along with other business 
professionals who are members of the non-profit Environmental 
Entrepreneurs (E2), I have met with Members of Congress to advocate for 
good environmental policy while building the Nation's economic 
prosperity.
    Finally, I served as a member of the Advisory Board of the Obama-
Biden Transition Project, and as co-leader of the Transition's 
Technology, Innovation and Government Reform Working Group. I also 
served as Chairman of the Technology, Media and Telecommunications 
Policy Advisory Committee of the Obama Presidential Campaign, as a 
technology advisor to the campaign, and as a member of the campaign's 
National Finance Committee.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Federal Communication 
Commission's designated agency ethics official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the FCC's designated agency ethics official.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    I have never been disciplined or cited for a breach of ethics by 
any court, administrative agency, professional association, 
disciplinary committee or other professional group. For litigation, 
please see response to C(3) below.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    As part of my duties as an officer and a member of the senior 
management of IAC/InterActiveCorp, a public company, and its subsidiary 
USA Broadcasting (subsidiary sold in 2001), I participated on behalf of 
the company in administrative proceedings in the ordinary course of 
business, including at the Federal Communications Commission 
principally relating to television broadcasting. In my role as General 
Counsel and an officer of IAC, I was also involved in civil litigation 
in the ordinary course of business. While I was an officer of IAC and a 
director of public IAC subsidiaries, several shareholder class action 
lawsuits were filed against a broad group of officers and directors of 
those companies and I was included as a party in the lawsuits. None of 
these lawsuits resulted in any finding of liability against any party, 
and each has been dismissed or inactive for some time. Two class-action 
lawsuits have been filed against Ticketmaster and all of its directors 
challenging the proposed transaction involving Ticketmaster and Live 
Nation principally on the grounds that the proposed transaction 
provides insufficient value to Ticketmaster shareholders, and I was 
included in the lawsuit as a director. I have had no involvement in the 
transaction--after learning that a transaction might be proposed, I 
recused myself from the matter. I no longer serve on the Ticketmaster 
board.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion. or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    Will you ensure that your department/agency complies with deadlines 
for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      resume of julius genachowski
Education
        Harvard Law School, J.D., 1991, magna cum laude; Co-Notes 
        Editor, Harvard Law Review.

        Columbia College, B.A., 1985, magna cum laude in history.
Work Experience--Private Sector
    LaunchBox Digital and Rock Creek Ventures Co-Founder, since 2006.

        Co-founder of LaunchBox Digital (2007).

        Co-founder and Managing Director of Rock Creek Ventures (2006).

                Advising, launching and accelerating technology and 
                other early stage companies.

    General Atlantic, Special Advisor, since 2006.

        Global growth equity firm.

    IAC/InterActiveCorp, Chief of Business Operations, General Counsel, 
Member of Office of the Chairman, 1997-2005.

        Held senior positions at this public, global Fortune 500 
        Internet, media and technology company.

        Started at company as General Counsel and Senior Vice 
        President, Business Development, of USA Broadcasting.

    Other Affiliations:

        New Resource Bank. Part of founding group of New Resource Bank, 
        which opened in 2006 and specializes in serving the needs of 
        ``green'' entrepreneurs and sustainable businesses.

                Testified at Congressional hearing on helping small 
                ``green'' business.

        Member Boards of Directors and Advisors of various companies.
Work Experience--Public Sector
    Federal Communications Commission, 1994-1997.

        Chief Counsel to Chairman Reed Hundt.

        Special Counsel to General Counsel (later Chairman) William 
        Kennard.

    U.S. Supreme Court, and U.S. Court of Appeals for the D.C. Circuit, 
1991-1994.

        Law Clerk to Hon. David H. Souter, U.S. Supreme Court.

        Law Clerk to Hon. William J. Brennan, Jr. (ret.), U.S. Supreme 
        Court.

        Law Clerk to Hon. Abner J. Mikva, Chief Judge, U.S. Court of 
        Appeals for the D.C. Circuit.

    Congress, 1985-1988.

        Hon. Charles E. Schumer, U.S. House of Representatives (now 
        Senator), Legislative Assistant; Press Secretary.

        Select Committee on the Iran-Contra Affair, U.S. House of 
        Representatives, Professional Staff.
Non-profits
        Environmental Entrepreneurs (E2). Has served on Board of 
        Advisors.

        Common Sense Media. Member of Board of Directors.
Other
        Listed in Business Week as one of 25 ``Managers to Watch'' in 
        the Media industry, 2005.

        Listed in American Lawyer as one of the ``Public Sector 45''--
        ``45 pioneering lawyers under the age of 45,'' 1997.

        Born August 19, 1962; married to Rachel Goslins. Children: Jake 
        (1991), Lilah (2004), Aaron (2006).

    The Chairman. Thank you very much, Mr. Genachowski.
    I was Governor, if you remember, back in 1981, and I 
appointed the first person to head the Consumer Advocate 
Division of the West Virginia Public Service Commission. I did 
not know what that was going to turn out to be. The person is 
still a force and he has literally changed the face of West 
Virginia, a single person, on a sometimes weak, sometimes 
strong, Commission.
    In comparison, critics have argued that the FCC has become 
captured by industry--not everybody says that, but critics do 
say that--and more of a referee of corporate disputes than of 
what can help the consumer, as caretaker of the public.
    By statute, however, the purpose of the Commission is to 
make available, as much as possible, to all the people of the 
United States of America, efficient communications services 
with adequate facilities at reasonable prices.
    So question. I believe that the FCC should work to make 
sure consumers are offered the best quality service at 
reasonable prices. I assume you agree.
    Mr. Genachowski. Yes.
    The Chairman. Do you believe that the FCC has adequately 
fulfilled its mission in making sure that consumers have access 
to the latest technology at reasonable rates? If not, is the 
agency structurally capable of so doing?
    Mr. Genachowski. Senator, let me speak briefly about 
consumers and about broadband. In this time of great change in 
our communications area, it has never been more important for 
the FCC to wake up every day and understand that the core of 
its mission is working on behalf of American consumers.
    The communications sector, as Senator Kerry mentioned, is a 
fifth of our economy. It has contributed a greater percentage 
to our economic growth. There are enormous opportunities for 
all Americans, but there is also confusion among consumers, 
which the FCC can help tackle. The FCC should be looking at 
maximizing choice for consumers to deal with complaints, and 
waking up every day and looking at the world from the 
perspective of American consumers.
    With respect to your other point, Chairman Rockefeller, the 
growing consensus that we need a national broadband strategy in 
this country. In fact, the requirement that the FCC develop and 
issue a national broadband plan is a recognition that we, as a 
country, are not where we need to be with respect to our 
communications infrastructure. We should have, I believe, a 
communications infrastructure that is world-leading, a 21st 
Century infrastructure that generates economic growth, 
opportunity and prosperity. And critically, we should have in 
this country a 21st Century communications infrastructure that 
extends to all Americans and that does so, to your point, 
meaningfully, in a way that they can afford to sign up and use 
to take advantage of the opportunities that communications 
technology offers.
    The Chairman. Thank you.
    The FCC has been criticized for a lack of transparency by 
the GAO. I will not go into the language, but the language is 
quite startling. Consumer groups join them. Even industry joins 
them. Some industry. It is nearly impossible to find 
information on the FCC's website--that point has been brought 
up this morning--and much of the data filed with the Commission 
is not even accessible online.
    Worse, in the past, the FCC has been accused of disclosing 
information to some--and you know that to be the truth--while 
leaving the general public in the dark. Consumers should not 
have to hire $500-per-hour lawyers to find out what the FCC is 
doing and participate in the decisionmaking process.
    Question: Do you agree that the FCC should be more open to 
the public?
    Mr. Genachowski. Yes.
    The Chairman. And how?
    Mr. Genachowski. Well, Senator, the first thing, it 
requires a commitment throughout the agency to principles of 
openness, transparency, fairness, fact-based decision-making, 
and if confirmed, I would want to lead the FCC in that 
direction. I do not see how it could be otherwise. The issues 
are just too complex. We need an FCC that is smart about 
technology, smart about the law, smart about economics, smart 
about businesses, and smart about what consumers go through 
every day in navigating a complex communications world. So I 
think this is quite important.
    I had the same experience that you did in trying to 
navigate the FCC website. The FCC should be a model for 
transparency, openness, and fairness. There is a lot of work to 
do, but I would like to see the FCC be a model with respect to 
using communications technologies to communicate openly with 
the American people and with all the constituencies that are 
interested in what the Commission does.
    The Chairman. I am over my time, but I will just end by 
saying this.
    You have plans to make it more transparent. Some of the 
things that the GAO has said are quite staggering. They are 
talking about how the FCC should ensure equal access to 
rulemaking information. That is the title of a booklet which 
criticized the agency for providing more information to certain 
stakeholders to the detriment of others. According to the GAO, 
in some instances, the FCC staff would go so far as to call 
individuals to inform them of the upcoming items scheduled for 
a vote. In contrast, stakeholders representing consumers and 
public interest groups do not hear from them.
    I hope you are not satisfied with that.
    Mr. Genachowski. No.
    The Chairman. I call on the Ranking Member.
    Senator Hutchison. Thank you, Mr. Chairman.
    On the broadband issue, how do you view the issue of no 
service versus underserved areas as priorities?
    Mr. Genachowski. Senator, the first thing I would say is 
that in working on the national broadband plan that Congress 
entrusted to the FCC, I would start where Congress started. 
Congress and the staff should ask the FCC to look at 
deployment, affordability, national purposes, and the FCC, I 
expect, would do that.
    With respect to unserved and underserved areas, I think the 
first principle the agency should follow, with respect to its 
own work and also to the extent that it consults with the NTIA 
and other agencies on grants, is that the taxpayers should get 
the biggest bang for their buck for taxpayer dollars. The first 
priority, I think, is to do what can be done to extend 
broadband to unserved areas, rural areas around the country. 
There is a divide between parts of the country that have 
broadband, in some cases have fast broadband, and people that 
do not have broadband at all. And I think Congress was clear 
that working on providing broadband to unserved areas is 
critical.
    There are other concerns and goals as well. I think the 
term ``underserved'' can mean a series of different things. In 
some cases, it can mean unserved in a particular area. So there 
may be a market that is served, but a pocket of it that does 
not receive any service, and there may be ways to help 
operators extend their service to parts of the market that do 
not receive it. There may be markets that are underserved 
because the speed is too slow, and there may be ways to help 
providers in the market to increase their speed. There may be 
markets that are underserved because the adoption is very low, 
and there may be ways, Senator Warner's point, to think about 
strategies to increase adoption in that area to make it a 
sustainable economic possibility of ongoing broadband service 
in that area.
    Senator Hutchison. Well, that is correct. I just hope that 
the priority is to help people who have nothing with our 
stimulus money is really what we are discussing here. But 
people who have nothing, it seems to me, should take priority 
over people who have slower service. I would hope that that 
would be a common-sense rule.
    The indecency policies going forward. How do you see that 
evolving and is it a priority that indecency enforcement 
policies would be looked at?
    Mr. Genachowski. Senator, I heard you mention your 
children, and I have children as well. I am a parent who shares 
the concerns of many parents about what their kids see on TV. I 
worked on children's educational programming when I was at the 
FCC, and I chose, after I left the FCC, to get involved with a 
nonprofit called Common Sense Media that focuses on helping 
improve media for family and children. I share the concerns of 
parents on indecency, number one.
    Number two, the FCC's job in this area is to enforce the 
law, and Congress has been clear on the indecency law. The 
Supreme Court recently rejected a challenge to the indecency 
law. The FCC's job is to enforce the law and it will enforce 
the law around indecency.
    Senator Hutchison. Let me ask you on media ownership. When 
I first came to the Senate, I was a person who believed that a 
newspaper should not have too much television presence in a 
market because I think more media outlets are a good thing. 
Since I came to the Senate, the technology world has exploded, 
and I no longer think that we need to police that. And now we 
have the most incredible situation, which I do not think any of 
us ever anticipated in our lifetimes, that major newspapers 
would be on the brink of literally going out of business, and 
not having that avenue for news coverage for the citizens of 
big communities is now a viable possibility.
    So my question is the FCC does still have rules against 
dual ownership, and I think it is important that you look at 
that and determine if really we ought to be doing everything we 
can to keep newspapers alive in order to have the most outlets 
for people who like to get their news in different ways.
    Mr. Genachowski. Senator, very early in my career I worked 
on a newspaper in college and then I reestablished the oldest 
newspaper at the college that I went to. My heart is filled 
with respect for the role that newspapers play in our society 
and our democracy.
    And a little bit later in my career, I spent time in the 
broadcasting industry where I learned both that it is a special 
business, plays a special role in our country, and also that it 
is a hard business, especially in these times.
    It is a unique business. It is still broadcasting that is 
our only universal medium and source for news and information. 
So excessive consolidation is something, I think, that still 
needs to be paid attention to, but at the same time, it would 
not be right for the FCC to ignore the changes in the 
marketplace that are apparent and the struggles in the various 
parts of the traditional media business.
    Congress has required the FCC on, I believe it is a 
quadrennial basis to look at its ownership rules, and I think 
when Congress asked the FCC to look at its ownership rules, it 
expects it to run an open process, looking at facts, looking at 
data, understanding the marketplace, understanding the 
principles that underlie the concerns on all sides in this to 
understand the importance of having broadcast outlets, and of 
course, the importance of having newspapers, understanding 
concerns about excessive consolidation and run an open and fair 
process to make smart policy judgments about the right thing to 
do.
    Senator Hutchison. Do you know when that quadrennial review 
is up?
    Mr. Genachowski. I believe the next review is scheduled for 
2010, and I apologize if that is the wrong date.
    Senator Hutchison. I did not know either. But I would hope 
you would set it at a higher priority than just waiting for a 
review period to come up. I think that we have got to do 
something to help newspapers in my opinion.
    Mr. Genachowski. Yes. And, Senator, I agree with that.
    The other thing that I would point out is the FCC has had 
rules in place for some time with respect to failing stations, 
distressed stations, and certainly any station in that 
situation that comes to the Commission should be taken 
seriously and looked at seriously because it would be wrong for 
the agency to ignore the real problems that exist in the 
marketplace.
    The Chairman. Thank you, Senator Hutchison.
    Senator Pryor?
    Senator Pryor. Thank you, Mr. Chairman.
    If I may, Mr. Genachowski, I would like to just pick up 
where Senator Hutchison left off. She was talking about 
newspaper ownership of broadcast media. I would like to ask you 
about the minority ownership of broadcast media. You can look 
back. We have made some progress in that area. But I would like 
to ask you: Do you think it is a good public policy to 
encourage more minority ownership of broadcast media?
    Mr. Genachowski. My understanding, Senator, is that it is 
the policy of the Communications Act, to ensure the widest 
possible dissemination of licenses and to pursue diversity in 
ownership. It has been a value that has been widely shared for 
a long time, and the data that I have seen does not leave one 
with a good taste about where we stand now, as a country, on 
that.
    Senator Pryor. Do you have any ideas on what we can do, 
meaning the FCC or the Congress or whoever, to try to make 
ownership of broadcast outlets more possible for minority 
interests?
    Mr. Genachowski. I think the first possibility is to make 
sure that we understand what is actually going on out there. I 
have been told that the data with respect to ownership now is 
not satisfactory and there is work that can be done to 
understand that.
    Second, I think this is an area that lends itself to the 
FCC running a process that is open and that is creative and 
that looks for ways that are constitutionally permissible and 
that would actually work but that lead to a wide dissemination 
of licenses and diversity in ownership.
    Senator Pryor. I just think that the public policy goal of 
a more diverse ownership spectrum is a good national goal that 
we should continue to try to do. I would be glad to work with 
you on how to get there.
    The second question is about broadband going out to rural 
areas. This morning, this Committee had a hearing on Inez 
Tenenbaum over at the Consumer Product Safety Commission in her 
confirmation process. She had some really good ideas about how 
the CPSC can better communicate dangers and recalls and safety 
and all this stuff to the general public. But one thing that 
struck me is most of her ideas--not all, most of them--dealt 
with people having broadband capability so they could receive 
this type of information from the CPSC.
    I would like to ask you about the BTOP, the Broadband 
Technology Opportunity Program, in the stimulus package. Do you 
know much about that, and do you have a sense of how that is 
going to be administered?
    Mr. Genachowski. My understanding is that it is the 
Commerce Department and the Agriculture Department that have 
the grant-making authority. The FCC, as I understand it, has 
responsibilities to consult with those agencies as they put 
together the plans for distributing the grants.
    Senator Pryor. And I know you are not there yet, but is 
your understanding that the FCC is involved in that process?
    Mr. Genachowski. My understanding is that there has been 
consultation, yes.
    Senator Pryor. Are you happy with what you hear on that, or 
do you think the FCC should be more involved? And do you think 
that program is going to actually get to unserved areas, as 
Senator Hutchison was referring to?
    Mr. Genachowski. Senator, I do not have any access to 
nonpublic information. From what I have heard publicly, I 
believe that active, healthy consultation processes are going 
forward. I think these kinds of activities are ways to 
demonstrate how Government can work together collaboratively to 
pursue a common end. The FCC is the expert agency on 
communications and our communications infrastructure. It is 
more than appropriate that the FCC play a consultative role and 
is certainly something that I would want to jump into, if 
confirmed, and work with you to understand ideas that you might 
have on the grant program.
    Senator Pryor. Last, I would like to ask you about 
something that is important to you as a parent and me as a 
parent and others in this room as parents and grandparents. We 
passed the Child Safe Viewing Act. I do not know if you know 
the history of that. Are you familiar with that?
    Mr. Genachowski. I have some familiarity, but please----
    Senator Pryor. Basically when the V-chip bill passed way 
back when in, I think, 1996, if I am not mistaken, there was a 
requirement that the FCC would continue to look at technology 
and see if this idea could be improved upon. This Act that we 
passed recently in the last year or 2 basically mandated that 
the FCC open a case on it. I want to thank Acting Chair Copps 
because he has done that. I understand you are in a comment 
period right now, maybe even a second round of a comment 
period.
    My question for you is, given your background and all the 
things that you have done, do you think it is time that we 
revisit V-chip and not just the technology but the V-chip 
system that is in place?
    Mr. Genachowski. Senator, first of all, I admire your 
leadership in this area. It is very important and it is 
something that I have been concerned about for some time. You 
mentioned grandparents, and imagining my grandparents and my 
kids watching TV together sometimes is a challenging thing to 
think about.
    I believe in the power of technology to help drive 
solutions here. I think this is a set of issues that should not 
be ideological. This is about making sure that parents are 
empowered to make decisions about what their children see. I 
have great hope for what technology can do to help parents 
here.
    Exactly what the ideas are, I think, should come out of a 
healthy process at the FCC. I know that process has begun. I 
hope it is generating great creative ideas. I would like to see 
innovation in this area and think about what kinds of 
incentives can we provide so that we get as much innovation 
here with respect to technologies to help parents as we do in 
other areas.
    Senator Pryor. Mr. Chairman, thank you.
    The Chairman. Thank you very much.
    Senator Begich?
    Senator Begich. Thank you very much, Mr. Chairman.
    As Senator Pryor just talked about, I also will be very 
interested in how you proceed and for the same reasons, as 
someone who has a young child. Someone asked me which shows 
have I watched recently. He is a little under 7, and they sort 
of described a sitcom. I said, I have no clue what they were 
talking about. If it was not on--I will not publicize one 
channel, but I will say PBS was the other channel. If it is not 
on those two, I have no clue what is on the regular shows, 
unless it is a newscast. I am very interested in it as you 
proceed as the chair of the FCC.
    Let me, if I can--and you and I talked briefly about this 
in the Universal Service Fund and how important that is at 
least for our State, a very rural State and, I like to describe 
here in this committee, ``extreme rural,'' as other people talk 
about rural States. The distance, and the travel, and the 
complexity of transportation to these locations, but also the 
climate conditions, really create some unique situations.
    I know there is talk about reform. As that moves forward, 
there will be issues of concern for us as Alaska is identified, 
if I am not mistaken--it is 100 percent tribal, which gives it 
some special considerations. I am curious on how you feel about 
that policy and how tribal land is recognized and how Alaska 
fits into that. You can give a general. You don't have to be 
specific, but specifically about that and the reform itself of 
the USF.
    Mr. Genachowski. Sure. Senator, the principle of universal 
service is a core principle of communications policy, as you 
know, that goes back to the beginnings of the Communications 
Act, that has been reinforced many times by Congress, and that 
is a priority of mine. I would like to see us have as much 
success in universal service and communications over the next 
75 years that we have had over the last 75 years, extending 
communications infrastructure and the benefits of 
communications to all Americans.
    I defer to your knowledge of Alaska, of course, but I think 
historically there has been success in universal service in the 
Alaska. I would like to see that continue in the future with 
respect to all of the vast country that we have.
    Senator Begich. And I appreciate that because you are 
right. It has been very successful, very useful. And also in 
Alaska, because our lands are different with the Alaska Native 
people, there are tribal lands and corporate tribal lands. It 
is different than reservation lands. So sometimes, we have to 
continue to point that out because our land claim settlement 
was much different than the traditional reservation 
settlements.
    So as you have an opportunity--I know I said in my 
statement--I did not give you a chance. You kind of nodded yes. 
I know you said yes in my meeting, but I am looking forward to 
you to come to Alaska. And I just want to echo that because 
this will give you a chance to see the value of that program.
    Mr. Genachowski. Good. I would like that.
    Senator Begich. Let me also point out in Alaska the issue 
of how we provide broadband. We have some concerns from 
satellite providers. Currently, they are concerned that they 
will be excluded from the national broadband plan. In Alaska, 
because the cost and utilization of satellite is part of the 
equation, how do you see that, and will you in the broadband 
plan keep that all in consideration that in Alaska satellites 
are utilized in a lot of ways to get that more costly 
connection that may not be able to be done by land?
    Mr. Genachowski. Senator, that is not an issue that I am 
very familiar with. I am glad you have raised it and I would 
like to make sure that I have a chance to work with you on it 
and make sure that it gets the attention that it deserves in 
the FCC's workings on the national broadband plan.
    Senator Begich. Excellent, because I can tell you they are 
very concerned, just because, again, the vast distances, the 
uniqueness of the lack of access to infrastructure, satellites 
become part of the equation of how we deliver broadband. The 
good news is, in Alaska, 70-plus percent--we are the highest 
connected State in the country, which is kind of unusual in its 
own way and it is because of this kind of relationship we have 
with satellite, as well as on the ground.
    I know you are a big supporter of E-Rate. Again, for us it 
is more of a statement just for the record, as our discussion 
occurred privately, and that is the importance of E-Rate and 
how we deliver. When we have the No Child Left Behind Act that 
says you must have a certain type of teacher with certain 
credentials teaching kids at certain levels, in some schools, 
we may only have 10-15 people and to have all that specialty is 
impossible. So E-Rate and our education capacity of 
telecommunications is powerful. We can go from one hub and 
teach in 30 different villages at the same time. I just want to 
reemphasize the importance of that but also hear your support 
again on the record of how important E-Rate is, as well as the 
impact it may have especially in rural communities.
    Mr. Genachowski. Yes. I was privileged to see the early 
days of E-Rate. Chairman Rockefeller and Senator Snowe and 
others on this Committee worked very hard for it. It is a great 
accomplishment.
    Thinking about broadband going forward and the 
opportunities that it creates for all Americans, education is a 
great example, a way to give children everywhere access to the 
best information, the best teachers, and to allow children in 
rural areas to have the same opportunities as children who live 
close to universities. I am very excited about the 
opportunities for education and broadband and for the next 
generation of E-Rate.
    Senator Begich. Very good.
    My time has expired, but let me again thank you. I think 
you are going to be an incredible Chair.
    To Mr. McDowell, I apologize. I will not be here also. But 
again, Mr. McDowell, your reappointment is going to be a plus. 
I know you have been a big proponent in a lot of ways of Alaska 
issues because you have seen it. You have been there. So we 
will work on the Chairman together and give him that great 
experience of Alaska. Not the fish, the telecommunications.
    But again, thank you both, and I look forward to working 
with you on Alaska specifically.
    Mr. Genachowski. Thank you.
    The Chairman. Thanks, Senator Begich.
    Before I call on Senator Cantwell and Senator Klobuchar, I 
have to make a committee announcement. I am not pleased by the 
way--and this was my fault, so I take full responsibility for 
it--that people made their statements then left. Some happily 
came back and for that, I applaud them. But it is wrong. I 
mean, this is a mammothly important hearing--a mammothly 
important hearing--for a nomination and a vote to follow. We 
cannot have it that people come in and make their opening 
statements, get into their opening statements the questions 
that they are going to ask anyway, and then having done so, 
leave. This is an embarrassment to you. It is an embarrassment 
to me. It is an embarrassment to the U.S. Senate and to this 
Committee.
    So from now on, there may be very rare occasions, but we 
will not have opening statements except for the Chairman and 
the Ranking Member. Then we will go directly to the witness, 
and that will be the order.
    I now call on Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Mr. Chairman, will that be the 
Genachowski rule?
    [Laughter.]
    Senator Cantwell. I thank the Chairman, and I agree. I am 
here to ask questions in person, and I think it is an important 
hearing. So thank you for your statement.
    Mr. Genachowski, the diversity of media. I do not know if 
any of my colleagues have asked about that so far. But I have 
supported technical changes required to expand the number of 
low-powered FM stations. These are important because they 
develop local content and they are important to the community 
interests.
    I certainly opposed media consolidation, particularly with 
cross ownership, and I do not think it is really the way that 
we are going to save newspapers. I do not think that is the 
issue.
    I think that there is an important role, though, for 
police, education, and government, the PEG channels, and their 
service, and PEG channels to provide an outlet for people in 
the community to create and distribute their own television 
programming. But I am concerned if the--I know you are working 
on a rulemaking, but if the translators get priority and fill 
all the available frequencies, even if Congress were to allow 
low-powered FM stations to operate in the third adjacent 
channel, it would not be meaningful. So I would like to 
understand what you think we can do to make sure that we are 
keeping that diversity of voices and having low-powered 
stations.
    Mr. Genachowski. Senator, yes. We spoke about this a little 
bit before. The wide dissemination of spectrum licenses and 
diversity of ownership is, I think, in the Communications Act. 
It is an important principle and priority, and it is something 
that I look forward to working on.
    The issues that you mentioned, I think, are examples. There 
are creative ways to tackle these issues that constantly need 
to be looked for. I think your leadership on the LPFM issue is 
an example of that. I am not an expert in that. I look forward 
to learning more about that. But making sure that, in 
connection overall with understanding uses of our spectrum, 
looking for ways to put more spectrum to work, thinking about a 
wide dissemination of licenses in connection with that, all 
seem to me to be high priorities and something that I would 
look forward to working with you and the Committee on.
    Senator Cantwell. Another area is white spaces, opening up 
broadcast white spaces to fixed wireless and personal portable 
devices. I know the Commission took a very conservative start 
in opening up the white space, but it was a start.
    Will the Office of Engineering Technology make sure that 
this is a priority issue so that we can have sufficient 
resources in working with the industry to test and make sure 
that we are answering any of the technical issues that might 
come up?
    Mr. Genachowski. Senator, I think the answer is yes. In 
fact, I am glad that you are mentioning another example of 
creative use of spectrum to advance the overall goals of the 
Communications Act.
    I am energized by what has been happening in the country 
around mobile. We are seeing incredible innovation. The number 
of Americans who have mobile phones has increased dramatically. 
I think the current number is about 270 million Americans, but 
even more important, the number of Americans who have smart 
phones, who have mobile phones with advanced applications on 
them, is increasing.
    I believe that we have an opportunity for the U.S. to lead 
the world in mobile. Some of that will require the ongoing 
creativity and the ideas of the sorts that you mentioned to 
take full advantage in this country of the opportunity that 
spectrum use allows.
    Senator Cantwell. And a question about, obviously, 
competitive markets for broadband service. If there is a 
competitive market for broadband service where consumers could 
purchase broadband from multiple independent providers, would 
the discussion over the net neutrality change?
    Mr. Genachowski. Well, I think that in a market of 
unlimited competition, it might change. The goal, as I see it, 
of the net neutrality debate is to preserve the Internet as the 
greatest platform for innovation and small business creation 
that we have ever had. More competition, more consumer choice 
would, of course, help achieve that, and that would be an 
excellent thing.
    Senator Cantwell. I mean, the concern, obviously, is not to 
artificially segment off parts of the population and giving 
them a higher cost.
    So you see more competition in broadband services.
    Mr. Genachowski. Competition is clearly a goal for the FCC, 
in the Communications Act, and something that I would hope to 
pursue and promote at the FCC.
    Senator Cantwell. Thank you, Mr. Chairman.
    Senator Pryor [presiding]. Thank you.
    Are there any other questions? Senator Hutchison?
    Senator Hutchison. I do. I wanted to ask one last question. 
We talked in my office about the so-called Fairness Doctrine, 
and as I understood it, you said that you do not support 
reviving it or policies like it directly or indirectly through 
localism and that sort of thing. I just wanted to have for the 
record that I am correct in stating your position, or if you 
would like to restate it.
    Mr. Genachowski. No, Senator, I do not support 
reinstatement of the Fairness Doctrine. I believe strongly in 
the First Amendment. I do not think the FCC should be involved 
in censorship of content based on political speech or opinion.
    Senator Hutchison. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Pryor. Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Mr. Genachowski, I mentioned this Dig Once bill that 
Senator Warner and I have introduced, and I do not want to 
spend much time on that because I have some other questions. 
But I just want to get your commitment that you are willing to 
work with us on this. Just estimates again, 90 percent of 
broadband installation is digging up the roads, and if we can 
do it at the same time we have an open road because of Federal 
highway projects, we could save a lot of money.
    Mr. Genachowski. Yes, Senator. I would love for the FCC to 
be a resource for you and Senator Warner in this idea and 
others. We are thinking about the communications infrastructure 
for the country for the next several decades, and some of it is 
a real infrastructure issue. If we can deliver the best bang 
for the buck for taxpayers by laying broadband lines at the 
same time that we are building highways, I do not see why we 
would not want to explore that.
    Senator Klobuchar. Thank you.
    Another quick area is just the E-911 area. I am the Co-
Chair of the E-911 Caucus. I am a former prosecutor. I did that 
for 8 years and saw firsthand some of these interoperability 
issues. The good, when we had our bridge collapse and area 
right in the metropolitan area had done a very good job of 
interoperability because of our sheriff and others, and then I 
have seen difficulties in the past and in some of our rural 
areas with that. It seems to me that is just one of the areas 
of our Nation's information infrastructure that may continue to 
elude us, absent some Federal action and Federal involvement in 
terms of making our emergency services more interoperable. Do 
you think that is something you would be willing to work on?
    Mr. Genachowski. Very much so. My wife and I were not very 
far from the World Trade Center on 9/11. Most of my family was 
in either New York or Washington.
    None of us should be satisfied with where we are on public 
safety. Chairman Rockefeller, who stepped out, and others on 
this Committee have been leaders on this. As one of your 
colleagues mentioned earlier, the 9/11 Commission urged the 
country to do something about public safety interoperability, 
and we have to do it. It is just not acceptable that fire 
fighters and police officers arrive at the scene of an 
emergency and cannot communicate with each other.
    And we have a new opportunity now that we need to seize, I 
think, as quickly as possible around mobile broadband. Now that 
we are through the digital television transition, there is 
spectrum available for advanced mobile public safety 
applications for our first responders. I do not think we can 
move too quickly in tackling that, and it is something that I 
look forward to working with you on.
    Senator Klobuchar. Thank you. Yes, we had a horrible 
shooting of a police officer once, before we got better 
communications in our metropolitan area. Literally, the 
emergency personnel had seven different phone services and 
walkie-talkies and trying to talk to each other while they were 
pursuing a suspect who had killed this cop. It was a nightmare. 
So that is something I will never forget.
    I just came from a Judiciary hearing on competition in the 
wireless market in text messaging and things like that. Senator 
Rockefeller and I and others have a bill that we will most 
likely introduce in some form this year about cell phone 
competition. In my view, this has come a long way from the days 
when the movie Wall Street and Gordon Gekko had a cell phone 
the size of a briefcase, and we now have 270 million 
Americans--18 percent of Americans--do not even have a land 
line. And yet, while there have been some vast improvements 
with early termination fees and, having driven around my State 
this weekend, there are still huge problems with dropped calls 
and consumer knowledge about what they are buying and if it 
really works in the areas that they want to drive to or work 
in. So could you comment about the FCC's role as a watchdog of 
this area?
    Mr. Genachowski. Senator, I look forward to working with 
you on this. I am an optimist, a believer in the potential of 
mobile for our country, for the U.S. to have world leadership 
in mobile. At the same time, we need to make sure the FCC can 
work with you and the Committee on doing this--that we minimize 
confusion, that we maximize competition and choice, and that we 
do everything we can to deal with complaints that consumers 
have and respond to them effectively.
    Senator Klobuchar. Thank you. The complaint right now--and 
this is why we had this hearing--is just concerns about some of 
the prices right now.
    FCC website. You and I talked about this and how it used to 
be this model of development and innovation, and now it is 
lagging behind. Do you want to talk briefly about what you 
would like to do with that?
    Mr. Genachowski. Senator, if confirmed, my goal would be to 
have the FCC website and its media operation be a model for the 
rest of the Government. The FCC should have that. It should be 
a 21st Century agency for the information age. I have been 
around this area enough to know that I will not be able to snap 
my fingers on day one, if I am confirmed, and make it happen. 
It will take some time, but the opportunities are great to have 
all of the various constituencies and stakeholders interested 
in the FCC, ordinary consumers, businesses, academics around 
the country, and others, be able to get online to get 
information easily, to have it be searchable and accessible. 
This is all achievable. I would like to see the FCC achieve it, 
and I would like to see the FCC be able to use new media to 
communicate clearly and in plain English with the public about 
what it is doing.
    Senator Klobuchar. Thank you. Now, of course, the question 
I really wanted to ask when Senator Schumer was here and we 
could pretend you were under oath--we could do this whole 
thing--was when he said that the credit card box that he--
really it should have been the Genachowski Box instead of the 
Schumer Box. I had really wanted to ask if he had ever offered 
you that.
    [Laughter.]
    Senator Klobuchar. But I chose not to do that, and because 
we have had such a nice and a positive hearing, we will not end 
that way.
    Thank you very much, Mr. Genachowski.
    Senator Pryor. Thank you.
    Does anybody else have any questions?
    [No response.]
    Senator Pryor. Mr. Genachowski, thank you very, very much 
for your time here today and for making yourself available. I 
know you visited with many of us, if not all of us, privately 
in our offices, and we appreciate that.
    I also think something that others have alluded to is very 
true, and that is, this agency is extremely important and will 
really benefit from your leadership and your management style 
there. I just think it is going to be a great era for the FCC. 
So thank you for your public service.
    And if there are no more questions, we will excuse you and 
your family. If you guys would like to stay, you can, but if 
you would like to leave, that is completely up to you.
    I will say one last thing before you leave. We are asking 
all the Senators who have follow-up questions to get those to 
us by 6 p.m. today. And that is a good sign for you because 
that means we are going to try to expedite your confirmation as 
much as possible. But that means that we would ask you to turn 
those around rather quickly.
    So thank you very much for your time, and I am going to 
call up the second panel, if the Committee does not have 
anything else. Thank you very much.
    Mr. Genachowski. Thank you.
    Senator Pryor. As he is departing the table there, as Mr. 
McDowell is coming forward with his family, there is going to 
be a little bit of a change here. So we will give everybody 
just a minute.
    [Pause.]
    Senator Pryor. Thank you, and I want to thank everybody for 
trying to do such a quick change there because we had a lot of 
people that had to come and go.
    Commissioner McDowell, once again, welcome to the 
Committee. I want to thank you for your past and current public 
service. I must say that I hear very, very positive reviews on 
the things you have done there at the FCC, and I think you have 
been a very positive force there.
    I know that you have your family here. It looks like we 
have the members of the Phillies organization here.
    [Laughter.]
    Senator Pryor. If you want to introduce your family and 
make your opening statement, that would be great.

  STATEMENT OF HON. ROBERT M. McDOWELL, COMMISSIONER, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Mr. McDowell. I would love to. Thank you, Senator Pryor and 
Senator Hutchison, so much for having me here today. It is a 
great honor to be here today and a great honor to accept the 
President's nomination.
    And yes, with your permission, I would like to sort of 
introduce the members of my family. First of all, without their 
love and support, I could not do this job. It is they who 
really bear the brunt of supporting an FCC Commissioner. So my 
love of my life, my bride, the rock of our family and the wind 
in my sails is my bride, Jennifer.
    And then there is also my son, Griffin, who is suited up to 
play in the beginning of the Vienna Little League town 
championship, their tournament. So he has been hitting in the 
700s all season. Applause is welcome.
    [Laughter.]
    Mr. McDowell. He pitched a no-hitter, and as you can 
imagine, his coach is very eager to have him there on time 
tonight for the start of the town championship. So he came all 
suited up, ready to go. His entourage and he, of course, will 
leave shortly after my opening statement.
    My beautiful daughter, Mary-Shea; our youngest son, Cormac, 
who calls himself Coco; and my sister Tina; and my nephew, 
Kelliston, as well is here. And our good friend, Bonnie Moats, 
is going to do the honors of escorting them out as soon as we 
are done with the opening statement.
    Of course, I owe everything to my parents. My father, Bart 
McDowell, a native Texan, passed away just this past January, 
and my mother, Martha Shea McDowell, passed away not quite four 
years ago. And our thoughts and prayers are with them always, 
but especially today.
    I would also like to extend my public congratulations to 
Julius Genachowski and his beautiful family on his nomination, 
and if we are both confirmed, I look forward to working with 
him in the same bipartisan manner I have pursued for the past 3 
years.
    Furthermore, I want to acknowledge the warm friendship and 
support I have received from my two fellow Commissioners, 
Acting Chairman Mike Copps and Commissioner Jonathan Adelstein. 
I have enjoyed working with them over the past three years and 
especially in the past six months. Although we do not always 
agree, our disagreements are almost always pleasant. In fact, 
while the three of us have enjoyed this collegial time at the 
Commission this year, folks have started calling us the ``Three 
Amigos.'' And if confirmed, I look forward to continuing to 
work with Mike at the Commission and Jonathan just down the 
street at the Rural Utilities Service, should he be confirmed 
for that post.
    While I am on the topic of us working together, I would be 
remiss if I did not discuss with this Committee the digital 
television transition. As of midnight last Friday, 100 percent 
of our Nation's full-power television stations are broadcasting 
only in digital, except for a few analog nightlight stations 
which are providing DTV educational information for those who 
are still not ready. And we have heard of three or four that 
are having a little bit of trouble making the transition. But 
for the vast majority of consumers, the benefits are wonderful 
and include better picture quality, better sound quality, and 
more channels, all for free over the air.
    Nonetheless, up to three million households remained 
unprepared as of June 12. The FCC, working with other 
government agencies, the private sector, and community 
organizations, is acting rapidly to locate and help these 
consumers in our own version of a search-and-rescue operation.
    I appreciate the continued support we have received from 
Congress as we implement the switch to digital, and I look 
forward to our agency staying focused on this issue as our 
number one priority until all over-the-air consumers become 
digital-ready.
    In preparation for this hearing over the past few days, I 
have been reflecting on my three years at the FCC. The fact 
that I was appointed to the Commission the first time 
underscores the maxim that sometimes it is life's surprises 
that offer the best experiences. This position came as a 
surprise to me. I never pursued this office, but the 
opportunity to serve the American people in this way has been 
the highest honor of my life. What we do at the Commission 
literally affects the lives and liberty of all Americans every 
day.
    The evolution of the communications marketplace has been 
nothing short of amazing, especially in the past three years. 
For instance, in 2006, the discussion regarding a wireless-only 
America was just getting started. Today, nearly one in five 
American households is wireless-only. In the meantime, 23 
percent of all businesses are expected to be wireless-only by 
the year 2012.
    In 2006, 57 million Americans subscribed to broadband 
services. Today the number is closer to 80 million, a 40 
percent increase in 3 years. The fastest growing segment of the 
broadband market is wireless broadband, which has grown by 
nearly 400 percent since 2006. In fact, American consumers 
account for nearly 30 percent of all mobile web-surfing 
worldwide, making the U.S. first in the world. Many analysts 
predict that Internet traffic could quadruple by the year 2011, 
and mobile wireless technologies will account for a large share 
of that growth.
    Three years ago, social networking sites such as Facebook, 
MySpace, and Twitter were in their infancy, while traditional 
media, such as newspapers and broadcasters, enjoyed healthy 
bottom lines. When I first started at the FCC, the market for 
online videos was just starting to germinate. Today, Americans 
watch nearly 17 billion online videos each month, and that 
figure is growing at 16 percent per month. Furthermore, nearly 
15 million Americans are watching video on their mobile 
devices, and that figure is growing by more than 50 percent per 
year. At the same time, traditional media have witnessed a 
dramatic decline in the face of the competitive pressures 
coming from new media. So much has changed so fast.
    Increasingly, America's economy rides on the rails of the 
communications sector. As the Government contemplates policies 
to help promote sustainable economic growth, the role of the 
FCC is more important now than ever. In the coming months, the 
Commission's primary focus should be to foster economic 
expansion by helping shape an environment that is attractive to 
capital investment so that the creative brilliance of America's 
entrepreneurs can continue to bear fruit to the benefit of all 
consumers.
    During my time at the Commission, I have tried to promote 
economic prosperity, competition, and innovation by supporting 
initiatives to make it easier for new entrants to compete in 
the video marketplace, spurring the roll-out of broadband by, 
among other things, taking steps to open up the use of the 
television white spaces, and fighting to ensure that inventors 
of new wireless medical devices are not restrained by 
Government red tape.
    America's technological future could be brilliant if we, as 
policymakers, make the right choices. The wireless sector is 
one of the most promising under the FCC's purview. Yet, 
sometimes we look at the wireless market through the lens of 
its wireline ancestor. For instance, we all know the name of 
the inventor of the wireline phone, Alexander Graham Bell, of 
course. But few can name the inventor of the wireless phone, a 
device used by more than half of the world's population. His 
name is Martin Cooper. Mr. Cooper estimates that technological 
innovation has enabled us to double the amount of information 
transmitted over the radio spectrum every two and a half years. 
As a result, we are two trillion times more spectrally 
efficient today than when the radio was first invented in 1897. 
This concept is known as Cooper's Law. This powerful trend 
should continue indefinitely unless the Government adopts 
policies that frustrate rather than foster innovation.
    If I am confirmed, you have my commitment to support 
policies that will promote and not stifle freedom, competition, 
innovation, and more choices. If we adopt such policies, we 
will create boundless opportunities for American consumers and 
entrepreneurs alike.
    Additionally, if confirmed, I will commit myself to 
continuing to conduct the affairs of my office in a bipartisan 
and ethical manner, and I will continue to make decisions as an 
independent commissioner at an independent administrative 
agency.
    Furthermore, I will work to support policies that will 
promote vigorous growth in the broadband markets to ensure that 
all Americans have access to the promise of high-speed Internet 
services and to ensure that the Internet remains robust, open, 
and safe. The FCC's broadband plan due to Congress in February 
will play a crucial role in America's broadband future.
    If confirmed, I will also continue to advocate for reform 
of FCC processes to make the Commission more open, transparent, 
and user-friendly. For instance, it would be helpful if notices 
of proposed rulemaking actually contained proposed rules. We 
could also serve the public interest by following Congress' 
mandate to get to work adjudicating the backlog of over 1.2 
million broadcast indecency complaints, some of which are older 
than my children.
    Also, if confirmed, I will continue to work to reform the 
universal service and intercarrier compensation regimes to 
contain skyrocketing costs while ensuring that all Americans 
have access to affordable, quality services, as directed by 
Congress.
    Finally, if confirmed, I will continue to work to clear 
away unnecessary regulatory underbrush and barriers to entry 
that inhibit the creation of a dynamic and free communications 
marketplace.
    These are just a few ideas. We have much, much more to do.
    In conclusion, I have cherished every day I have served as 
a Commissioner. I have been honored to work with not only some 
of the finest people ever to serve on the Commission, but the 
hundreds of talented career professionals who work at the FCC 
as well. And, if confirmed, I would be humbled to serve with 
them again.
    Senator Pryor and Senator Hutchison and other Members of 
the Committee, thank you again for the opportunity to appear 
before you today. This concludes my statement, and I look 
forward to answering your questions.
    [The prepared statement and biographical information of Mr. 
McDowell follows:]

     Prepared Statement of Hon. Robert M. McDowell, Commissioner, 
                   Federal Communications Commission
    Mr. Chairman, Ranking Member Hutchison and Members of the 
Committee, it is a privilege to appear before you today. I am deeply 
honored by President Obama's decision to nominate me to continue to 
serve as a Commissioner of the Federal Communications Commission.
    With your permission, I would like to introduce some members of my 
family. I would not be here today were it not for their love and 
support. First and foremost is the wind in my sails, and the rock of 
our family, my bride Jennifer. With her are our children: our eldest 
son, Griffin; our daughter, Mary-Shea and our youngest son, Cormac. 
Also here are my sister, Tina and my nephew, Kelliston, a recent 
college graduate.
    Of course, I owe everything to my parents. My father, Bart 
McDowell, passed away just this past January. And my mother, Martha 
Shea McDowell, passed away not quite 4 years ago. Our thoughts and 
prayers are with them always, but especially today.
    I would also like to extend my public congratulations to Julius 
Genachowski, and his beautiful family, on his nomination. If we are 
both confirmed, I look forward to working with him in the same bi-
partisan manner I have pursued for the last 3 years.
    Furthermore, I want to acknowledge the warm friendship and support 
I have received from my two fellow Commissioners, Acting Chairman Mike 
Copps and Commissioner Jonathan Adelstein. I have enjoyed working with 
them over the past 3 years--and especially in the past 6 months. 
Although we don't always agree, our disagreements are almost always 
pleasant. In fact, while the three of us have enjoyed this collegial 
time at the Commission this year, folks have started calling us the 
``Three Amigos.'' If confirmed, I look forward to continuing to work 
with Mike at the Commission and Jonathan at the Rural Utilities 
Service, should he be confirmed for that post.
    While I am on the topic of us working together, I would be remiss 
if I did not discuss with this Committee the digital television 
transition. As of midnight last Friday, 100 percent of our Nation's 
full-power television stations are broadcasting only in digital, except 
for a few analog ``nightlight'' stations which are providing DTV 
educational information for those who are still not ready. For the vast 
majority of consumers the benefits are wonderful and include: better 
picture quality, better sound quality and more channels--all for free 
over-the-air. Nonetheless, up to three million households remained 
unprepared as of June 12. The FCC, working with other government 
agencies, the private sector and community organizations, is acting 
rapidly to locate and help these consumers in our own version of a 
``search and rescue'' operation. I appreciate the continued support we 
have received from Congress as we implement the switch to digital, and 
I look forward to our agency staying focused on this issue as our 
number one priority until all over-the-air consumers become digital-
ready.
    In preparation for this hearing over the past few days, I have been 
reflecting on my 3 years at the FCC. The fact that I was appointed to 
the Commission the first time underscores the maxim that sometimes it 
is life's surprises that offer the best experiences. This position came 
as a surprise to me. I never pursued this office, but the opportunity 
to serve the American people in this way has been the highest honor of 
my professional life. What we do at the Commission literally affects 
the lives and liberty of all Americans every day.
    The evolution of the communications marketplace has been nothing 
short of amazing--especially in the last 3 years. For instance, in 
2006, the discussion regarding a wireless-only America was just getting 
started. Today, nearly one in five American households is wireless-
only. In the meantime, 23 percent of all businesses are expected to be 
wireless-only by 2012.
    In 2006, 57 million Americans subscribed to broadband services. 
Today the number is closer to 80 million--a 40 percent increase in 3 
years. The fastest growing segment of the broadband market is wireless 
broadband, which has grown by nearly 400 percent since 2006. Many 
analysts predict that Internet traffic could quadruple by 2011, and 
mobile wireless technologies will account for a large share of that 
growth.
    Three years ago, social networking sites such as Facebook, MySpace 
and Twitter were in their infancy, while traditional media, such as 
newspapers and broadcasters, enjoyed healthy bottom lines. When I first 
started at the FCC, the market for online videos was just starting to 
germinate. Today, Americans watch nearly 17 billion online videos each 
month--and that figure is growing 16 percent per month. Furthermore, 
nearly 15 million Americans are watching video on their mobile devices, 
and that figure is growing by more than 50 percent per year. At the 
same time, traditional media have witnessed a dramatic decline in the 
face of the competitive pressures coming from new media. So much has 
changed so fast.
    Increasingly, America's economy rides on the rails of the 
communications sector. As the government contemplates policies to help 
promote sustainable economic growth, the role of the FCC is more 
important now than ever. In the coming months, the Commission's primary 
focus should be to foster economic expansion by helping shape an 
environment that is attractive to capital investment so that the 
creative brilliance of America's entrepreneurs can continue to bear 
fruit--to the benefit of all consumers.
    During my time at the Commission, I have tried to promote economic 
prosperity, competition and innovation by: supporting initiatives to 
make it easier for new entrants to compete in the video marketplace; 
spurring the rollout of broadband by, among other things, taking steps 
to open up the use of the television ``white spaces''; and fighting to 
ensure that inventors of new wireless medical devices are not 
restrained by government red tape.
    America's technological future could be brilliant if we, as 
policymakers, make the right choices. The wireless sector is one of the 
most promising under the FCC's purview, yet sometimes we look at the 
wireless market through the lens of its wireline ancestor. For 
instance, we all know the name of the inventor of the wireline phone, 
Alexander Graham Bell, of course. But few can name the inventor of the 
wireless phone--a device used by more than half of the world's 
population. His name is Martin Cooper. Mr. Cooper estimates that 
technological innovation has enabled us to double the amount of 
information transmitted over the radio spectrum every two-and-one-half 
years. As a result, we are two trillion times more spectrally efficient 
today than when the radio was first invented in 1897. This concept is 
known as ``Cooper's Law.'' This powerful trend should continue 
indefinitely, unless the government adopts policies that frustrate, 
rather than foster, innovation.
    If I am confirmed, you have my commitment to support policies that 
will promote, not stifle, freedom, competition, innovation and more 
choices. If we adopt such policies, we will create boundless 
opportunities for American consumers and entrepreneurs alike.
    Additionally, if confirmed, I will commit myself to continuing to 
conduct the affairs of my office in a bi-partisan and ethical manner, 
and I will continue to make decisions as an independent commissioner at 
an independent administrative agency.
    Furthermore, I will work to support policies that will promote 
vigorous growth in the broadband markets to ensure that all Americans 
have access to the promise of high-speed Internet services, and that 
the Internet remains robust, open and safe. The FCC's broadband plan 
due to Congress in February will play a crucial role in America's 
broadband future.
    If confirmed, I will also continue to advocate for reform of FCC 
processes to make the Commission more open, transparent and user-
friendly. For instance, it would be helpful if notices of proposed 
rulemaking actually contained proposed rules for adequate public 
comment. We could also serve the public interest by following Congress' 
mandate to get to work adjudicating the backlog of over 1.2 million 
broadcast indecency complaints--some of which are older than my 
children.
    Also, if confirmed, I will continue to work to reform the Universal 
Service and intercarrier compensation regimes to contain skyrocketing 
costs while ensuring that all Americans have access to affordable 
quality services, as directed by Congress.
    Finally, if confirmed, I will continue to work to clear away 
unnecessary regulatory underbrush and barriers to entry that inhibit 
the creation of a dynamic and free communications marketplace.
    These are just a few ideas. We have much, much more to do.
    In conclusion, I have cherished every day I have served as a 
Commissioner. I have been honored to work with not only some of the 
finest people ever to serve on the Commission, but the hundreds of 
talented career professionals who work at the FCC as well. And, if 
confirmed, I would be humbled to serve with them again.
    Mr. Chairman, Ranking Member Hutchison and Members of the 
Committee, thank you again for the opportunity to appear before you 
today. This concludes my statement, and I look forward to answering 
your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Robert Malcolm McDowell.

    2. Position to which nominated: Commissioner, Federal 
Communications Commission (FCC).
    3. Date of Nomination: To be determined. (Intent to nominate 
announced June 2, 2009.)
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 445 12th Street, SW, Washington, DC 20554.

    5. Date and Place of Birth: June 13, 1963; Washington, D.C.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Jennifer Griffin McDowell; homemaker and self-employed.

        Children: Griffin Malcolm McDowell (9); Mary-Shea Virginia 
        McDowell (7); Cormac Augustine McDowell (2).

    7. List all college and graduate degrees. Provide year and school 
attended.

        Duke University, Bachelor of Arts in Political Science, cum 
        laude, 1985.

        College of William and Mary, Marshall-Wythe School of Law, 
        Juris Doctor, 1990.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    For a full summary of my post-undergraduate employment, please see 
the attached resume. Here is a highlight of management-level jobs that 
relate to the position for which I hope to be nominated:




  2006-present         Commissioner, Federal Communications Commission.
  1999-2006            Competitive Telecommunications Association
                        (CompTel), Washington, D.C.; Senior Vice
                        President and Assistant General Counsel
  1998-1999            America's Carriers Telecommunications Association
                        (ACTA), McLean, Virginia; Executive Vice
                        President and General Counsel
  1993-1998            Helein & Associates, P.C., Washington, D.C.,
                        McLean, Virginia; Senior Attorney
  1990-1993            Arter & Hadden, Washington, D.C.; Associate
                        Attorney
  1985-1987            Virginia House of Delegates, Richmond, VA; Chief
                        Legislative Aide to a Member of the House of
                        Delegates.
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
   1996-2004            Virginia Board for Contractors, Gubernatorial
                        appointee (1996); re-appointed (2000).
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.
   2005-present         Co-Trustee (with spouse) of McDowell Family Trust
                        (estate planning vehicle for myself, my spouse
                        and our children).
  2005-present         Successor Trustee, Martha Louise Shea McDowell
                        Revocable Trust (estate vehicle of my late
                        mother).
  1999-2006            Senior Vice President and Assistant General
                        Counsel, Competitive Telecommunications
                        Association (CompTel).
  2005-2006            CompTel Political Action Committee (CompTel-PAC),
                        Treasurer.
  1994-present         Director, McLean Project for the Arts
                        (501(c)(3)), McLean, Virginia (1994-present);
                        Vice President (2002-2005); Chairman of Board
                        (2005-2007).
  1996-2004            Member, Virginia Board for Contractors (statutory
                        board--gubernatorial appointee).
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
   1999-2000            North American Numbering Council.
  1999-2000            Board of Directors, North American Numbering Plan
                        Billing and Collection, Inc.
  1999-2005            Republican Majority Fund, Republican National
                        Committee, National Finance Committee.
  1996-2004            Virginia Board for Contractors, Gubernatorial
                        Appointee.
  1994-1995            Governor's Advisory Board for a Safe and Drug-
                        Free Virginia, Gubernatorial Appointee.
  1997-1999            Friends of the Red Cross, National Capital
                        Chapter. Washington, D.C. Corporate Donations
                        Committee.
  1996-2004            Virginia Board for Contractors, Gubernatorial
                        Appointee (1996); re-appointed (2000).
  1995-2006            Northern Virginia Republican Business Forum.
  1994-present         McLean Project for the Arts, McLean, VA.
                        Chairman, Board of Directors (2005 -2007),
                        Director (1994-present) and Pro Bono Counsel
                        (1994-2005).
  1991-present         Federal Communications Bar Association.
  1990-present         Virginia State Bar.
  1990-2005            Fairfax County Republican Committee.
  1990-2003            Republican Club of Greater Reston.
  Periodically         Duke University Club of Washington.
  Nearly life-long     Our Lady of Good Counsel Catholic Church, Vienna,
                        Virginia.
  Nearly life-long     Cardinal Hill Swim and Racquet Club, Vienna,
                        Virginia.
    To the best of my knowledge, no organization I have belonged to 
discriminates in any way.
    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I have been a candidate for public office twice. The first 
candidacy was for the Virginia Senate (32nd District) in 1995. The 
second candidacy was for the Virginia House of Delegates (35th 
District) in 2003. Neither campaign has any debt.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.
    To the best of my ability and knowledge, my research reveals the 
following:

        Virginians for Jerry Kilgore (Governor--2005) $700.

        Jim Hyland for Delegate (2005) $500.

        George W. Bush for President, Inc. (1999) $950.

        Gilmore for Governor (1997) $1,500 (in-kind and cash).

    Below is a summary of political offices held during the past 10 
years:
   2004                 Bush-Cheney 2004
                       Office of Advance, Site Advance Coordinator.
                       Victory 2004 (Republican National Committee),
                        Advance Team Leader.
                       Republican Majority Fund. National Finance
                        Committee.
                       Alternate Delegate At-Large from Virginia to the
                        Republican National Convention.
  2003                 Virginia House of Delegates, 35th District,
                        Republican Nominee.
  1999-2000            Bush-Cheney 2000
                       Florida Recount Effort. Team Leader of Bush-
                        Cheney Observation Team #4 in Broward County and
                        Miami Dade County hand recounts. Also served as
                        Floor Manager and Volunteer Attorney in Miami-
                        Dade.
                       Fundraiser. Served on Host Committees of two
                        fundraising events in Virginia.
                       Delegate from Virginia to Republican National
                        Convention.
                       Office of Advance.
                       Informal Policy Adviser.
  1994-2005            Tom Davis for Congress. Member, Finance
                        Committee; grass-roots organizer; policy
                        adviser.
  1990-2006            Member, Fairfax County Republican Committee.
  1991-2003            Republican Club of Greater Reston, Reston, VA.
                        Founding Board Member; Chairman, Political
                        Liaison Committee (1992); Legal Counsel (1993-
                        94, 1996).
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Latinos in Information Science and Technology Association 
        (LISTA), Chairman's Award, 2008.

        Order of the Barristers, College of William and Mary, Marshall-
        Wythe School of Law.

        Cum Laude, Duke University.

        Dean's List, Duke University.

        Virginia Board for Contractors, Resolution honoring 
        distinguished service (June 2005).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    Articles and Op-eds

        ``Are the LECs Choking-Off Casual Calling?'' Phone+ Magazine, 
        May, 1997;

        ``Protecting Consumers or Slamming the Door On Competition? How 
        Smaller Carriers Will Fare Under Proposed Anti-Slamming 
        Rules,'' Phone+ Magazine, October, 1997;

        ``Apocalypse 1998: RBOC `Political Pressure' in Washington,'' 
        Phone+ Magazine, April, 1998;

        ``It's Time to Regulate LEC Billing,'' Phone+ Magazine, 
        February, 1999;

        ``Are You Ready for the Digital TV Transition?'' Op-ed in the 
        Richmond Times-Dispatch, February 17, 2008;

        ``Broadband Baloney,'' Op-ed in the Wall Street Journal, July 
        24, 2007;

        ``Who Should Solve This Internet Crisis?'' Op-ed in the 
        Washington Post, July 28, 2008;

        ``Are You Ready For Feb. 17 Transition?'' Op-ed in the Richmond 
        Times-Dispatch, December 1, 2008.

    Prepared Speeches

        Ceremony Honoring Dr. Benjamin Hooks, July 19, 2006, Federal 
        Communications Commission, Washington, D.C.

        The Media Institute Black-Tie Awards, October 16, 2006, Four 
        Seasons Hotel, Washington, D.C.

        3G Americas Annual Technology Seminar: The Promise of the 700 
        MHZ Band, October 18, 2006: 11:05-11:20 p.m., Ronald Reagan 
        Building, Washington, D.C.

        FCBA Luncheon, November 15, 2006, Mayflower Hotel, Washington, 
        D.C.

        Financial Times: Regulating the New Era: Can Regulators Keep Up 
        with the Pace of Technology?, November 22, 2006, The 
        Dorchester, London.

        Credit Suisse Conference, December 5, 2006, Crowne Plaza Hotel, 
        1605 Broadway, NY.

        NTCA Keynote, February 6, 2007, Walt Disney World Dolphin 
        Hotel, Lake Buena Vista, FL.

        Duke University Law School: A Conversation with Commissioner 
        McDowell, February 19, 2007, Durham, NC.

        Catholic University Columbus School of Law Telecom Conference: 
        Broadband Deployment in a Multi-Media World: Moving Beyond the 
        Myths to Seize the Opportunities, March 15, 2007, Catholic 
        University of America, Washington, D.C.

        Pike & Fischer's Broadband Policy Summit III, June 7, 2007, The 
        Ritz-Carlton in Arlington, VA.

        USTTI: About the FCC, June 15, 2007, USTTI, 1150 Connecticut 
        Ave., Washington, D.C.

        Spectrum Management Conference: Spectrum Issues Currently at 
        the Top of the FCC's Agenda, September 17, 2007, Capitol Hilton 
        Hotel, Washington, D.C.

        Noche de Gala, Hispanic Foundation for the Arts, October 2, 
        2007, Mayflower Hotel, Washington, D.C.

        Media Institute, November 19, 2007, Four Seasons, Washington, 
        D.C.

        Summit on 911 Call Center Operations and Next Generation 
        Technologies, February 6, 2008, Federal Communications 
        Commission, Washington, D.C.

        Duke University: A Conversation with Commissioner McDowell, 
        February 14, 2008, Durham, NC.

        Tech Policy Summit, March 27, 2008, Hollywood, CA.

        2008 Quello Communications Law and Policy Symposium, April 23, 
        2008, National Press Club, Washington, D.C.

        Pacific Rim Policy Exchange, June 7, 2008, Watermark 
        Restaurant, Hong Kong.

        National Religious Broadcasters Capitol Hill Media Summit 
        Luncheon, September 17, 2008, National Press Club.

        Summit on Pandemic Preparedness: Enhancing Communications 
        Response for Health Care and First Responders, September 18, 
        2008, Federal Communications Commission, Washington, D.C.

        Vanderbilt Forum on Pediatric Obesity: Developing Unique 
        Partnerships to Halt the Epidemic, October 15, 2008, Monroe 
        Carell Jr. Children's Hospital at Vanderbilt, Nashville, TN.

        Latinos in Information Science and Technology Association 
        (``LISTA'') National Latino Technology Achiever Awards, October 
        30, 2008, Hyatt Regency Miami, FL.

        Duke University: A Conversation with Commissioner McDowell, 
        January 15, 2009, Durham, NC.

        Media Institute Luncheon, January 28, 2009, Four Seasons, 
        Washington, D.C.

        FCBA Luncheon, February 2, 2009, Capitol Hilton, Washington, 
        D.C.

        Northern Virginia Technology Council Breakfast, February 10, 
        2009, Patton Boggs--8484 Westpark Drive, 9th Floor, McLean, VA.

        National Congress of American Indians: 6th Annual Dialogue on 
        Improving Telecommunications Access in Indian Country, March 4, 
        2009, Federal Communications Commission, Washington, D.C.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        4/15/08--Before the Committee on Energy and Commerce, 
        Subcommittee on Telecommunications and the Internet, U.S. House 
        of Representatives. FCC Oversight.

        12/13/07--Before the Committee on Commerce, Science, and 
        Transportation, U.S. Senate. FCC Oversight.

        12/5/07--Before the Subcommittee on Telecommunications and the 
        Internet, Committee on Energy and Commerce, U.S. House of 
        Representatives. FCC Oversight.

        7/24/07--Before the Subcommittee on Telecommunications and the 
        Internet, Committee on Energy and Commerce, U.S. House of 
        Representatives. FCC Oversight.

        3/14/07--Before the Subcommittee on Telecommunications and the 
        Internet, Committee on Energy and Commerce, U.S. House of 
        Representatives. FCC Oversight.

        2/1/07--Before the Committee on Commerce, Science, and 
        Transportation, U.S. Senate. Accessing the Communications 
        Marketplace: A View from the FCC.

        3/9/06--Before the Committee on Commerce, Science, and 
        Transportation, U.S. Senate. Confirmation Hearing.

        6/23/1998--Before the Subcommittee on Telecommunications, 
        Trade, and Consumer Protection, Committee on Energy and 
        Commerce, U.S. House of Representatives. Protecting Consumers 
        Against Slamming.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have served on the FCC as a Commissioner for approximately 3 
years. My time there has given me a wealth of experience and 
understanding of the FCC's operations and the policy matters it 
addresses. Additionally, I have benefited from tremendous exposure to a 
wide variety of issues that have come before the Commission--casting 
over 700 votes in the process. This body of experience sits atop a 
foundation of sixteen years in the private sector counseling 
telecommunications entrepreneurs. I wish to serve again because I 
believe that I can continue to use this experience effectively to help 
bring the benefits of competition in the communications marketplace to 
American consumers.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Again, having served for approximately 3 years on the Commission 
has given me the experience and insight needed to help advise the FCC's 
Chairman on management and cost accounting controls. The FCC Chairman 
is, by law, the Chief Executive Officer of the Commission and is, 
therefore, in charge of all day-to-day Commission management, including 
all financial, administrative and operational matters. It is my hope, 
however, that the new permanent Chairman will operate the Commission in 
a more open, transparent and collegial manner than has been done in the 
recent past. If confirmed, I look forward to working with the new 
Chairman in a positive, constructive and non-partisan manner to help 
manage an agency that best serves the public interest.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    The number one priority for the FCC should be to help grow 
America's economy again. The second priority is intertwined with the 
first, which is to help increase access to broadband facilities and 
services across America so that consumers will have before them more 
choices, more powerful innovations, faster speeds and lower prices as 
brought about by more competition. The third priority for the 
Commission is to reform its processes and open itself up to become more 
transparent in its operations and more user-friendly for consumers.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    To the best of my ability at this time, I know of no potential 
conflicts of interest.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I have maintained my affiliation with the McLean Project for the 
Arts (MPA) as a member of its board of directors. MPA is a 501 (c)(3) 
non-profit corporation dedicated to connecting the Northern Virginia 
and Washington, D.C. metropolitan community with the visual arts. I 
have served as either a director and/or officer of MPA since 1994. At 
this time, and to the best of my ability, I do not foresee a potential 
conflict of interest as a result of my association with MPA. As always, 
I will seek the guidance of the FCC's Office of General Counsel, the 
Office of Government Ethics and my personal ethics counsel at the 
Virginia State Bar to avoid either a conflict of interest, or even an 
appearance of a conflict of interest, should such a scenario arise.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    To the best of my ability at this time, I am unaware of any actual 
or potential conflicts of interest. As always, I will seek the guidance 
of the FCC's Office of General Counsel, the Office of Government Ethics 
and my personal ethics counsel at the Virginia State Bar to avoid 
either a conflict of interest or appearance of a conflict of interest 
should such a scenario arise.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In my position as Senior Vice President and Assistant General 
Counsel of CompTel (1999-2006), I may have had conflicts concerning 
matters before the FCC to which CompTel was a party. Under the FCC's 
ethics guidelines in effect as of my swearing in on June 1, 2006, and 
pursuant to my Ethics Agreement with the Senate Commerce Committee at 
that time, I was under a one-year ban from participating in any matter 
involving specific parties in which CompTel was a party until June of 
2007. Having now been at the Commission for approximately 3 years, I am 
no longer under that ban. Accordingly, I do not anticipate my work at 
CompTel producing any additional conflict situations.
    The Martha Louise Shea McDowell Revocable Trust (``Trust'') was 
created on January 26, 2005, as an estate management vehicle for my 
now-deceased mother, Martha McDowell. She died on July 6, 2005. The 
Trust designated Robert McDowell to be successor trustee upon her 
death. The purpose of the Trust is to distribute the Trust's assets to 
Trust beneficiaries. All assets were distributed in 2006; however, the 
Trust remains technically in existence pursuant to the advice of 
personal counsel. It holds a partial interest in my residence 
concurrently with the McDowell Family Trust. It holds no other assets.
    I do not foresee any existing arrangements resulting in potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    As a government affairs professional for CompTel from 1999 to 2006, 
I was engaged in advocacy regarding several pieces of legislation, 
appellate cases and other matters involving telecommunications policy. 
Please see the lobbying disclosure forms filed with the U.S. Congress 
by CompTel during the course of my employment there in further response 
to this question.<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ Documents have been retained in Committee files.
---------------------------------------------------------------------------
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Early in my tenure on the Commission I faced at least two 
situations where my prior employment by CompTel came into question vis-
a-vis a potential conflict of interest. In the first case in June of 
2006, the parties withdrew their pleadings rendering any conflict moot. 
In the second case, the proposed merger of AT&T and BellSouth, I 
consulted with the FCC's Office of General Counsel, the Office of 
Government Ethics and my personal ethics counsel at the Virginia State 
Bar. I determined that the explicit language of my Ethics Agreement 
with the Senate Commerce Committee left me with no choice but to remain 
recused from participating in that matter. Attached is a copy of my 
decision in that case.
    In the unlikely event that a conflict or appearance of a conflict 
should arise again, I will continue to pursue an ethical course, with 
ample consultation with legal ethics experts, that maintains the 
highest of ethical standards.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I have not been a party to any litigation or administrative 
proceeding in my personal capacity. However, in my professional 
capacity as an attorney in private practice and as in-house counsel, I 
have been an attorney of record in numerous cases before both courts 
and administrative agencies. In addition, to the best of my knowledge, 
no business of which I have been an officer has ever been involved as a 
party in civil litigation.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None of which I am aware.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      resume of robert m. mcdowell
Experience
    2006-present--Federal Communications Commission, Washington, D.C., 
Commissioner.

        Appointed by President George W. Bush in 2006 and unanimously 
        confirmed by the Senate to five member independent agency.

        Duties include: formulating and establishing American 
        communications policy covering the wireless, media, and 
        Internet industries, in addition to international policy 
        matters.

        Sample issues: creating rules governing wireless auctions; 
        establishing framework for unlicensed use of TV ``white 
        spaces'' spectrum; developing incentives and removing 
        regulatory barriers to encourage development of new broadband 
        technologies; reviewing public interest benefits as part of 
        approval process of proposed corporate mergers; and adjudicate 
        enforcement proceedings.

        Lead personal office of up to eight professionals. Manage 
        office budget. Work in leadership position with up to hundreds 
        of professional Commission staff.

        Consult with Members of Congress, White House and Executive 
        Branch agencies. Testify before Congressional committees. Seek 
        and analyze opinion from general public and affected 
        industries. Exchange policy ideas with foreign regulators.

        Write and deliver speeches; give media interviews domestically 
        and abroad; write and publish op-eds.

    1999-2006--Competitive Telecommunications Association (CompTel), 
Washington, D.C. Senior Vice President and Assistant General Counsel.

        Served as principal Legislative and Executive Branch policy 
        advocate to the Nation's oldest trade association representing 
        the competitive wireline telecommunications industry.

        Formulated and advocated policy initiatives before Congress, 
        the White House, the Federal Communications Commission, and 
        executive agencies, (e.g., advocating policy positions on 
        antitrust and international matters, lobbying for fair 
        implementation of the Telecommunications Act of 1996, etc.).

        Created and led successful strategic communications and 
        grassroots lobbying campaigns with multi-industry coalitions. 
        Hired and managed vendors and outside consultants.

        Founded association's political action committee (PAC) and 
        political support programs.

        Led teams consisting of dozens of in-house professionals and 
        outside consultants in pursuit of policy objectives. Co-managed 
        $800,000 legal affairs and policy budget. Served as senior 
        business executive and primary attorney responsible for 
        management of association business affairs.

        Served as media spokesperson on behalf of CompTel for many 
        issues.

        Board of Directors: North American Numbering Council; North 
        American Numbering Plan Billing and Collection, Inc. (1999-
        2000); Internet Innovation Alliance (2004-2006).

    1998-1999--America's Carriers Telecommunications Association 
(ACTA), McLean, Virginia. Executive Vice President and General Counsel.

        Chief legal officer of national trade association of over 260 
        telecom service providers. Led strategic bargaining and 
        negotiating efforts in merger of ACTA with the Competitive 
        Telecommunications Association (CompTel) (see above).

        Responsibilities included: formulating telecom policy 
        positions; authoring comments, pleadings and appellate briefs 
        before the FCC, state agencies and Federal appellate courts 
        related to the implementation of the Telecommunications Act of 
        1996 and other matters; advocating policies to promote 
        telecommunications competition in international markets; 
        testifying before Congress; advocating before the White House 
        and administrative agencies; and serving as primary media 
        spokesperson for the association.

    1993-1998--Helein & Associates, P.C., Washington, D.C., McLean, 
Virginia. Senior Attorney.

        Led successful effort to build and manage start-up 
        telecommunications law and business consulting firm. Primary 
        responsibilities included: representing entrepreneurial 
        telecommunications companies before Federal, state, and 
        international regulatory agencies and courts; advising clients 
        on general corporate governance; authoring pleadings and briefs 
        before trial and appellate courts; leading negotiations in 
        merger and acquisition initiatives; drafting asset purchase 
        agreements and other corporate legal documents; serving as 
        outside General Counsel to start-up interexchange carrier; and 
        advocating intellectual property matters before the U.S. Patent 
        and Trademark Office and U.S. Copyright Office.

        Served as outside Deputy General Counsel to America's Carriers 
        Telecommunications Association (see above).

    1990-1993--Arter & Hadden, Washington, D.C. Associate Attorney.

        Primary focus in Washington office of 350-attorney national law 
        firm: telecommunications law. Other areas of concentration: 
        appellate litigation and intellectual property law. A portion 
        of this firm's telecom practice group later formed Helein & 
        Associates, P.C. (see above).

    1989-1990--Office of the U.S. Attorney, Norfolk, VA. Third-year 
Practice Intern.

        Prosecuted criminal cases in Federal court under Virginia's 
        third-year law student practice rule.

    Summer, 1989--Law Offices of Sam Perlmutter, P.C., Los Angeles, CA. 
Summer Associate.

        Focus on: copyright, bankruptcy, contracts, and labor issues 
        for motion picture industry.

    Summer, 1988--Metro-Goldwyn-Mayer/United Artists, Los Angeles, CA. 
Law Clerk.

        Drafted international syndication agreements and helped 
        negotiate contracts with talent agencies.

    1985-1987--Virginia House of Delegates, Richmond, VA. Chief of 
Staff for Delegate Robert T. Andrews.

        Managed legislative office; lobbied; wrote news releases and 
        position papers; and drafted legislation.
Education
        College of William and Mary, Marshall-Wythe School of Law, 
        Williamsburg, VA; J.D., 1990. Honors: Order of the Barristers.

        Duke University, Durham, NC; B.A. Political Science 
        (International Relations), 1985. Honors: Cum Laude, Dean's 
        List.
Bar Memberships and Court Admissions
        Virginia State Bar; Supreme Court of the United States of 
        America; Supreme Court of Virginia; United States Courts of 
        Appeals: District of Columbia Circuit, First Circuit, Fourth 
        Circuit and Fifth Circuit; and United States District Court for 
        the Eastern District of Virginia.
Civic and Political Activities (Partial List)
        Governor's Advisory Board for a Safe and Drug-Free Virginia 
        (gubernatorial appointee, 1994-1995); McLean Project for the 
        Arts, Chairman (2005-2007), Board Member (1994-present); 
        Virginia Board for Contractors (gubernatorial appointee, 1996-
        2004). More available upon request.
Publications and Appearances
    Have been featured and quoted in numerous articles and television 
news programs and given many speeches. Have authored several articles 
and opinion pieces. More available upon request.
Personal
    Married to Jennifer Griffin McDowell. We have three children and 
live on what is left of the family farm in Vienna, Virginia.
                                 ______
                                 
                   Attachment--Section B--Question 6
Statement of Commissioner Robert M. McDowell
December 18, 2006
RE: Application for Transfer of Control Filed by AT&T Inc. and 
        BellSouth Corporation, Memorandum Opinion and Order, WC Docket 
        No. 06-74

    Good afternoon. Thank you for coming.

    Over the past few days, I have devoted a tremendous amount of time 
and energy deliberating my decision regarding my potential 
participation in the consideration of the AT&T/BellSouth merger. I have 
also tried hard to encourage some of my colleagues on the Commission to 
negotiate in good faith--sadly, to no avail. This state of affairs is 
personally disappointing to me. It appears that the lingering question 
of my involvement is being used as yet another excuse for delay and 
inaction. So, to remove that excuse from the equation, I am announcing 
my decision this evening. Given the vast speculation surrounding this 
issue, and in the spirit of transparency, I think it is important for 
me to publicly explain the reasons for my decision.
    By way of background, on February 6, 2006, I was nominated by 
President Bush to serve as a Commissioner on the Federal Communications 
Commission. At that time, I was employed as Senior Vice President and 
Assistant General Counsel of COMPTEL, a trade association representing 
telecommunications entrepreneurs, with many competing against AT&T and 
BellSouth. As of that date, I no longer participated in the formulation 
of COMPTEL policy, nor was I serving any longer as a policy advocate 
for COMPTEL. Then, on March 5, 2006, AT&T announced its intention to 
merge with BellSouth.\1\ The next day, COMPTEL announced its opposition 
to the merger.\2\
---------------------------------------------------------------------------
    \1\ See AT&T, BellSouth To Merge, Press Release (rel. Mar. 5, 2006) 
(located at http://att.sbc.com/gen/
pressroom?pid=5097&cdvn=news&newsarticleid=22140).
    \2\ See COMPTEL Blasts Proposed AT&T, BellSouth Merger, Press 
Release (rel. Mar. 6, 2006). Additionally, COMPTEL has submitted about 
38 filings in the instant docket. See WT Docket No. 06-74.
---------------------------------------------------------------------------
    Meanwhile, as part of the Senate confirmation process, the FCC's 
Office of General Counsel (OGC) reviewed my interests in order to 
ensure compliance with Federal conflict of interest statutes\3\ and 
regulations.\4\ Upon completion of its review, OGC prepared on my 
behalf an Ethics Agreement, which states, ``upon confirmation, Mr. 
McDowell will resign his position with COMPTEL and will for 1 year 
following his resignation disqualify himself from participating in any 
particular matter involving specific parties in which COMPTEL is a 
party, or represents a party.'' \5\ The AT&T/BellSouth merger would be 
just such a matter.
---------------------------------------------------------------------------
    \3\ See 18 U.S.C.  208 (setting forth acts affecting a personal 
financial interest); 47 U.S.C.  154 (providing that no member of the 
Commission shall have a financial interest in any company or other 
entity engaged in the manufacture or sale of telecommunications 
equipment, the business of communication by wire or radio, or in the 
use of the electromagnetic spectrum).
    \4\ See 5 C.F.R.  2635.501 et seq. (containing provisions intended 
to ensure that an employee takes appropriate steps to avoid an 
appearance of loss of impartiality in the performance of official 
duties). A copy of these regulations is attached at Exhibit A.
    \5\ Letter from Patrick J. Carney, Alternate Designated Agency 
Ethics Official and Assistant General Counsel, FCC, to Marilyn L. 
Glynn, General Counsel, Office of Government Ethics (dated Feb. 9, 
2006) (``Ethics Agreement'') at 1. A copy of my Ethics Agreement is 
attached at Exhibit B. OGC sent a copy of my Ethics Agreement to the 
Chairman of the Senate Committee on Commerce, Science, and 
Transportation, Senator Ted Stevens, on February 14, 2006. See Letter 
from Samuel L. Feder, General Counsel and Designated Agency Ethics 
Official, FCC, to The Honorable Ted Stevens, Chairman, Senate Committee 
on Commerce, Science, and Transportation (dated Feb. 14, 2006) 
(``Transmittal Letter''). A copy of the Transmittal Letter, which is 
substantively similar to the Ethics Agreement, is also attached at 
Exhibit B.
---------------------------------------------------------------------------
    Appropriately, the conflict of interest I would bring to the FCC in 
deciding the fate of the proposed merger was the primary topic of my 
March 9 confirmation hearing. In fact, Senator George Allen questioned 
me on this matter. In my answer, I pledged that, as a commissioner, I 
would operate under nothing less than the highest of ethical 
standards.\6\ Further, in referencing the FCC's established system 
governing conflicts, I was aware of the need to consult with the FCC's 
General Counsel, other authorities such as the Office of Government 
Ethics (OGE), the U.S. Code, the Code of Federal Regulations (CFR), my 
Ethics Agreement (which was in place at the time of my testimony), and 
the Virginia Rules of Professional Conduct, as needed, when making 
ethical and policy determinations at the FCC.
---------------------------------------------------------------------------
    \6\ A copy of the transcript of this exchange is attached at 
Exhibit C.
---------------------------------------------------------------------------
    I was confirmed by the Senate on May 26, 2006. Pursuant to my 
Ethics Agreement, I resigned my position with COMPTEL on May 31, 2006. 
Since being sworn in by Chairman Martin on June 1, 2006, I have not 
participated in the Commission's consideration of particular matters 
involving specific parties in which COMPTEL is a party \7\ because my 
Ethics Agreement, as well as the Code of Federal Regulations, expressly 
state I should not.\8\ In effect, from the beginning, I have had a 
``red light'' prohibiting me from participating in particular matters 
involving specific parties--in this case, a merger proceeding involving 
two parties, AT&T and BellSouth--where COMPTEL is a party. In light of 
this bar, I therefore have not participated in its substantive 
consideration.
---------------------------------------------------------------------------
    \7\ See 47 CFR  1.21(c).
    \8\ See Ethics Agreement at 1 (``upon confirmation Mr. McDowell 
will resign his position with COMPTEL and will for 1 year following his 
resignation disqualify himself from participating in any particular 
matter involving specific parties in which COMPTEL is a party, or 
represents a party''); 5 C.F.R.  2635.502(a) (``where an employee . . 
. represents a party to [a particular matter involving specific 
parties], and where the employee determines that the circumstances 
would cause a reasonable person with knowledge of the relevant facts to 
question his impartiality in the matter, the employee should not 
participate in the matter'').
---------------------------------------------------------------------------
    Against this backdrop, on December 1, 2006, citing my four 
colleagues' ``inability to reach consensus on this matter,'' \9\ 
Chairman Martin announced his decision to exercise his prerogative to 
direct the FCC's General Counsel to ``consider whether the Government's 
interest would be served by'' permitting me to participate.\10\
---------------------------------------------------------------------------
    \9\ Letter from Kevin J. Martin, Chairman, FCC, to Congressional 
Leaders (dated Dec. 1, 2006). A copy of this letter is attached at 
Exhibit D.
    \10\ See id.
---------------------------------------------------------------------------
    Most recently, on December 8, Mr. Feder delivered to me a 
memorandum of law that sets forth his conclusion that the government's 
interest in this matter outweighs the concern about the appearance of a 
conflict of interest.\11\ Specifically, citing 5 C.F.R.  
2635.502(d),\12\ the Authorization Memo concludes, ``you should not be 
barred from participating in this proceeding if you choose to do 
so[,]'' \13\ and notes that ``[b]alancing these competing concerns here 
was difficult, and reasonable people looking at these facts could 
disagree about the appropriate result.'' \14\ I would like to go out of 
my way to thank Mr. Feder and his hard-working staff for their efforts 
in this endeavor.
---------------------------------------------------------------------------
    \11\ See Memorandum from Samuel L. Feder, General Counsel, FCC, to 
Commissioner Robert McDowell, regarding Authorization To Participate in 
the AT&T/BellSouth Merger Proceeding (dated Dec. 8, 2006) 
(``Authorization Memo''). A copy of the Authorization Memo is attached 
at Exhibit E.
    \12\ See Exhibit A.
    \13\ Authorization Memo at 1.
    \14\ Id.
---------------------------------------------------------------------------
    In all candor, however, I had expected a memorandum making a strong 
and clear case for my participation. Instead, the Authorization Memo is 
hesitant, does not acknowledge crucial facts and analyses, and 
concludes by framing this matter as an ethical coin-toss frozen in mid-
air. The document does not provide me with confidence or comfort. Nor 
does the December 11, 2006, letter responding to the questions posed by 
Representatives Dingell and Markey.\15\ I must emphasize that in no way 
should anyone interpret my observations as a criticism of Mr. Feder or 
his staff. As indicated in the Authorization Memo, reasonable minds can 
differ on this matter. Nonetheless, while I expected the legal 
equivalent of body armor, I was handed Swiss cheese.
---------------------------------------------------------------------------
    \15\ See Letter from Samuel L. Feder, General Counsel, FCC, to The 
Honorable John D. Dingell, Ranking Member, Committee on Energy and 
Commerce, U.S. House of Representatives, and The Honorable Edward J. 
Markey, Ranking Member, Subcommittee on Telecommunications and the 
Internet, U.S. House of Representatives (dated Dec. 11, 2006) (``Dec. 
11, 2006 Letter'').
---------------------------------------------------------------------------
    First, the Authorization Memo is silent on the issue of my Ethics 
Agreement, which, as noted earlier, was described with specificity and 
transmitted to the Senate by Mr. Feder on February 14, 2006.\16\ In 
fact, the memo does not even mention the Ethics Agreement, which is 
separate and apart from other legal and ethical standards that may 
apply. The Ethics Agreement clearly states that I must disqualify 
myself ``for one year . . . from participating in any particular 
matter, involving specific parties, in which COMPTEL is a party, or 
represents a party,'' \17\ and contains no exception to this mandate. 
Furthermore, the Ethics Agreement embodies representations that I made 
to the Senate. Senators relied on these representations when they 
confirmed me unanimously on May 26. Yet, the Authorization Memo offers 
no discussion of, let alone justification for, why or how the Ethics 
Agreement may be breached.\18\
---------------------------------------------------------------------------
    \16\ See supra n.5.
    \17\ Ethics Agreement at 1; Transmittal Letter at 1.
    \18\ With respect to the substance of the Authorization Memo, I 
must distinguish two scenarios upon which OGC relied in reaching its 
conclusion. First, regarding former FCC Chairman Kennard, I note that 
the Personal Attack and Political Editorial Rule proceeding was a 
rulemaking of general applicability, not an adjudicatory proceeding (or 
particular matter involving specific parties), which is at issue today. 
See 5 CFR  2635.502(a)(2) (in applying this provision to rulemaking 
proceedings, it has been longstanding FCC policy that an employee who 
was personally and substantially involved in a particular rulemaking 
before coming to the Commission would, absent an authorization, 
confront a lifetime bar from participating in that rulemaking 
proceeding). In addition, prior to his authorization to participate as 
FCC Chairman in September 2000, Chairman Kennard had previously 
participated in that rulemaking proceeding almost twenty years earlier. 
See Statement of FCC Chairman William E. Kennard Concerning his 
Participation in the Personal Attack and Political Editorial Rule 
Proceeding, FCC News Release (rel. Sept. 18, 2000). Second, regarding 
my vote in June 2006 in support of the Universal Service Fund 
Contribution Methodology item, while it is true that COMPTEL is a party 
in that proceeding, here again, that proceeding is a rulemaking of 
general applicability rather than a particular matter involving 
specific parties. Moreover, like the instant merger proceeding, I had 
not personally participated in and was not involved in the Universal 
Service Fund Contribution Methodology proceeding while with COMPTEL. 
Thus, although OGC gave weight to these scenarios in reaching the 
conclusions set forth in the Authorization Memo, the comparisons are 
imprecise.
---------------------------------------------------------------------------
    Second, I am concerned by the advice given to OGC by the Office of 
Government Ethics (OGE). OGE was chartered in 1989 by President George 
H. W. Bush to ``establish fair and exacting standards of ethical 
conduct for all Executive Branch employees.'' \19\ As the unbiased and 
dispassionate ethics counsel to Federal agencies, OGE ensures ``that 
every citizen can have complete confidence in the integrity of the 
Federal Government.'' \20\ In essence, OGE's advice is the ``gold 
standard'' for the ethical conduct of Federal employees and officials. 
The Authorization Memo reports that OGE Director Robert I. Cusik 
described the question of my participation as a ``very, very close 
call,'' and advised that ``were the decision up to him, he would decide 
against authorization.'' \21\ I find Mr. Cusik's opinion significant 
and I afford it great weight in drawing my conclusion.
---------------------------------------------------------------------------
    \19\ Exec. Order No. 12674, Principles of Ethical Conduct for 
Government Officers and Employees (rel. Apr. 12, 1989).
    \20\ Id.
    \21\ Authorization Memo at 7.
---------------------------------------------------------------------------
    Finally, last week, I sought advice from my personal ethics counsel 
at the Virginia State Bar. And, while the substance of that discussion 
is privileged and confidential, suffice it to say that I was not 
encouraged by their assessment.
    Throughout my brief tenure here at the FCC, I have tried to be as 
thoughtful, transparent and direct as possible in my decisionmaking. 
With each decision I make, I endeavor to keep in mind why the FCC 
exists and what the mission of each commissioner should be; and that, 
of course, is to promote and protect the public interest. We must never 
lose sight of the fact that the ultimate shareholders in every endeavor 
we embark upon are the American people. In this vein, it is incumbent 
upon every public servant to do all that he or she can to earn the 
public's trust in the integrity and impartiality of their government.
    In light of these factors, I find that I have no choice but to 
abide by the terms of my Ethics Agreement, heed the independent advice 
of OGE and my personal ethics counsel, and, ultimately to follow my own 
personal sense of ethics.\22\ Accordingly, I disqualify myself from 
this matter.
---------------------------------------------------------------------------
    \22\ Further, I will not risk jeopardizing the legal sustainability 
of the Commission's decision in this matter should a party seek appeal. 
AT&T and BellSouth reportedly have ``no objection'' to my 
participation. See Edie Herman, McDowell Authorized to Vote on AT&T-
BellSouth Merger, Communications Daily, Dec. 11, 2006, at 2. I am 
unaware, however, as to whether other parties to the proceeding have 
taken similar positions.
---------------------------------------------------------------------------
    I have not reached my decision lightly. The American people expect 
their public servants to make tough decisions, and I have not hesitated 
from doing so in my brief tenure here at the Commission. The American 
people also demand that public servants operate under the highest of 
ethical standards. All too often, especially recently, they have been 
disappointed by those who hold public office. I hope that this is one 
instance where they are not disappointed.
    In the meantime, I am hopeful that in the holiday spirit of making 
sacrifices, my four colleagues--and all the interested parties--will 
come back to the negotiating table in good faith to offer meaningful 
concessions. Because I am an incurable optimist, I am confident that 
this merger can be resolved with the same speed and unanimity as the 
SBC/AT&T and Verizon/MCI mergers of last year.
    Now, my four colleagues have exclusive and unambiguous ownership of 
this important merger. Having only four Commissioners participate 
really should not be an impediment to progress.\23\ There have been 
many stretches of time in recent history when only four Commissioners 
sat on the FCC. In fact, since 1990, the Commission has had fewer than 
five Commissioners for a combined period of over five years. During 
these periods, contentious and difficult mergers were successfully 
considered. And, the two Bell mergers reviewed just last year were 
approved unanimously by a four-member Commission. This transaction 
should be no different. I urge all of them to resolve their differences 
as soon as possible.
---------------------------------------------------------------------------
    \23\ See, e.g., Dec. 11, 2006 Letter at Tab D, which includes a 
number of major transactions handled on delegated authority rather than 
by the full Commission.
---------------------------------------------------------------------------
    Sadly, I fear that my recusal from this matter has been used as a 
pawn by some to forgo meaningful and sincere negotiations. Now that I 
am removing that chess piece from the board, I hope that the twin 
pillars of sound negotiations are restored: good faith and sacrifice. 
The shareholders, employees and customers of the affected companies 
deserve speedy resolution of this matter. More importantly, so do the 
American people.
    Finally, I thank you again for coming today. And, I thank my staff 
for their incredibly hard work, long hours and support throughout this 
difficult episode. I wish each of you the happiest of holidays.
                                 ______
                                 
                 Exhibit A--5 C.F.R.  2635.501 et seq.
 2635.501--5 CFR Ch. XVI (1-1-06 Edition)
    (e) Eligibility for special tax treatment. An employee required to 
sell or otherwise divest a financial interest may be eligible to defer 
the tax consequences of divestiture under subpart J of part 2634 of 
this chapter.
    [57 FR 35042, Aug. 7, 1992, as amended at 59 FR 4780, Feb. 2, 1994; 
60 FR 6391, Feb. 2, 1995; 60 FR 66858, Dec. 27, 1995; 61 FR 40951, Aug. 
7, 1996; 62 FR 48748, Sept. 17, 1996]
Subpart E--Impartiality in Performing Official Duties
 2635.501 Overview.
    (a) This subpart contains two provisions intended to ensure that an 
employee takes appropriate steps to avoid an appearance of loss of 
impartiality in the performance of his official duties. Under  
2635.502, unless he receives prior authorization, an employee should 
not participate in a particular matter involving specific parties which 
he knows is likely to affect the financial interests of a member of his 
household, or in which he knows a person with whom he has a covered 
relationship is or represents a party, if he determines that a 
reasonable person with knowledge of the relevant facts would question 
his impartiality in the matter. An employee who is concerned that other 
circumstances would raise a question regarding his impartiality should 
use the process described in  2635.502 to determine whether he should 
or should not participate in a particular matter.
    (b) Under  2635.503, an employee who has received an extraordinary 
severance or other payment from a former employer prior to entering 
Government service is subject, in the absence of a waiver, to a two-
year period of disqualification from participation in particular 
matters in which that former employer is or represents a party.
    Note: Questions regarding impartiality necessarily arise when an 
employee's official duties impact upon the employee's own financial 
interests or those of certain other persons, such as the employee's 
spouse or minor child. An employee is prohibited by criminal statute, 
18 U.S.C. 208(a), from participating personally and substantially in an 
official capacity in any particular matter in which, to his knowledge, 
he, his spouse, general partner or minor child has a financial 
interest, if the particular matter will have a direct and predictable 
effect on that interest. The statutory prohibition also extends to an 
employee's participation in a particular matter in which, to his 
knowledge, an organization in which the employee is serving as officer, 
director, trustee, general partner or employee, or with whom he is 
negotiating or has an arrangement concerning prospective employment has 
a financial interest. Where the employee's participation in a 
particular matter would affect any one of these financial interests, 
the standards set forth in subparts D or F of this part apply and only 
a statutory waiver or exemption, as described in  2635.402(d) and 
2635.605(a), will enable the employee to participate in that matter. 
The authorization procedures in  2635.502(d) may not be used to 
authorize an employee's participation in any such matter. Where the 
employee complies with all terms of the waiver, the granting of a 
statutory waiver will be deemed to constitute a determination that the 
interest of the Government in the employee's participation outweighs 
the concern that a reasonable person may question the integrity of 
agency programs and operations. Similarly, where the employee meets all 
prerequisites for the application of one of the exemptions set forth in 
subpart B of part 2640 of this chapter, that also constitutes a 
determination that the interest of the Government in the employee's 
participation outweighs the concern that a reasonable person may 
question the integrity of agency programs and operations.
    [57 FR 35042, Aug. 7, 1992, as amended at 62 FR 48748, Sept. 17, 
1997]
 2635.502 Personal and business relationships.
    (a) Consideration of appearances by the employee. Where an employee 
knows that a particular matter involving specific parties is likely to 
have a direct and predictable effect on the financial interest of a 
member of his household, or knows that a person with whom he has a 
covered relationship is or represents a party to such matter, and where 
the employee determines that the circumstances would cause a reasonable 
person with knowledge of the relevant facts to question his 
impartiality in the matter, the employee should not participate in the 
matter unless he has informed the agency designee of the appearance 
problem and received authorization from the agency designee in 
accordance with paragraph (d) of this section.
    (1) In considering whether a relationship would cause a reasonable 
person to question his impartiality, an employee may seek the 
assistance of his supervisor, an agency ethics official or the agency 
designee.
    (2) An employee who is concerned that circumstances other than 
those specifically described in this section would raise a question 
regarding his impartiality should use the process described in this 
section to determine whether he should or should not participate in a 
particular matter.
    (b) Definitions. For purposes of this section:
    (1) An employee has a covered relationship with:
    (i) A person, other than a prospective employer described in  
2635.603(c), with whom the employee has or seeks a business, 
contractual or other financial relationship that involves other than a 
routine consumer transaction;
    Note: An employee who is seeking employment within the meaning of  
2635.603 shall comply with subpart F of this part rather than with this 
section.
    (ii) A person who is a member of the employee's household, or who 
is a relative with whom the employee has a close personal relationship;
    (iii) A person for whom the employee's spouse, parent or dependent 
child is, to the employee's knowledge, serving or seeking to serve as 
an officer, director, trustee, general partner, agent, attorney, 
consultant, contractor or employee;
    (iv) Any person for whom the employee has, within the last year, 
served as officer, director, trustee, general partner, agent, attorney, 
consultant, contractor or employee; or
    (v) An organization, other than a political party described in 26 
U.S.C. 527(e), in which the employee is an active participant. 
Participation is active if, for example, it involves service as an 
official of the organization or in a capacity similar to that of a 
committee or subcommittee chairperson or spokesperson, or participation 
in directing the activities of the organization. In other cases, 
significant time devoted to promoting specific programs of the 
organization, including coordination of fundraising efforts, is an 
indication of active participation. Payment of dues or the donation or 
solicitation of financial support does not, in itself, constitute 
active participation.
    Note: Nothing in this section shall be construed to suggest that an 
employee should not participate in a matter because of his political, 
religious or moral views.
    (2) Direct and predictable effect has the meaning set forth in  
2635.402(b)(1).
    (3) Particular matter involving specific parties has the meaning 
set forth in  2637.102(a)(7) of this chapter.
    Example 1: An employee of the General Services Administration has 
made an offer to purchase a restaurant owned by a local developer. The 
developer has submitted an offer in response to a GSA solicitation for 
lease of office space. Under the circumstances, she would be correct in 
concluding that a reasonable person would be likely to question her 
impartiality if she were to participate in evaluating that developer's 
or its competitor's lease proposal.
    Example 2: An employee of the Department of Labor is providing 
technical assistance in drafting occupational safety and health 
legislation that will affect all employers of five or more persons. His 
wife is employed as an administrative assistant by a large corporation 
that will incur additional costs if the proposed legislation is 
enacted. Because the legislation is not a particular matter involving 
specific parties, the employee may continue to work on the legislation 
and need not be concerned that his wife's employment with an affected 
corporation would raise a question concerning his impartiality.
    Example 3: An employee of the Defense Logistics Agency who has 
responsibilities for testing avionics being produced by an Air Force 
contractor has just learned that his sister-in-law has accepted 
employment as an engineer with the contractor's parent corporation. 
Where the parent corporation is a conglomerate, the employee could 
reasonably conclude that, under the circumstances, a reasonable person 
would not be likely to question his impartiality if he were to continue 
to perform his test and evaluation responsibilities.
    Example 4: An engineer has just resigned from her position as vice 
president of an electronics company in order to accept employment with 
the Federal Aviation Administration in a position involving procurement 
responsibilities. Although the employee did not receive an 
extraordinary payment in connection with her resignation and has 
severed all financial ties with the firm, under the circumstances she 
would be correct in concluding that her former service as an officer of 
the company would be likely to cause a reasonable person to question 
her impartiality if she were to participate in the administration of a 
DOT contract for which the firm is a first-tier subcontractor.
    Example 5: An employee of the Internal Revenue Service is a member 
of a private organization whose purpose is to restore a Victorian-era 
railroad station and she chairs its annual fundraising drive. Under the 
circumstances, the employee would be correct in concluding that her 
active membership in the organization would be likely to cause a 
reasonable person to question her impartiality if she were to 
participate in an IRS determination regarding the tax-exempt status of 
the organization.
    (c) Determination by agency designee. Where he has information 
concerning a potential appearance problem arising from the financial 
interest of a member of the employee's household in a particular matter 
involving specific parties, or from the role in such matter of a person 
with whom the employee has a covered relationship, the agency designee 
may make an independent determination as to whether a reasonable person 
with knowledge of the relevant facts would be likely to question the 
employee's impartiality in the matter. Ordinarily, the agency 
designee's determination will be initiated by information provided by 
the employee pursuant to paragraph (a) of this section. However, at any 
time, including after the employee has disqualified himself from 
participation in a matter pursuant to paragraph (e) of this section, 
the agency designee may make this determination on his own initiative 
or when requested by the employee's supervisor or any other person 
responsible for the employee's assignment.
    (1) If the agency designee determines that the employee's 
impartiality is likely to be questioned, he shall then determine, in 
accordance with paragraph (d) of this section, whether the employee 
should be authorized to participate in the matter. Where the agency 
designee determines that the employee's participation should not be 
authorized, the employee will be disqualified from participation in the 
matter in accordance with paragraph (e) of this section.
    (2) If the agency designee determines that the employee's 
impartiality is not likely to be questioned, he may advise the 
employee, including an employee who has reached a contrary conclusion 
under paragraph (a) of this section, that the employee's participation 
in the matter would be proper.
    (d) Authorization by agency designee. Where an employee's 
participation in a particular matter involving specific parties would 
not violate 18 U.S.C. 208(a), but would raise a question in the mind of 
a reasonable person about his impartiality, the agency designee may 
authorize the employee to participate in the matter based on a 
determination, made in light of all relevant circumstances, that the 
interest of the Government in the employee's participation outweighs 
the concern that a reasonable person may question the integrity of the 
agency's programs and operations. Factors which may be taken into 
consideration include:
    (1) The nature of the relationship involved;
    (2) The effect that resolution of the matter would have upon the 
financial interests of the person involved in the relationship;
    (3) The nature and importance of the employee's role in the matter, 
including the extent to which the employee is called upon to exercise 
discretion in the matter;
    (4) The sensitivity of the matter;
    (5) The difficulty of reassigning the matter to another employee; 
and
    (6) Adjustments that may be made in the employee's duties that 
would reduce or eliminate the likelihood that a reasonable person would 
question the employee's impartiality.
    Authorization by the agency designee shall be documented in writing 
at the agency designee's discretion or when requested by the employee. 
An employee who has been authorized to participate in a particular 
matter involving specific parties may not thereafter disqualify himself 
from participation in the matter on the basis of an appearance problem 
involving the same circumstances that have been considered by the 
agency designee.
    Example 1: The Deputy Director of Personnel for the Department of 
the Treasury and an attorney with the Department's Office of General 
Counsel are general partners in a real estate partnership. The Deputy 
Director advises his supervisor, the Director of Personnel, of the 
relationship upon being assigned to a selection panel for a position 
for which his partner has applied. If selected, the partner would 
receive a substantial increase in salary. The agency designee cannot 
authorize the Deputy Director to participate on the panel under the 
authority of this section since the Deputy Director is prohibited by 
criminal statute, 18 U.S.C. 208(a), from participating in a particular 
matter affecting the financial interest of a person who is his general 
partner. See  2635.402.
    Example 2: A new employee of the Securities and Exchange Commission 
is assigned to an investigation of insider trading by the brokerage 
house where she had recently been employed. Because of the sensitivity 
of the investigation, the agency designee may be unable to conclude 
that the Government's interest in the employee's participation in the 
investigation outweighs the concern that a reasonable person may 
question the integrity of the investigation, even though the employee 
has severed all financial ties with the company. Based on consideration 
of all relevant circumstances, the agency designee might determine, 
however, that it is in the interest of the Government for the employee 
to pass on a routine filing by the particular brokerage house.
    Example 3: An Internal Revenue Service employee involved in a long 
and complex tax audit is advised by her son that he has just accepted 
an entry-level management position with a corporation whose taxes are 
the subject of the audit. Because the audit is essentially complete and 
because the employee is the only one with an intimate knowledge of the 
case, the agency designee might determine, after considering all 
relevant circumstances, that it is in the Government's interest for the 
employee to complete the audit, which is subject to additional levels 
of review.
    (e) Disqualification. Unless the employee is authorized to 
participate in the matter under paragraph (d) of this section, an 
employee shall not participate in a particular matter involving 
specific parties when he or the agency designee has concluded, in 
accordance with paragraph (a) or (c) of this section, that the 
financial interest of a member of the employee's household, or the role 
of a person with whom he has a covered relationship, is likely to raise 
a question in the mind of a reasonable person about his impartiality. 
Disqualification is accomplished by not participating in the matter.
    (1) Notification. An employee who becomes aware of the need to 
disqualify himself from participation in a particular matter involving 
specific parties to which he has been assigned should notify the person 
responsible for his assignment. An employee who is responsible for his 
own assignment should take whatever steps are necessary to ensure that 
he does not participate in the matter from which he is disqualified. 
Appropriate oral or written notification of the employee's 
disqualification may be made to coworkers by the employee or a 
supervisor to ensure that the employee is not involved in a particular 
matter involving specific parties from which he is disqualified.
    (2) Documentation. An employee need not file a written 
disqualification statement unless he is required by part 2634 of this 
chapter to file written evidence of compliance with an ethics agreement 
with the Office of Government Ethics or is specifically asked by an 
agency ethics official or the person responsible for his assignment to 
file a written disqualification statement. However, an employee may 
elect to create a record of his actions by providing written notice to 
a supervisor or other appropriate official.
    (f) Relevant considerations. An employee's reputation for honesty 
and integrity is not a relevant consideration for purposes of any 
determination required by this section.
 2635.503 Extraordinary payments from former employers.
    (a) Disqualification requirement. Except as provided in paragraph 
(c) of this section, an employee shall be disqualified for 2 years from 
participating in any particular matter in which a former employer is a 
party or represents a party if he received an extraordinary payment 
from that person prior to entering Government service. The two-year 
period of disqualification begins to run on the date that the 
extraordinary payment is received.
    Example 1: Following his confirmation hearings and 1 month before 
his scheduled swearing in, a nominee to the position of Assistant 
Secretary of a department received an extraordinary payment from his 
employer. For 1 year and 11 months after his swearing in, the Assistant 
Secretary may not participate in any particular matter to which his 
former employer is a party.
                                 ______
                                 
           Exhibit B--Transmittal Letter and Ethics Agreement
                          Federal Communications Commission
                                  Washington, DC, February 14, 2006
Hon. Ted Stevens,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Mr. Chairman:

    At the request of the Committee, we have reviewed the financial and 
other interests of Robert M. McDowell, the President's nominee for 
Commissioner of the Federal Communications Commission, that are 
identified in his Public Financial Disclosure Report (SF-278) and his 
responses to your Biographical and Financial Information Requested of 
Department/Agency Nominees.
    As set forth in our letter dated February 9, 2006, to Marilyn L. 
Glynn, General Counsel, Office of Government Ethics, regarding our 
review of the nominee's SF-278, Mr. McDowell has agreed that within 
ninety days of Senate confirmation of his nomination for this position, 
he will divest his interest in General Electric Company and 
Southwestern Bell, now AT&T, in order to come into compliance with 
conflict of interest laws and Commission regulations and avoid even the 
appearance of a possible conflict. Further, so as to ensure that no 
conflict of interest should occur in the interim, Mr. McDowell will not 
participate personally and substantially in any particular matter that 
will have a direct and predictable effect on these entities, until the 
appropriate divestiture or other actions have been completed, unless he 
first obtains a written waiver or qualifies for a regulatory exemption.
    Additionally, upon confirmation Mr. McDowell will resign his 
position with the COMPTEL and will for 1 year following resignation 
disqualify himself from participating in any particular matter, 
involving specific parties, in which COMPTEL is a party, or represents 
a party. Furthermore, we concur in the White House Counsel's Office 
determination that Mr. McDowell can continue his position as a member 
of the Board of Directors of the McLean Project for the Arts, a 
nonprofit educational service organization with the understanding that 
no fundraising is permitted, either in his personal or professional/
official capacity. Mr. McDowell has agreed to be guided by the advice 
of the Commission's General Counsel and Designated Agency Ethics 
Official on any matters that may pose a potential conflict of interest 
or appearance thereof and to execute any necessary recusals relating to 
such matters.
    We are of the opinion that if these steps are followed, there will 
not be any conflict under section 4(b) of the Communications Act, 18 
U.S.C.  208, or the Standards of Ethical Conduct for Executive Branch 
Employees. Based on the forgoing considerations and our review of the 
documents provided, we find that no conflict of interest or appearance 
thereof should occur with respect to the nominee's service as a 
Commissioner, Federal Communications Commission. A copy of our letter 
to Ms. Glynn is enclosed for the Committee's reference.
            Sincerely,
                                           Samuel L. Feder,
                                    General Counsel and Designated 
                                            Agency Ethics Official.
Enclosure
cc: Robert M. McDowell
                                 ______
                                 
                          Federal Communications Commission
                                   Washington, DC, February 9, 2006
Marilyn L. Glynn,
General Counsel,
Office of Government Ethics,
Washington, DC.

Dear Ms. Glynn:

    Pursuant to 5 C.F.R.  2634.605(c)(2), I am transmitting the Public 
Financial Disclosure Report (SF-278), dated January 17, 2006, filed by 
Robert M. McDowell, who has been nominated by the President to be a 
Commissioner, Federal Communications Commission.
    We have reviewed the financial and other interests of Mr. McDowell 
as identified in his SF-278. In order to ensure compliance with Federal 
conflict of interest statutes and regulations, in particular 18 U.S.C. 
 208, and to avoid even the appearance of any conflict between his 
financial interests and his official duties as a member of the Federal 
Communications Commission, Mr. McDowell has agreed that within ninety 
days of Senate confirmation of his nomination for this position he will 
dispose of his interests in the following entities held through the 
Martha Louise Shea McDowell Revocable Trust:

  <bullet> General Electric Co.

  <bullet> Southwestern Bell (SBC).

    However, as long as he retains these financial interests he will be 
disqualified from participating personally and substantially in any 
Federal Communications Commission proceeding or other particular matter 
that will have a direct and predictable effect on these entities, 
unless covered by a regulatory exemption or individual waiver issued 
pursuant to 18 U.S.C.  208 (b)(1). Additionally, upon confirmation Mr. 
McDowell will resign his position with COMPTEL and will for 1 year 
following his resignation disqualify himself from participating in any 
particular matter involving specific parties in which COMPTEL is a 
party, or represents a party. Furthermore, Mr. McDowell has agreed to 
be guided by the advice of the Commission's General Counsel (DAEO) on 
any other matters that may pose a potential conflict of interest or 
appearance thereof and to execute any necessary recusals relating to 
such matters.
    We are of the opinion that divestiture of the above financial 
interests by the nominee is either required or reasonably necessary so 
as to avoid violating Federal laws and regulations or even the 
appearance thereof So long as these steps are followed, we do not 
believe that there will be any conflict under 18 U.S.C.  208, or the 
Standards of Ethical Conduct for Executive Branch Employees.
    Based on the forgoing considerations and our review of the 
documents provided, we find that no conflict of interest or appearance 
thereof should occur with respect to Mr. McDowell's services as a 
member of the Federal Communications Commission.
            Sincerely,
                                         Patrick J. Carney,
                       Alternate Designated Agency Ethics Official 
                                      and Assistant General Counsel
Enclosure
cc: Robert M. McDowell
                                 ______
                                 
                      Exhibit C--Senate Transcript
Congressional Transcripts
Congressional Hearings--March 9, 2006
Senate Commerce, Science, and Transportation Committee Holds Hearing on 
        Coast Guard Commandant Confirmation
List of Speakers
Senator Ted Stevens (R-AK), Chairman
Senator John McCain (R-AZ)
Senator Conrad Burns (R-MT)
Senator Trent Lott (R-MS)
Senator Kay Bailey Hutchison (R-TX)
Senator Olympia J. Snowe (R-ME)
Senator Gordon Smith (R-OR)
Senator John Ensign (R-NV)
Senator George Allen (R-VA)
Senator John E. Sununu (R-NH)
Senator Jim DeMint (R-SC)
Senator David Vitter (R-LA)
Senator Daniel K. Inouye (D-HI), Co-Chairman
Senator John D. Rockefeller IV (D-WV)
Senator John F. Kerry (D-MA)
Senator Byron L. Dorgan (D-ND)
Senator Barbara Boxer (D-CA)
Senator Bill Nelson (D-FL)
Senator Maria Cantwell (D-WA)
Senator Frank R. Lautenberg (D-NJ)
Senator Ben Nelson (D-NE)
Senator Mark Pryor (D-AR)
Witnesses:
    Robert McDowell, Nominee to Be a Commissioner at the Federal 
Communications Commissions
    Vice Admiral Thad Allen, Nominee to Be the Commandant of the U.S. 
Coast Guard
    Stevens. Good afternoon.
    Bill Nelson. If the Senator would notice, the Admiral has answered 
the question with the regard to the Coast Guard decision of the 
repatriating of the 15 rafters in early January. He has stated that was 
a Coast Guard decision after the consultation with their legal counsel.
    Now that that issue has been brought to full fruition in a Federal 
court, where the court has said that the law was not followed, it's 
certainly worth bringing up that issue on those kinds of 
interpretations within the Coast Guard itself.
    G. Allen. Admiral Allen, you can just watch as a referee.
    Stevens. Thank you very much, Admiral.
    Anyone have any further questions to the Admiral?
    We appreciate your courtesy, Admiral. We will have an Executive 
Session on Thursday, March 16. We'll do our best to see if we can get 
your nomination before that Executive Session.
    Thank you very much.
    T. Allen. Thank you, Mr. Chairman.
    [Begin Robert McDowell]
    Stevens. Our next nominee is Robert McDowell, nominated to be a 
Commissioner of the Federal Communications Commission and to be 
introduced by Senator Allen.
    G. Allen. Thank you, Rob. If you'd have a seat there.
    Mr. Chairman and colleagues on the Committee, it is my pleasure 
this afternoon to introduce to our Committee, Robert M. McDowell.
    Rob and his bride, Jennifer, are long-time friends of mine and my 
wife, Susan. Rob is a native of Virginia. He and his bride, Jennifer, 
are raising their two children, Griffin (ph) and Mary Shea (ph), who 
are here with us--well-behaved little pups--and they're raising on 
what's left of the farm in Northern Virginia that Rob grew up on.
    I'm delighted that President Bush has nominated Rob to serve as 
Commissioner on the Federal Communications Commission. I'm confident 
he'll do an outstanding job there.
    I'm going to put a whole statement in the record, but let me 
highlight why I think he's extraordinarily qualified to serve on the 
FCC.
    Rob brings with him approximately 16 years of private sector 
experience in the communications industry. I think that experience 
alone makes him a tremendous asset to the Commission from the 
perspective that he has had.
    He has long been a passionate individual about public service. When 
I was serving as Governor of Virginia, I actually appointed Rob to not 
one but two different Boards and Commissions: one dealing with 
combating drugs in Virginia and the other as a consumer perspective on 
the Board of Contractors.
    He served on both of these Boards with great distinction and 
integrity. And he spent really the last three decades serving his 
commonwealth, his community in a variety of different civic and 
charitable ways. He is currently Chairman of the McLean Project for the 
Arts.
    He does have a stellar academic and professional background. He 
went to Duke University, an undergraduate school; went to law school at 
the College of William and Mary, where Mr. Jefferson, Thomas Jefferson, 
studied law. He seems to have similar philosophy as Mr. Jefferson.
    After law school he began practicing telecommunications law. He 
served as outside counsel to numerous technology and telecom companies 
and trade associations.
    He is admitted to the Virginia state bar. He's admitted to practice 
before the Supreme Court of the United States of America, the Supreme 
Court of Virginia, the U.S. Court of Appeals for the District of 
Columbia Circuit, the 1st Circuit, 4th Circuit and 5th Circuit and the 
U.S. District Court for the Eastern District of Virginia; a very 
competent lawyer.
    I can personally attest to his high, exemplary character. And I 
think he's going to execute his duties as Commissioner with great 
ethics, with objectivity and the utmost of professionalism.
    And I think he'll be striving--and you'll read his statement, 
you'll hear it--but I think he'll be striving to make sure that all 
people in this country have the opportunity to benefit from the digital 
revolution.
    I think he'll be devoted and a very pragmatic Commissioner in the 
finest and fairest caliber with his knowledge and his experience.
    I'm speaking for myself, but I know I'm also speaking on behalf of 
my colleagues from Virginia Senator John Warner, Congressman Tom Davis, 
Congressman Wolf and other members of the Virginia delegation in 
enthusiastically supporting the confirmation of President Bush's 
nomination of Rob McDowell on the Federal Communications Commission.
    I'd like to put this as part of the record. And if I could, may I 
ask the first question of the witness, Mr. Chairman, because I was 
supposed to have left 10 minutes ago, but if I could ask a question, 
the first question if it please the court to ask the first question of 
the witness?
    [Laughter].
    Stevens. If we say ``no'' will you stay?
    [Laughter].
    G. Allen. No, I'd have to go.
    Stevens. OK. Go ahead.
    G. Allen. Thank you.
    Rob, this is something I think that needs to be addressed. In my 
statement, all the experience you've had in the last 16 years, you have 
been an advocate for telecom entrepreneurs, for technology 
entrepreneurs and you have substantive experience in the private 
sector. And I think that's going to be extremely valuable to the FCC to 
have that perspective. And you may have more experience than any other 
of the Commissioners as well in these areas.
    But I do think it's fair to ask you how you think you'll be able to 
adjudicate matters objectively and fairly given your background. And I 
think it's very important that you address this point.
    McDowell. Thank you, Senator Allen.
    And thank you, Mr. Chairman.
    G. Allen. You're going to have to give your statement. This I know 
fouls everything up, but . . .
    McDowell. Should I answer the question first?
    Stevens. Yes.
    McDowell. OK. Excellent.
    It is a very sobering experience to have the President of the 
United States extend his hand and ask you to serve your country.
    The President is asking me to be a fair, judicious, impartial, 
thorough and thoughtful adjudicator, arbiter and policymaker. And if 
confirmed, that is what I would strive with every fiber to be.
    The role of an FCC Commissioner, of course, is very different from 
the role I've had throughout my career except for when I worked in the 
Virginia House of Delegates for your colleague Bob Andrews.
    I've been an advocate and I've been an advocate on behalf of 
clients and I'd like to think I've been an effective advocate. And 
perhaps some of my former opponents should be quizzed as to how 
effective I may have been at times.
    But many of the major issues I've worked on have been resolved. And 
more importantly, it would be my duty as a Commissioner to wipe the 
slate clean, to start from scratch and examine each issue de novo. I 
will prejudge nothing and I ask that my ability to be impartial not be 
prejudged.
    At the same time, on top of all that, the FCC has a system in place 
that governs conflicts and recusals. Throughout this nomination 
process, I've been in consultation with the White House Counsel's 
Office, the Office of Government Ethics and, of course, the FCC's 
General Counsel's Office.
    And there are standards in place. This is nothing new. This is not 
a case of first impression.
    In fact, we recently had a Commissioner serve on the Commission who 
came straight from a regulated company, a specific company, just 
representing an industry in general, who served with great distinction. 
And I believe that Commissioner, when all was said and done, was only 
recused from two different proceedings.
    So throughout my tenure at the FCC, if confirmed, I will rely on 
the advice and counsel and opinions of the FCC's Office of General 
Counsel and we will use the system and the process that's already in 
place.
    G. Allen. Thank you, Mr. Chairman.
    Stevens. Thank you, sir. Have a nice weekend.
    [Laughter].
    Mr. McDowell, we'd be pleased if you'd proceed with your statement. 
It will print in full in the record, but if you wish to summarize it 
you may.
    McDowell. Thank you, Mr. Chairman, and members of the Committee. It 
is a great privilege to be able to appear before you here today.
    I would, if I could indulge the Chairman, like to introduce some 
family members.
    Stevens. I thought the Senator did that. Please do, though.
    McDowell. Absolutely.
    First, the wind in my sails, my beautiful bride, Jennifer. And I 
could not get to this point without her love and support and I 
appreciate everything she's done.
    Next to her is my beautiful daughter who wants you to know that 
today she is 4 years and 5 months old today . . .
    [Laughter].
    . . . Mary Shea Virginia McDowell (ph).
    Next to her is Griffin Malcolm McDowell (ph), who is 6 years and 8 
months almost.
    Next to him is my beautiful sister, Tina, who does not want me to 
reveal her age because she's a brown belt in karate; my father, Bart 
McDowell, whose age I will also not reveal, who, by the way, was raised 
on a ranch on the Tex-Mex border, I'd like to note, without phone 
service and went on to be a naval officer in World War II, then onto a 
distinguished career as a Senior Editor of National Geographic 
Magazine.
    We are without my mom today, who just passed away last July and, of 
course, is unable to witness this day at least from an earthly 
perspective.
    I have two brothers. My oldest brother, Kelly McDowell, is the 
Mayor of El Segundo, California. And if you've ever flown into Los 
Angeles Airport, you've flown into my brother's town. And my other 
brother, Josh, who's on the staff of Texas A&M on the Corpus Christi 
campus.
    I'd also like to thank Commissioner Jonathan Adelstein for 
appearing today.
    And it's terrific to have you here.
    I got to know him a bit when he was with Senator Daschle. And I 
appreciate the bipartisan support and hopefully we can reciprocate.
    I'm deeply honored by President Bush's decision to nominate me to 
serve as a Commissioner of the Federal Communications Commission. Over 
the past few weeks, I've had the pleasure of meeting with many members 
of the Committee. And I thank all of you for taking the time out of 
your busy schedules to share your thoughts about communications policy 
and the FCC with me. And if confirmed, I look forward to continuing our 
dialogue.
    But this coming October 19, in Virginia, we will commemorate the 
225th anniversary of the American's victory over the British at 
Yorktown. And this battle effectively ended the war where a ragtag band 
of freedom fighters defeated the largest superpower in the world.
    On that crisp, autumn day, as the vanquished British troops 
withdrew from the battlefield, they marched to the tune of ``The World 
Turned Upside Down.'' And for the British, the old world had been 
turned upside down. But for freedom and democracy, the new world had 
been turned right side up.
    George Washington and his fellow patriots won largely because of 
their belief that the dissemination of self-evident truths could 
shatter the walls of tyranny. They laid the foundation of a new nation 
built upon the twin cornerstones of free markets and free ideas for 
all.
    At the heart of the ideals of the fledgling United States was a 
profound commitment to the freedom of speech, the freedom to 
communicate. No agency has more of an effect on the preservation and 
promotion of this freedom than the Federal Communications Commission.
    If confirmed, I solemnly pledge to be true to those founding 
principles, to work tirelessly to promote free markets and the free 
expression of ideas.
    With the advent of new technologies, the old world of 
communications has been turned upside down. But these advances have 
turned the new world right side up for freedom, democracy and 
capitalism.
    Long ago, Thomas Jefferson envisioned the benefits brought forth by 
the free flow of information when he wrote, quote, ``Enlighten the 
people, and tyranny and oppressions of body and mind will vanish like 
evil spirits at the dawn of day,'' end quote.
    Jefferson's words were nearly prophetic in predicting the digital 
revolution. Today, American consumers are more empowered with 
information than ever before, thanks to brave and brilliant 
entrepreneurs, increased competition and less government regulation. 
But there is more to do.
    If confirmed, I will commit myself to promoting competition and 
investments in all markets, clearing the cumbersome underbrush of 
unnecessary government regulation, encouraging private-sector solutions 
to many of the challenges facing the communications industry and 
removing barriers to entry.
    All Americans should be able to benefit from the digital revolution 
and the FCC should strive to help American consumers realize that goal.
    If confirmed, as Senator Allen pointed out, I will bring to the 
Commission nearly 16 years of private-sector experience in the 
communications industry and, with your approval, I will also bring with 
me a strong passion for bipartisan public service.
    In my career, in addition to counseling technology entrepreneurs, I 
have served as a Legislative Aide to a member of the Virginia General 
Assembly, actively worked on bipartisan statutory boards as appointed 
by two Virginia Governors, and led efforts to make my community a 
better place to live, work and raise a family.
    If confirmed, I will use this experience to help me approach each 
issue that comes before the Commission with energy, impartiality and 
thoughtfulness. I will endeavor to keep the spirit of Yorktown alive by 
working every day toward enhancing the lives and liberty of all 
Americans.
    So let me just take a quick second to state my opinion about the 
four current Commissioners of the FCC.
    Stevens. Mr. McDowell, I think that the Senator has to leave. If 
you don't mind, he wants to ask you a question.
    McDowell. Fire away, Senator.
    Dorgan. I'd be content for him to finish.
    I didn't want to have to leave at 4 o'clock without saying that I 
support Robert McDowell's nomination. I think the President has sent us 
a nomination that is a solid nomination of someone well qualified.
    But I wanted to say I had a chance to meet with Mr. McDowell.
    Mr. Chairman, I think this Commission now with a full complement of 
Commissioners will be making decisions that will have a profound impact 
on what the American people see, hear and read in the coming years, 
because they're going to be confronted with this issue of ownership 
limits. And there's not much important in my judgment in our government 
than getting this right.
    The Commission has sunk its teeth into it before, been thwarted by 
the courts and thwarted by the Congress. And many of us have a profound 
concern about what might or might not happen here.
    I'm not going to ask specific questions about it because we had a 
long talk in my office about that. But concentration in ownership of 
the media, including television, radio and the proposals for the cross-
ownerships of newspapers--it's a very serious issue, because it will 
have a significant impact on what people in this democracy can see, 
hear and read, what information they get. And the foundation for 
democratic self-government is basic information to the American people.
    So I did come because I wanted to say that I had a long 
conversation with Mr. McDowell. I think the President has made a good 
choice. And I'm really especially pleased: We're finally going to have 
an FCC with all five members seated, present and willing to debate and 
vote on issues. That's very important for this country.
    So, Mr. McDowell, thank you. I wish you well. I look forward to 
working with you.
    Mr. Chairman, thank you for the courtesy.
    Stevens. Thank you, Senator.
    McDowell. Thank you, Senator.
    Stevens. Finish your statement; we'll put it in the record so you 
complete it without any interruption.
    McDowell. Yes, sir. We're almost done.
    But I just wanted to say that the four current Commissioners, as 
led by Chairman Martin, are, in my opinion, among the most talented and 
thoughtful people to have ever served in the FCC. And if confirmed, I'd 
be honored and humbled to join them.
    And that concludes my brief statement. I'm looking forward to any 
questions you might have.
    Stevens. Well, thank you very much.
    I was going to note the presence of Commissioner Adelstein. He does 
attend these hearings. And we welcome his participation, silently, 
however.
    [Laughter].
    We held some hearings, Mr. McDowell, that were targeted about 
universal service and we've been working on general rural 
telecommunications issues. Do you have any statements you'd like to 
make about your vision concerning how the FCC can keep rural America 
connected to this digital revolution?
    McDowell. Senator Stevens, that will be a major priority for me.
    My father, as I mentioned before, was raised on a ranch on the Tex-
Mex border. And he used to tell stories and still does about how my 
grandfather would take the car battery out of the car every night, 
because not only did they not have phone service, they did not have 
electricity, which was not unusual in that time, and to stay connected 
to the rest of the world, they would hook the car battery up to the 
radio inside the house.
    Despite that, he went on to become a Senior Editor of National 
Geographic, but other folks didn't have the same opportunities perhaps 
that he had.
    So keeping rural America connected is very real, very front and 
center for the McDowells.
    What we have to, of course, focus on is the shrinking pool to the 
contribution mechanism and work on shoring that up and moving forward 
to strengthen that system, and making sure that folks who live on 
tribal lands or in rural America or in high-cost areas, poor inner 
cities, et cetera, have the same opportunity to access the information 
offered by others in more fortunate areas.
    So as the Commission examines universal service, I will be making 
that a priority.
    Stevens. Thank you very much.
    Senator Smith was not able to be here, but he sent a question and 
asked me to put it to you. His question is this: ``For those of us in 
Oregon have been trying to attract a baseball team for years, we're 
envious of the spans (ph) in cities that actually have a team.
    ``I am, however, becoming more concerned about a tactic that cable 
companies are using to limit viewership of local sports programming. 
First Cablevision stopped broadcasting of Yankee games until they got a 
deal they wanted and then Comcast did the same did with the 
Philadelphia Phillies and in Washington, D.C., with the Nationals.''
    This is Senator Smith's question, ``I understand the business 
negotiations can be tough, but blocking game broadcasts raise real 
concerns. How would you address situations like this from your position 
in the FCC?''
    McDowell. Well, Senator, that's an important issue and it's a 
personal one to us. We'd like to see some National games here locally. 
We're certainly supporters of our local team.
    Coming from the private sector, I will first look to private-sector 
solutions to resolve issues such as that and I would prefer to see 
voluntary agreements between the parties at hand.
    There may be ongoing proceedings or future proceedings at the 
Commission that could examine this. I'm not exactly sure of the 
Commission's authority in those areas under Title VI, Section 628, for 
instance. I'd have to take a closer look at that.
    But the first line of defense, I think, should be a private-sector 
solution. If the Commission can encourage a private-sector solution, I 
would look for such an avenue.
    Stevens. As I mentioned, we welcome Commissioner Adelstein to be 
with us today, but if you are already confirmed you both couldn't be 
here.
    Are you familiar with some of the rules that have been adopted in 
the past concerning the activities of the Commission? Are you familiar 
with that rule, particularly about how many Commissioners can be 
present at any one time at a public gathering?
    McDowell. I'm roughly familiar with that. I think the answer might 
be two of us, but I can double-check that.
    Stevens. Some of us are very disturbed about that too. I think we 
need some opinions on the Commission about what should be done to 
modernize your procedures so that you can function as a modern body.
    There was a time in the past when Senator Goldwater and I decided 
that there were too many Commissioners and we asked the Congress to 
delete two. Did you know that? That was the problem we had to get an 
agreement among the seven.
    You said you will be bipartisan. Can you tell us a little bit more 
about that, about your attitude about bipartisanship?
    McDowell. Well, Senator, throughout my career I've learned that 
these issues are not necessarily, for the most part, partisan issues.
    I have worked in a bipartisan manner as an advocate, and would 
continue to take that spirit to the Commission with me if confirmed.
    I've served on statutory boards appointed by two Governors of 
Virginia that were bipartisan and worked well with folks of the other 
party, again, on issues that are historically not necessarily been 
partisan issues, for the most part.
    So I am looking forward to that. There's not a partisan gigabyte. 
There's not a partisan megahertz. So I don't anticipate looking at 
those issues through a partisan lens.
    Stevens. You've had a substantial relationship with some of the 
communications interests and I note in your statement that you indicate 
that you do intend to very jealously apply the conflict of interest 
concepts and will disqualify yourself in any matter than you've had 
connection with before or any entity you've had before.
    Can you elaborate on that a little bit?
    McDowell. Well, I will certainly rely on the opinion of the Office 
of the General Counsel of the FCC and they do have a system in place 
and rules in place.
    Conflicts at the FCC are not necessarily anything new. We have a 
Commissioner recently who came from the private sector, from a 
regulated company, who ended up only being recused from two particular 
matters, as I recall.
    So I will consult with the Office of General Counsel on any matter 
where Comptel may have been a party or where Comptel's members may have 
been a party to make sure that there's not even the appearance of a 
conflict of interest.
    Stevens. Have you made an appearance before the FCC as an advocate?
    McDowell. Not in several years, Mr. Chairman.
    My primary bailiwick at Comptel for the past 6 or 7 years has been 
the legislative and executive branch. We have other folks at Comptel 
who worked the FCC for the most part. And my name has not appeared on a 
pleading in several years, nor have I been formulating or writing 
pleadings or been substantially involved in any pleadings before the 
Commission.
    Stevens. Well, I don't know whether other members have questions 
they wish to submit. If they do, I would urge you to respond to them as 
rapidly as possible because we will also try to get this nomination on 
the Executive Session agenda for March 16.
    Thank you very much and we thank your family for coming to join us.
    McDowell. Thank you, Mr. Chairman.
                                 ______
                                 
           Exhibit D--Martin Letter to Congressional Leaders
                          Federal Communications Commission
                                   Washington, DC, December 1, 2006

Hon. Ted Stevens,
Chairman,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. Daniel K. Inouye,
Co-Chairman,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. Joe Barton,
Chairman,
Committee on Energy and Commerce,
U.S. House of Representatives,
Washington, DC.
  
  
Hon. John D. Dingell,
Ranking Member,
Committee on Energy and Commerce,
U.S. House of Representatives,
Washington, DC.

Hon. Fred Upton,
Chairman,
Subcommittee on Telecommunications and the Internet,
Committee on Energy and Commerce,
U.S. House of Representatives,
Washington, DC.

Hon. Edward J. Markey,
Ranking Member,
Subcommittee on Telecommunications and the Internet,
Committee on Energy and Commerce,
U.S. House of Representatives,
Washington, DC.

Dear Sirs:

    As you know, in March of this year, AT&T and BellSouth filed 
applications for transfer of control with the Commission pursuant to 
sections 214 and 310(d) of the Communications Act of 1934, as amended, 
and section 2 of the Cable Landing License Act. Generally, the 
Commission attempts to rule on mergers within 180 days. This merger 
filing has now been pending before the Commission for over 8 months. 
Last year the Commission ruled on two large wireline mergers, the AT&T/
SBC and Verizon/MCI transaction, by day 199 of the Commission's 
calendar. In an attempt to rule on the AT&T/BellSouth transaction in a 
similar fashion, I circulated a draft order to my colleagues on 
September 21, 2006--several weeks in advance of the Commission's 180-
day mark.
    We were originally scheduled to vote on this merger item at the 
Commission's open agenda meeting scheduled for October 12. We then 
rescheduled this meeting for the next day, October 13th to give my 
colleagues additional time. On the morning of October 13, Commissioners 
Copps and Adelstein, in a written letter, requested additional time to 
consider the transaction. Specifically, they requested that there be 
another round of public comment. I agreed to this request and deleted 
the items from consideration from the October 12 meeting and opened up 
a new comment period. At the conclusion of this comment period, I once 
again scheduled a vote on the merger order at the Commission's November 
3 open agenda meeting. Unfortunately, it became clear on the eve of 
that meeting that there was still no consensus. I again deleted this 
item from the Commission's agenda. Since that time, the merger has 
remained on circulation for consideration by the Commission and I have 
continued to work with my colleagues in an effort to address the 
concerns they have expressed about the transaction.
    It now appears that, despite working for months to reach consensus 
with my colleagues, three attempts over the past 6 weeks to have this 
item considered at an open meeting, and countless hours of internal 
deliberations, the Commission has reached an impasse. Although 
Commissioner McDowell is currently not participating in this 
proceeding, the FCC's general counsel ``may authorize [him] to 
participate in the matter based on a determination, made in light of 
all relevant circumstances, that the interest of the Government in the 
employee's participation outweighs the concern that a reasonable person 
may question the integrity of the agency's programs and operations.'' 5 
C.F.R.  2635.502(d). The General Counsel has, in the past, used this 
authority to authorize Commissioners to participate in matters in which 
they would otherwise be recused. For example, in September 2000, the 
General Counsel authorized then-Chairman Kennard to break a two-two 
deadlock in a proceeding addressing the repeal or modification of the 
personal attack and political editorial rules, despite the fact that 
Chairman Kennard had previously represented NAB in that proceeding. 
Given the Commission's inability to reach consensus on this matter, I 
have asked the General Counsel to consider whether the Government's 
interest would be served by permitting Commissioner McDowell--who has 
not participated in this proceeding thus far--to participate.
    Please do not hesitate to contact me should you have any questions 
or concerns.
            Sincerely,
                                           Kevin J. Martin,
                                                          Chairman.
                                 ______
                                 
                     Exhibit E--Authorization Memo
United States Government--Memorandum
Office of the General Counsel
DATE: December 8, 2006
TO: Commissioner Robert McDowell
FROM: Samuel L. Feder
General Counsel
SUBJECT: Authorization To Participate in the AT&T/BellSouth Merger 
            Proceeding

    In accordance with the provisions of 5 C.F.R.  2635.502(d), you 
are hereby authorized to participate in the Commission's decision on 
the AT&T/BellSouth merger proceeding described below. To date, you have 
not participated in this proceeding because you were, until May 31, 
2006, employed by the Competitive Telecommunications Association 
(CompTel), which is one of a number of parties that have opposed the 
merger. You are now free to participate if you choose to do so.
    Section 2635.502(d) provides that where an employee's participation 
in a particular matter involving specific parties would raise a 
question in the mind of a reasonable person about his impartiality, the 
agency designee (in this case, the General Counsel of the FCC) \1\ may 
authorize the employee to participate in the matter based on a 
determination that ``the interest of the Government in the employee's 
participation outweighs the concern that a reasonable person may 
question the integrity of the agency's programs and operations.'' 5 
C.F.R.  2635.502(d).
---------------------------------------------------------------------------
    \1\ See 47 C.F.R.  0.251(a).
---------------------------------------------------------------------------
    Balancing these competing concerns here was difficult, and 
reasonable people looking at these facts could disagree about the 
appropriate result. However, on balance, as explained below, I find 
that you should not be barred from participating in this proceeding if 
you choose to do so. My decision is guided by FCC precedent, in which 
then-Chairman Kennard was authorized to take part in a proceeding 
addressing the repeal or modification of the personal attack and 
political editorial rules, despite the fact that he had previously 
represented a party in that same proceeding. I find any appearance 
concerns in that case to be greater than the potential appearance 
concerns here: Chairman Kennard previously participated as an advocate 
in the very same proceeding, while you never participated in any way in 
this proceeding on behalf of CompTel. And I find the Government's 
interest in your participation here to be at least as strong as the 
Government's interest in Chairman Kennard's case.
    Regardless of this precedent, however, you are free as an FCC 
Commissioner to abstain from participating in and voting on any 
proceeding. This authorization thus allows you to make your own 
decision. If you feel appearance concerns outweigh the Government's 
interest here or you have any other reason to abstain from 
participating, you are free to do so.
Background
    On March 31, 2006, AT&T and BellSouth, in order to effectuate the 
merger between the two companies, filed applications for transfer of 
control with the Commission pursuant to Sections 214 and 310(d) of the 
Communications Act of 1934, as amended, and Section 2 of the Cable 
Landing License Act. On April 19, 2006, the Commission issued a Public 
Notice seeking comment on these applications. The comment period closed 
on June 20, 2006. Numerous parties have participated in this 
proceeding, either supporting the applications, opposing them, or 
seeking conditions on their approval. CompTel has opposed the 
applications and/or sought conditions on their approval. Although you 
served as Senior Vice President and Assistant General Counsel of 
CompTel before you joined the Commission on June 1, 2006, during your 
tenure at CompTel, you did not have responsibility for this proceeding 
and did not participate in the matter.
    Generally, the Commission attempts to rule on mergers within 180 
days from the time the merger application is placed on public notice. 
However, this merger has now been pending before the Commission for 
nearly 8 months. The Department of Justice approved the transaction 
with no conditions on October 11, 2006, and all relevant state 
regulators have approved the transaction.
    Last year, the Commission ruled on two large wireline mergers, the 
AT&T/SBC and Verizon/MCI transactions, within 200 days. In an attempt 
to rule on the AT&T/BellSouth transaction in a similar fashion, a draft 
order was circulated on September 21, 2006, among the four 
Commissioners currently participating in this proceeding--several weeks 
in advance of the Commission's 180-day target. The Commission was 
originally scheduled to vote on the merger item at its open agenda 
meeting scheduled for October 12, 2006. The day before that meeting, 
the item was removed from the agenda to give Commissioners additional 
time to reach a consensus, and a new meeting to consider the merger was 
scheduled for October 13, 2006. On the morning of October 13, 2006, 
however, two Commissioners requested additional time to consider the 
transaction and asked that there be another round of public comment on 
proposals that had been made for achieving consensus. In response, the 
scheduled October 13 meeting was canceled, and a new comment period was 
opened.
    At the conclusion of this second public comment period, a vote on 
the merger item was scheduled for the Commission's November 3, 2006, 
open agenda meeting. However, when it became clear on the eve of that 
meeting that the Commissioners were still unable to reach consensus, 
this item was deleted from the Commission's agenda, thus delaying 
action on the merger for the third time. Since early November, the 
merger has remained on circulation for consideration by the Commission 
but no action has been taken. Based on the facts available to me, it is 
now apparent that the Commission has reached an impasse in its 
consideration of the merger. The four Commissioners currently 
participating in the proceeding have reached a deadlock, and there are 
not sufficient votes at this point to take any action whatsoever with 
respect to the merger.
Discussion
    Section 2635.502 provides that, absent authorization by the General 
Counsel, an employee generally should not participate in a particular 
matter involving specific parties if the employee worked for a party to 
the proceeding within the last year and the circumstances would raise a 
question in the mind of a reasonable person about the employee's 
impartiality. See 5 C.F.R.  2635.502(a). Where applicable, this 
provision ``does not constitute a `bar.' '' Office of Government Ethics 
Standards of Ethical Conduct for Employees of the Executive Branch, 57 
Fed. Reg. 35006, 35027 (Aug. 7, 1992). Rather, Section 2635.502(d) 
provides that I may authorize participation in the matter based on a 
determination that ``the interest of the Government in the employee's 
participation outweighs the concern that a reasonable person may 
question the integrity of the agency's programs and operations.'' This 
regulation ``was intended to provide agencies with a `flexible 
standard' and `broad discretion,' rather than an inflexible prohibition 
that might unreasonably interfere with agency operations.'' OGE 
Informal Advisory Letter 01 x 5, at 2 (citing 56 Fed, Reg. 33778, 33786 
(July 23, 1991)).
    As noted above, CompTel is one of a number of parties that have 
opposed the merger and/or sought conditions on its approval. For 
purposes of this authorization, I therefore assume, in light of your 
prior employment at CompTel, that your participation in this matter 
might raise some concerns about your impartiality.
    At the same time, however, the Government has a significant 
interest in reaching a decision on the license transfers at issue here. 
The FCC has the responsibility under Sections 214 and 310 of the 
Communications Act to review whether the transfers of licenses in 
connection with a merger are in the public interest. See 47 U.S.C.  
214, 310. Moreover, the Commission has the obligation to issue a 
written decision after completing its review, so that aggrieved parties 
may seek judicial review of the Commission's actions. See Getty v. 
Federal Sav. & Loan Ins. Corp., 805 F.2d 1050, 1055 (D.C. Cir. 1986).
    It is also the Commission's policy to complete its review process 
as expeditiously as possible consistent with the Commission's 
regulatory responsibilities. Since 2000, the Commission has generally 
attempted to rule on license transfers incident to mergers within 180 
days from the time the application is placed on public notice. Then-
Chairman Kennard explained in initiating this policy: ``The goal will 
be to complete even the most difficult transactions within 180 days 
after the parties have filed all the necessary information and public 
notice of the petitions has been issued.'' Statement of Chairman 
William E. Kennard Before the U.S. Senate Committee on Commerce, 
Science, and Transportation On Mergers in the Telecommunications 
Industry (Nov. 8, 1999); see also FCC News Release, FCC Implements 
Predictable, Transparent and Streamlined Merger Review Process (Jan. 
12, 2000). This policy is part of an effort to ``ensure that the 
process of reviewing applications and requests associated with all 
transactions, including mergers, is predictable, transparent, and 
swift'' Public Notice, Public Forum, Streamlining FCC Review of 
Applications Relating to Mergers (Feb. 18, 2000). Regardless whether a 
merger is ultimately approved or rejected, taking predictable, 
transparent, and swift action on mergers is important to minimize 
regulatory uncertainty, which limits investment and impedes deployment 
of infrastructure for broadband and other new services. For large 
transactions such as this one, a delay in making a decision can have a 
significant impact throughout the industry. See, e.g., Letter from 
Jeffrey A. Campbell, Director, Technology and Trade Policy, Cisco 
Systems, Inc. (Dec. 8, 2006) (``Although Cisco has not participated in 
this proceeding to date, we wish to draw the Commission's attention to 
the negative impact on network investment that the lengthy delay in the 
Commission's process has caused.''); ``AT&T, BellSouth merger wait 
vexes vendors,'' TELEPHONYonline (Nov. 27, 2006) (``[T]he wait is 
generating anxiety among equipment vendors that supply the two 
carriers. . . . [P]urchasing decisions could be delayed, and a general 
uncertainty over future network plans leaves vendors in the dark.''). 
To be clear, the relevant interest of the Government is not in reaching 
any particular result with respect to the merger, but in promptly 
reaching a decision either way. Here, all other relevant government 
agencies--the Department of Justice and the appropriate state 
regulators--have already done so.
    In balancing the Government's interest against the concern that a 
reasonable person may question the integrity of the agency's programs 
and operations, Section 2635.502(d) sets forth factors which ``may be 
taken into consideration.'' 5 C.F.R.  2635.502(d). These factors 
include, but are not limited to: (1) the nature of the relationship 
involved; (2) the effect that resolution of the matter would have upon 
the financial interests of the person involved in the relationship; (3) 
the nature and importance of the employee's role in the matter, 
including the extent to which the employee is called upon to exercise 
discretion in the matter; (4) the sensitivity of the matter; (5) the 
difficulty of reassigning the matter to another employee; and (6) 
adjustments that may be made in the employee's duties that would reduce 
or eliminate the likelihood that a reasonable person would question the 
employee's impartiality.
    After carefully examining these factors as well as other relevant 
factors, I have determined for the reasons set forth below that you 
should be allowed to participate in this merger proceeding.
    The most important factor here is the difficulty of reassigning 
this matter to another employee. In this case, because a Commissioner 
may not delegate his or her vote to anyone else, it would be impossible 
to reassign the matter to another employee. For the same reason, there 
are no ``adjustments that may be made'' to your duties that would alter 
the analysis here. Therefore, you are the only person available to 
break the impasse that has been reached in this proceeding.
    In addition, while, as stated above, CompTel's participation in 
this proceeding might raise some concerns about your impartiality, 
those concerns are mitigated here for several reasons. To begin with, 
looking at the nature of the relationship involved and at the effect 
that resolution of the matter would have upon the financial interests 
of the person involved in the relationship, you did not participate in 
this matter in any way while working at CompTel. You also have no 
continuing relationship with your former employer. Moreover, neither of 
the parties to this proposed merger, AT&T and BellSouth, is a member of 
CompTel, and CompTel does not itself have a direct financial stake in 
the Commission's decision. In addition, the Commission's decision will 
have no impact whatsoever on your financial interests as you have 
divested all financial interests in entities regulated by the 
Commission pursuant to Section 4(b)(2) of the Communications Act, 47 
U.S.C.  154(b)(2). Furthermore, no member of your immediate family has 
any financial interest in entities regulated by the Commission.
    Other relevant factors here are the nature and importance of your 
role in this matter, as well as the sensitivity of the matter. Applying 
those factors, your role as a decision-maker in this proceeding would 
be extremely important, you would be called upon to exercise discretion 
in that role, and it is safe to assume that this matter is sensitive. 
To be sure, each of these factors could reasonably be seen as 
heightening concerns about your participation in this proceeding. 
However, more significantly, these factors also amplify the 
Government's interest in your participation. As reviewed above, as a 
Commissioner, your decision-making role cannot be delegated to any 
other employee of the Commission. Moreover, given the impasse reached 
in this proceeding, the Government has a strong interest in having you 
participate.\2\
---------------------------------------------------------------------------
    \2\ It is worth emphasizing that the question addressed in this 
authorization could not be avoided simply by waiting to vote on the 
merger until 1 year elapses from your prior employment at CompTel. 
Given the circumstances of this particular merger, I do not believe 
that any appearance concerns here would change materially in 6 months. 
And Section 2635.502 requires an authorization for an employee to 
participate at any time where circumstances might ``raise a question 
regarding his impartiality.'' See 5 C.F.R.  2635.502(a)(2). Meanwhile, 
as discussed above, the Government has a significant interest in 
resolving this proceeding in a prompt manner.
---------------------------------------------------------------------------
    Importantly, authorizing your participation here is guided by 
precedent. In September 2000, the General Counsel of the Commission 
determined that it would be permissible for then-Chairman Kennard to 
participate in the proceeding on the repeal or modification of the 
personal attack and political editorial rules despite the fact that 
Chairman Kennard had previously represented--and co-signed two 
pleadings on behalf of the National Association of Broadcasters (NAB) 
in that proceeding. See also, e.g., Barker v. Secretary of State's 
Office of Missouri, 752 S.W. 2d 437 (Mo. App. W.D. 1988) (holding that 
the third member of the Missouri Labor and Industrial Relations 
Commission could vote and break a 1-1 deadlock on a worker's 
compensation claim even though she had previously served as counsel for 
the employer and the insurer in the same proceeding).
    I find any potential appearance concerns here to be less than those 
at issue in Chairman Kennard's case. Chairman Kennard had personally 
participated as an advocate in the relevant proceeding prior to coming 
to the Commission, whereas you never participated in this merger 
proceeding on behalf of CompTel. Although Chairman Kennard had left NAB 
some years before voting on the proceeding at the FCC, in the end he 
was voting on pleadings he had participated in and signed. ``Virtually 
all states and the Federal Government . . . require a judge's 
disqualification if he or she has acted as a lawyer in the same lawsuit 
or controversy.'' Mustafoski v. State, 867 P.2d 824, 832 (Alaska Ct. 
App. 1994) (emphasis in original). However, ``the prevalent American 
rule of disqualification is limited to instances in which the judge 
participated as a lawyer in an earlier stage of the same case.'' Id.
    In addition, another important factor that mitigated appearance 
concerns in Chairman Kennard's case is equally present here. 
Specifically, the parties opposed to the position of Chairman Kennard's 
former employer supported his involvement in the proceeding, and 
Chairman Kennard relied on that fact as a basis for his participation: 
``In addition, the parties opposing the broadcasters, who would be the 
parties most likely to question my impartiality since the issue arises 
because I previously worked for the NAB, have made clear that they 
believe I should participate.'' Statement of FCC Chairman William E. 
Kennard Concerning his Participation in the Personal Attack and 
Political Editorial Rule Proceeding (Sept. 18, 2000). The current 
proceeding is in exactly the same posture. AT&T and BellSouth have made 
clear that they believe you should participate in the proceeding 
despite your prior employment by CompTel, which has opposed their 
merger.
    At the same time, the Government's interest in your participation 
here is at least as strong as, if not stronger than, the Government's 
interest in Chairman Kennard's participation in the proceeding on the 
repeal of the personal attack and political editorial rules. In that 
case, at the time the General Counsel issued his authorization, 
Chairman Kennard's participation was not necessary for the proceeding 
to move forward. At that point, the case had been remanded to the 
Commission by the D.C. Circuit, see Radio-Television News Directors 
Association v. FCC, 184 F.3d 872, 885, 889 (D.C. Cir. 1999), and the 
Court had ``instructed'' the two members of the Commission opposing 
repeal of the rules ``to explain [their] support of the personal attack 
and political editorial rules in light of the Commission's conclusion 
in 1985 that the fairness doctrine was not in the public interest and 
its decision in 1987 not to enforce the fairness doctrine.'' Radio-
Television News Directors Association v. FCC, 229 F.3d 269, 270 (D.C. 
Cir. 2000). However, rather than provide the justification requested by 
the D.C. Circuit, the Commission on remand voted by a 3-2 margin, with 
Chairman Kennard's participation, to suspend the personal attack and 
political editorial rules for 60 days and to request parties to provide 
evidence to assist the Commission in reviewing the rules within 60 days 
of their reinstatement. Responding to the Commission's action, the D.C. 
Circuit held that it ``[c]learly . . . [was] not responsive to the 
court's remand'' because the Commission had still failed to provide an 
adequate justification for the rules. Id. at 271. As a result, the D.C. 
Circuit ordered the Commission ``immediately to repeal the personal 
attack and political editorial rules.'' Id. at 272.
    To be sure, this discussion is not intended to imply that the 
Government lacked a strong interest in Chairman Kennard's participation 
in the personal attack and political editorial proceeding. Clearly, his 
recusal significantly restricted the Commission's flexibility in moving 
forward in that proceeding. Nevertheless, the fact remains that the 
Commission could have responded to the court's remand in that 
proceeding by having the two Commissioners opposed to the repeal of the 
rules (Commissioners Ness and Tristani) provide the explanation of 
their position requested by the court.
    In this case, by contrast, there is currently no way to move 
forward here absent your participation because a three-member majority 
is necessary for the Commission to take any action whatsoever on the 
merger. The Commission must either vote to grant the application (47 
U.S.C.  309(a)), or it must vote to ``formally designate the 
application for hearing . . ., specifying with particularity the 
matters and things in issue'' (47 U.S.C.  309(e)). Thus, while the 
deadlock in Chairman Kennard's case persisted for a longer period of 
time than has the deadlock in this proceeding, the need for a 
Commissioner to break the deadlock is demonstrably greater here. And 
here the Government has a policy of completing its review process as 
expeditiously as possible consistent with its statutory 
responsibilities. Accordingly, I find that the Government interest here 
is at least as strong as that in Chairman Kennard's case, if not 
stronger.
    I acknowledge that the decision as to whether to grant this 
authorization is a difficult one, and reasonable people looking at 
these facts could disagree about the appropriate result. In making this 
decision, I therefore consulted with senior officials at the Office of 
Government Ethics (OGE), including Director Robert I. Cusick. After 
discussion of the issues, Director Cusick agreed that the ultimate 
decision on the granting of an authorization was totally within the 
FCC's discretion, that, in his view, the decision was a ``very, very 
close call'' on which reasonable persons could differ, and that he 
would not criticize anyone for coming down on the side of an 
authorization. While he indicated that, were the decision up to him, he 
would decide against authorization, he agreed that the FCC could 
reasonably come out the other way. As OGE has stated, ``the 
determinations contemplated by  2635.502(d) necessarily call for the 
agency designee's exercise of judgment and not the application of 
precise standards from which only one correct conclusion can be 
reached.'' Office of Government Ethics Standards of Ethical Conduct for 
Employees of the Executive Branch, 57 Fed. Reg. 35006, 35027 (Aug. 7, 
1992). As the agency designee, I have direct experience with the 
Government's interest here, the current status of the Commission's 
consideration of the merger, the appearance concerns in the context of 
this particular merger proceeding, and the agency's precedent in these 
matters. I also recognize that as an FCC Commissioner, you are often 
called upon to make decisions in rulemakings involving 
telecommunications issues that directly impact many of the same parties 
participating in this merger proceeding. For example, in June, you 
voted in the Universal Service Fund Contribution Methodology 
proceeding, in which CompTel, AT&T, and BellSouth each filed comments. 
And it is in light of this experience, for the reasons set forth above, 
that I have determined that you should not be prohibited from 
participating here.
    Finally, particularly given the difficult nature of this decision, 
I wish to make clear that my authorizing you to participate in the 
merger proceeding in no way compels you to do so. An FCC Commissioner 
nominated by the President and confirmed by the Senate is always free 
to abstain from participating in and voting on a proceeding, and there 
is no impediment to your exercising that prerogative here. This 
authorization thus allows you to make your own decision.
Conclusion
    In sum, the factors set forth in 5 C.F.R. 2635.502(d) as well as 
other relevant factors weigh in favor of allowing you to participate in 
the merger proceeding if you so choose. You are, therefore, authorized 
to participate under 5 C.F.R. 2635.502(d).

    Senator Pryor. Thank you, Commissioner McDowell.
    What I will do now is turn it over to Senator Hutchison who 
has an appointment that she needs to get to. So Senator 
Hutchison?
    Senator Hutchison. Well, yes, and I want to especially say 
good luck to Griffin. I am very impressed, and I am going to 
make this statement publicly. Tonight I am going to be watching 
the University of Texas Longhorns in the college world series, 
and I am asking you right now to consider going to the 
University of Texas and playing baseball because I know you 
have a future.
    [Laughter.]
    Senator Hutchison. So consider it a recruitment. Good luck 
tonight.
    Mr. McDowell, I want to ask you a couple questions. First 
of all, on the fairness doctrine, that is something that is 
very important to many people. Reinstating it is something that 
everyone I know thinks would be a bad idea. I wanted to ask you 
if you see any signs of the Commission moving in that direction 
through the localism effort, and what is your view about what 
is going on.
    Mr. McDowell. First of all, Senator, I have spoken out for 
quite a while about my concerns about any reimposition of the 
doctrine. Some call it the ``censorship doctrine.'' Others call 
it the ``forced speech doctrine.'' So I just simply call it 
``the doctrine,'' in order to be fair. But I believe it 
probably is unconstitutional.
    I do not have any concerns at the moment that the 
Commission will pursue it. I take Mr. Genachowski at his word 
that he will not pursue it. But there are some other concerns 
that I have regarding heaping more obligations on broadcasters, 
especially at this time, but in the future as well. The 
broadcast industry is really taking it on the chin right now 
due in part certainly to the recession. About a third of their 
advertising revenue comes from car dealerships alone, and of 
course, we all know the fate of car dealerships. There are more 
and more broadcast stations in distress these days, and then 
there is the whole aspect of all the new media competition I 
sort of outlined in my opening statement. The eyeballs, ears 
and ad dollars are going to new media, and I think we need to 
be mindful of that before we impose any new regulations.
    Senator Hutchison. Thank you.
    I would like to ask you the same question that I also posed 
to Mr. Genachowski regarding the media ownership rule, the 
newspaper, broadcast, television station, FCC parameters, and 
ask if you think that it is time to look at those restrictions 
in a new light. I said earlier that I have never liked having 
too much ownership in too few media outlets. I do not think it 
is healthy, but so much has changed in the last five years, as 
you stated in your opening statement, and I think perhaps now 
with newspapers in such dire straits, that lifting some of 
those restrictions and letting broadcast and newspaper owners 
have the capability to bring their revenue up so that they can 
both stay in business. And I would like to know how you feel 
about that.
    Mr. McDowell. Thank you, Senator. In December 2007, I voted 
for a relaxation of the newspaper-broadcast cross ownership 
ban, especially looking at the top 20 markets, but also looking 
at the below 20 markets, markets 21 and below, with different 
standards. Both standards would help preserve the diversity of 
voices, and I think that is really what our rules are all about 
to make sure there is competition among voices and a diversity 
of voices in a particular marketplace so that no one company or 
small group of companies could dominate the news and 
information or entertainment in a particular market.
    But I think that our communications marketplace is awash 
with a plethora of choices for consumers. In fact, we are awash 
in so much information, the texting acronym is TMI, or too much 
information, sometimes. So I think we need to take that into 
account.
    Of course, the order that we voted out in December 2007, is 
being litigated at the Third Circuit right now. It looks as 
though that court will freeze its review of that order until a 
new FCC is constituted, and until we move on with our next 
quadrennial review, which is scheduled to commence next year. 
So pragmatically speaking, I am not sure if anything will be 
done before the next review, but of course, the Chairman 
controls the agenda at the FCC, and that would be his 
prerogative to schedule that or not.
    Senator Hutchison. The last question would be the net 
neutrality. How are you going to approach net neutrality?
    Mr. McDowell. I think it is very healthy to have this 
debate, first of all. The concern is that there has primarily 
been a duopoly in the last mile for years in broadband, a cable 
company versus a telephone company. And the fear there has been 
maybe one of those companies could somehow control or both of 
them could control the content that flows over the ``pipes,'' 
as we call them in the vernacular.
    I think the best way to resolve that is to ensure there is 
more competition in the last mile. And since I have been at the 
FCC, I have worked to do just that, to help create 
opportunities for the construction of new delivery platforms, 
be that through our video franchising order in December 2006, 
to make it easier for new entrants to get local franchising 
authority and lay new fiber and create new last-mile facilities 
that way--and that is not just incumbent phone companies, but 
it is also over-builders and new entrepreneurs as well--or 
whether it is through our 700 megahertz order where, hopefully, 
we will have up to six new entrants per market or six players 
per market to help mix things up. And then top that off with 
what we did to help open up the television white spaces to 
unlicensed use and our further work that we have ahead of us 
there. These decisions, I think, really help provide 
competitive safeguards.
    So I think coming over the horizon--or the AWS-1 auction we 
had in 2006, and the list goes on--but coming over the horizon, 
I think we have a multitude of opportunities for competition in 
the last mile, and I think that will help be a check and a 
balance against anticompetitive conduct.
    And last, I would hope that we can change the dialogue from 
merely discrimination--the word ``discrimination'' certainly 
has many negative contexts or meanings--but talk about 
``anticompetitive'' conduct as well and the intent there.
    So as we go forward, I look forward to working with this 
Committee and my fellow Commissioners on that issue, but I 
think what is best for consumers is competition.
    Senator Hutchison. Well, thank you very much, and thank 
you, Mr. Chairman, for your deference. I appreciate it.
    Senator Pryor. You bet. Thank you.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. I wish I could have 
been here for Mr. Genachowski when he was here. We had an Armed 
Services Subcommittee hearing on which I am the Ranking Member, 
but I am glad to be able to welcome and congratulate Mr. 
McDowell on your reappointment.
    I look forward to continuing to work with you upon your 
confirmation on a lot of issues, obviously, many of which have 
been touched on. National broadband policy, applying indecency 
regulations--net neutrality has been mentioned--spectrum 
allocation are just a few of the issues that confront the 
Commission today. I think the range of issues that you deal 
with, the importance of those issues cannot be overstated. So 
it is a very important position, and I hope that we can 
continue to make some progress on some of these things.
    I would say and I understand that you have already had a 
lot of, I am sure, very lively discussion about the fairness 
doctrine, but I hope the Commission can put a stake through the 
heart of that thing once and for all. It will certainly reduce 
the number of amendments that we consider up here if we do not 
have to deal with the fairness doctrine amendments on 
appropriations bills.
    But I do want to ask you about some of the national 
broadband policies because as you know, the FCC is required by 
the stimulus bill to develop a national broadband plan. I know 
that there are grants and loan guarantees in the stimulus bill, 
but I am just curious as to what your thoughts are about 
deploying broadband to rural areas of the country.
    Mr. McDowell. Well, I would hope the focus would be on 
unserved areas certainly first. Now, the FCC has an informal 
advisory role with the Department of Commerce and the 
Department of Agriculture who actually have the spending 
authority for that $7 billion. The Commission will not be 
offering any advice in writing. It is very informal, primarily 
the Chairman and the career staff of the FCC working with the 
staff at Agriculture and Commerce on that. But I would hope our 
focus would first be on unserved America, and certainly in 
South Dakota I know there are a lot of areas that are still 
unserved.
    We also have what will be now nearly an $8 billion 
Universal Service Fund at the FCC, and that fund is growing 
despite a cap that we voted last year on the competitive 
eligible telecommunication carrier portion of that fund. That 
is a mouthful. CETC portion, as we call it. The contribution 
factor or the ``tax'' of sorts has grown to an all-time high of 
almost 13 percent. So that is something that we administer, and 
I think we need a full audit of that fund and how it is used as 
well as all FCC operations, by the way. But that would be part 
and parcel to any part of any broadband reform.
    Senator Thune. Well, and I know that the Universal Service 
Fund tends to generate a considerable amount of controversy. 
The only thing I guess I would ask of you is, as you take these 
issues on, that you take into consideration the impact on rural 
areas and making sure that rural areas and the frontier, so to 
speak, is not left behind. I think there are just some 
wonderful applications of technology that are leading to 
incredible increases in productivity and job creation and 
everything else in our economy, but it is, obviously, going to 
be very important in my view as we move forward, that we do it 
in a way that takes into consideration some of the unique and 
particular needs that rural areas of the country have as well.
    So I do not have any questions beyond that, Mr. Chairman. I 
want to congratulate Mr. McDowell, and as I said before, I look 
forward to working with you. As you know, I will be focusing in 
on some of those rural issues. So thank you and good luck.
    Mr. McDowell. Thank you, Senator Thune.
    Senator Pryor. Thank you, Senator Thune.
    Let me dive in, if I may, with just a few brief questions, 
first about E-Rate. This is a provision in the 1996 Act that 
Senator Rockefeller and Senator Snowe worked on. It is one of 
the things that the Chairman is very proud of because of its 
effectiveness in closing the digital divide. When the Telecom 
Act of 1996 was passed, only 14 percent of the classrooms in 
the country and 5 percent of the classrooms in low-income 
communities had access to the Internet. Thanks to the E-Rate 
program, today more than 90 percent of all classrooms have 
access to the Internet.
    The question would be, do you support the E-Rate program as 
it is currently laid out in the statute?
    Mr. McDowell. Yes, sir.
    Senator Pryor. And do you think that there should be any 
modifications, either changes or enhancements, to it, or do you 
think it ought to just stay as is?
    Mr. McDowell. Well, I have called for, early this year, a 
complete audit, like I said before, of all FCC operations, 
financial, operational, everything, and that would include E-
Rate and the whole USAC administration of funds, not for any 
particular reason, but I think it should be done periodically. 
In the private sector, when you have a merger or acquisition of 
a company, you start with a due diligence review, and obviously 
now we have a new party in charge of Washington. So I think 
there should be due diligence reviews of the entities that are 
getting new leadership, and that should be part of it.
    Senator Pryor. Speaking of mergers and acquisitions, I know 
that is one of the things that the FCC does that is very 
important. When you look at a merger or acquisition in a given 
industry, there could literally be billions of dollars at stake 
and there is a lot of capital investment, and you need to 
consider that aspect of it. You also need to, obviously, look 
at the consumer and whether the consumer will benefit, but you 
also, I think, at least should look at the economic impact it 
will have on given communities because oftentimes when there is 
a merger or acquisition, one community is a big loser in that 
prospect.
    So my question is just a general question, and that is, how 
do you balance all of those interests when you are looking at a 
merger or acquisition?
    Mr. McDowell. Under the statute, the FCC looks at mergers 
through what we call the public interest standard, and that is 
really our only hook. Again, that is a merger where there is a 
transfer of licenses. If there is no transfer of license, it 
does not come before us. So we have a different standard from 
what, let us say, the Department of Justice or the Federal 
Trade Commission might have. So the public interest standard is 
broad, but it is also within our core mission, obviously, that 
Congress set up in 1934.
    So going forward, I like to look at mergers and any 
conditions that are placed on them, and I ask the question 
whether or not those conditions are merger-specific. Is there 
something that is coming out of the merger regarding maybe a 
competitive harm that is merger-specific? And we place 
conditions on that that are sort of narrowly tailored to those 
interests. So that is historically how I have approached merger 
reviews.
    Sometimes a majority of the Commission might see it a 
different way, and they work out a different deal with the 
merging entities. Then the merging parties will come to me and 
say, please, just vote for this as is. So that is something to 
take into consideration as well.
    Senator Pryor. Let me just ask a practical scheduling 
question, and if you cannot answer this, it is OK. I am just 
curious.
    Here you have, in all likelihood, a new Commissioner coming 
in, a new Chairman coming in. At some point soon--I do not know 
exactly when that nomination will come through the Senate, but 
it is our hope that we would move your nomination and his 
fairly quickly. But in the meantime, you do have some mergers 
pending with the Commission. I do not know what all they are, 
but I know that some of these entities would like to have some 
finality before the end of the business quarter. Are you all 
going to try to wait until a new person comes on board? Are you 
going to try to sort of clear the decks now so that the new 
person does not have to deal with that? Or have you all made a 
decision on that?
    Mr. McDowell. I actually do not know the answer to that 
question. That is really a determination of the Acting Chairman 
at this point. There is one particular merger, and I do not 
want to comment on the specifics of any mergers before us right 
now, but one specific merger that is slightly past its 180-day 
deadline. So I would hope that it would come sooner rather than 
later. I have been a long proponent of shot clocks and I would 
hope we could stick to our 6-month shot clock going forward on 
all mergers. But the sooner the better would be my preference.
    Senator Pryor. With that, I really do not have any other 
questions. I understand you have a baseball game you have to 
get to.
    Mr. McDowell. I will stay as long as you need me to.
    Senator Pryor. We are going to try to wrap this up, but I 
know that Senator Warner wanted to be here, but because of some 
schedule changes today in the Senate, he could not. But Senator 
Warner is a big proponent of yours, big supporter of yours, and 
he wanted to be here to introduce you.
    Let me just remind all Senators and staff that we are going 
to try to have all written questions, follow-up questions in 
today by 6 o'clock. We would love you to try to turn those 
around.
    As I understand it, between the two leaders on the Senate 
floor, there is no agreement yet on your nomination and the 
other FCC nomination, but I am sure that Chairman Rockefeller, 
Senator Hutchison, and others will try to get these packaged up 
and moved through as quickly as possible.
    Let us see. I think that is it. Is there anything else we 
need?
    With that, I just want to thank you for your service on the 
Commission so far and what you have added to the Commission and 
to the process. If you get any questions, we would appreciate a 
very rapid turnaround. And good luck on the game tonight. Thank 
you.
    Mr. McDowell. Thank you so much, Senator.
    Senator Pryor. Adjourned.
    [Whereupon, at 4:36 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. Chuck Grassley, U.S. Senator from Iowa
    Mr. Chairman, I appreciate the opportunity to address the Committee 
on a very important issue to my state of Iowa, access to advanced 
telecommunication services in rural America.
    As the Committee is aware, many rural states, like my state of 
Iowa, rely on the Universal Service Fund. The USF assists 
telecommunication providers in bringing advanced services to rural 
areas where it is expensive to provide service. Under the current 
system, all rural carriers seem to be treated the same when it comes to 
eligibility to receive distributions from the USF. However, it can be 
argued that not all rural carriers are the same. There are examples 
where some carriers, which have purchased historically under-invested 
networks from the Nation's largest carriers, find that they cannot 
virtually qualify under the current program, even after implementing 
upgrades and with plans for further investment and improvement. If the 
USF is going to serve its purpose and help serve rural America, FCC 
policies should adapt to recognize the unique circumstances of these 
carriers in order for them to provide affordable advanced 
telecommunications services to their customers, especially to those in 
rural areas.
    It is my hope that if approved, the nominees will use their time at 
the FCC to commit that its policies ensure affordable access to 
advanced telecommunication services throughout rural America equal to 
what is available in urban and suburban areas.
    I also look forward to hearing back from the nominees with answers 
to a few questions attached to my statement. I appreciate the courtesy 
of the Chairman to submit this statement and questions for the record.
    Thank you, Mr. Chairman.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                       to Hon. Robert M. McDowell
    Question 1. As part of the Telecommunications Act of 1996, Senator 
Snowe and I established the E-Rate program to provide schools and 
libraries with affordable access to telecommunications services and the 
Internet. No other program has been as singularly effective at closing 
our educational digital divide. Thanks to the E-Rate program, today 
more than 90 percent of all classrooms have access to the Internet. 
Children in the most rural communities are able to enjoy the 
educational benefits and opportunities that broadband provides. 
Recognizing the importance of the program, will you commit to me that 
you will support and protect the E-rate program as laid out in statute?
    Answer. I will follow Congress' mandate as codified in the statute 
to implement and administer the E-rate program.

    Question 2. In order for a government agency to function 
effectively, it must have the trust of the public. I worry that this 
confidence is undermined when Commissioners seek support from those the 
FCC regulates in order to promote their renominations. Such activity 
creates a potential conflict of interest and a perception that the 
Commissioner may be indebted to those entities.
    Have you reached out to any companies regulated by the FCC to 
assist your renomination? Are you aware of any companies who have 
actively advocated for your renomination? If so, have you expressed 
your appreciation for their support? If confirmed, how will you 
guarantee that there is no appearance of a conflict of interest when 
considering a matter impacting a company that actively supported your 
renomination?
    Answer. As I have learned from press accounts and oral 
communications from numerous individuals including, but not limited to: 
reporters, representatives from public interest groups, Members of 
Congress and their staffs, other government officials, industry 
attorneys and advocates, and many others, interest in who may 
eventually serve on the FCC has been especially high this year. It is 
safe to assume that an indefinite number of people freely exercised 
their First Amendment rights to petition their government in support of 
and in opposition to my renomination to the Commission. It is 
impossible for me or anyone else to know who all of these individuals 
are and who employs them--nor should I try to find out. In the same 
vein, I have not initiated any organized effort by third parties. Given 
this, I have expressed only general appreciation for any words of 
support that I have received directly.
    It goes without saying that, if confirmed, I will continue to avoid 
even the appearance of a conflict of interest when considering any 
matter brought before the Commission, just as I did in the well-
publicized AT&T-BellSouth merger proceeding in December 2006. I will 
commit myself to continuing to conduct the affairs of my office in a 
bi-partisan and ethical manner, and I will continue to make decisions 
as an independent commissioner at an independent administrative agency 
as I pursue policies that further the public interest.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                        Hon. Robert M. McDowell
    Question 1. In order to effectively extend mobile broadband to 
rural areas, companies must have access to backhaul facilities (also 
known as special access) at reasonable rates. Do you believe a review 
of special access rates could facilitate deployment of mobile 
broadband? If so, would you advise the Committee within 3 months of 
taking office of when you would undertake such a review?
    Answer. With the rollout of more and more new communications 
technologies coming over the horizon, especially wireless technologies, 
the special access market will become even more important than it is 
today as the primary means for data backhaul. Debates over policy, and 
the important subsequent decisions that often emerge, should be firmly 
grounded not only in law but in solid facts as well. Rendering rules on 
an unsure factual foundation is akin to building a house on quicksand. 
As the General Accounting Office (GAO) and others have observed, the 
Commission needs a more complete record of where special access and 
other comparable facilities are located before we can determine the 
appropriate level of regulation--or deregulation--for special access 
services.
    I proposed over a year ago to collect data on the state of the 
special access market from all providers to allow us to move forward in 
this important area. I am pleased that under Acting Chairman Copps it 
appears that we are now ready to begin the process of gathering the 
data we need to make informed decisions. If confirmed, I will continue 
to pursue this course.
    Also, if confirmed, I hope my colleagues in the next Commission 
will move forward expeditiously on what I believe to be a win-win 
addition to the special access market: A notice of proposed rulemaking 
to examine possible limited uses of television ``white spaces'' for 
point-to-point backhaul in rural areas as a substitute for special 
access. This is an idea that was raised in our original notice, is 
thoroughly discussed on the record, and is already ripe for rulemaking.
    Here is the challenge: all wireless services have to be backhauled 
to the Public Switched Telephone Network (PSTN) and the Internet via a 
network of some kind. Over the years, some people in the tech industry, 
as well as some of my colleagues, have complained about a lack of 
competition in the special access market which, they allege, 
artificially drives up backhaul costs. Competitive Local Exchange 
Carriers (CLECs) and competitive wireless carriers presented us with a 
possible solution to this challenge for rural areas, which enjoy more 
unused spectrum than urban areas and suffer from the least amount of 
special access competition. Some form of limited white spaces point-to-
point licensing may allow entrepreneurs to find more efficient paths 
for their backhaul needs while leaving the lion's share of white spaces 
spectrum on the table for unlicensed users.
    Hopefully, a Commission inquiry can plant the seeds of progress to 
find a workable solution that inures to the benefit of all parties, but 
mainly, American consumers. If confirmed, I hope to prevail upon my new 
colleagues the importance of moving forward to further explore this 
idea.

    Question 2. The Federal Communications Commission (FCC) formed NECA 
in 1983 to perform telephone industry tariff filings and revenue 
distribution. What do you believe is an appropriate level of oversight 
by the FCC over the activities and decisions made by the NECA?
    Answer. The Commission must ensure that the National Exchange 
Carrier Association (NECA) conducts itself in accordance with 
applicable Commission rules and guidance. For example, with respect to 
NECA's administration of interstate access charge tariffs and revenue 
pools on behalf of its member exchange carriers, and the preparation 
and filing of average schedule formulas, the Commission must ensure 
that such activities are conducted in accordance with Part 69 of the 
Commission's rules. The Commission likewise must ensure that NECA, in 
its role as the administrator of the Interstate Telecommunications 
Relay Service (TRS) Fund, conducts itself in accordance with the 
Commission's rules, its contract, and the guidance issued pursuant to 
that contract.
    In a letter I sent to Acting Chairman Copps in January of this 
year, I recommended that the Commission commence a thorough 
operational, financial and ethics audit of the Commission and its 
related entities. If confirmed, I will work to ensure that NECA is a 
part of that process.

    Question 3. The Federal Government, through the FCC, has spent 
decades trying to expand minority ownership and operation of radio 
broadcasting companies. Even with those efforts, only 7 percent of 
full-power radio stations across the country are minority-owned. 
Because of the massive credit crisis, many of these stations are having 
difficulties in continuing to access the capital markets and meet their 
growing debt burdens. What measures will you take in order to preserve 
and enhance diversity in the radio broadcasting business?
    Answer. Since becoming a Commissioner, I have made clear my concern 
about the state of female and minority ownership of broadcast 
properties. For that reason, I voted in favor of the Commission's 
Diversity Order in December 2007. That order focused on the possible 
and the legally sustainable--complying with the strict scrutiny 
standard established by the Supreme Court in Adarand v. Pena.
    The Diversity Order included several measures designed to help 
``eligible entities'' enter and succeed in broadcasting. The definition 
of eligible entities is based on Small Business Association (SBA) 
standards for small businesses. Those measures include easing rules to 
encourage greater investment in eligible entities and affording such 
entities additional time to meet broadcast construction deadlines.
    The Diversity Order also barred discrimination on the basis of race 
or gender in broadcast transactions and banned the practice of ``no 
urban/no Spanish'' dictates in broadcast advertising. I have actively 
worked to encourage compliance with the ``no urban/no Spanish'' ban by 
meeting with advertising agencies on Madison Avenue to discuss the rule 
and monitoring the industry's ongoing efforts to resolve problems when 
they arise.
    Last November, the Commission adopted new rules pertaining to the 
unlicensed use of the ``white spaces'' spectrum located between the TV 
channels. While new broadband technologies are the most likely uses of 
these channels, to me, the most exciting part about our action is that 
we are creating the opportunity for an explosion of entrepreneurial 
brilliance. Our deregulatory order will allow the market place to 
produce new devices and new applications that we can't even imagine 
today. Not only will the lives of millions of Americans be enriched by 
these new technologies, but I am confident that imaginative use of the 
TV white spaces could actually improve our safety as well. I am hopeful 
that robust unlicensed use of white spaces will give nimble 
entrepreneurs--including small, minority and woman-owned businesses--
the freedom to disrupt the market in positive and constructive ways 
that will force incumbents to keep pace with this new revolution.
    More recently, the Commission rechartered its Diversity Committee, 
which has been charged by Acting Chairman Copps to study alternatives 
to the eligible entities definition. I met with the Diversity Committee 
at its first meeting and stressed the importance of allowing the 
expression and representation of a large array of opinions and 
viewpoints within its membership and recommendations. If confirmed, I 
look forward to reviewing the results of the Diversity Committee's 
work, which may include recommendations to launch new studies designed 
to address the demands of Adarand.
    I also continue to be interested in the potential viability of a 
new tax certificate program to promote broadcast ownership by 
economically disadvantaged businesses. Legislators through the years 
have expressed interest in reviving some form of the old FCC tax 
certificate policy, which Congress abolished in 1995. If confirmed, I 
would like to explore the options for using a tax certificate to expand 
minority and female ownership of broadcast stations--and perhaps could 
apply broadly to all telecommunications businesses--in ways that pass 
muster under Adarand.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                        Hon. Robert M. McDowell
    Question 1. As you know, at a 2007 FCC hearing in Newark on the 
license renewal of WWOR, New Jerseyans testified about the station's 
failure to cover New Jersey news and events. Almost 2 years later, this 
station is still operating under its expired license and has not 
improved its service to New Jersey. How can we get WWOR to live up to 
its obligations to New Jersey?
    Answer. I am aware that WWOR's license renewal application remains 
pending in the Commission's Media Bureau and I have appreciated 
learning more about that situation from you and your staff. Should the 
FCC determine that the licensee of the station has failed to comply 
with specific commitments to serve New Jersey or its general public 
interest obligations to viewers within its community of license and 
larger service area, the agency has a variety of sanctions that it 
could impose. These include fines, reporting conditions, and a short-
term renewal, in addition to the possibility of non-renewal. If 
confirmed, I will scrutinize any staff recommendation on the matter 
that may come before the full Commission.

    Question 2. New Jersey is a net contributor of more than $180 
million a year to the Universal Service Fund. As the USF keeps growing, 
the burden on New Jersey and other donor states keeps getting bigger 
and bigger. When can residents of New Jersey and other donor states 
expect to see real reform and fairness in the USF?
    Answer. I have consistently stated that, while the Universal 
Service system has been instrumental in keeping Americans connected and 
improving their quality of life, this system is broken and is in dire 
need of comprehensive reform. For example, the Commission has for too 
long avoided answering the fundamental questions raised on remand by 
the United States Court of Appeals for the Tenth Circuit (Tenth 
Circuit) regarding the high-cost universal service support mechanism 
for non-rural carriers. I therefore was pleased when the Commission 
committed to release a notice of inquiry no later than April 8, 2009; 
issue a rulemaking no later than December 15, 2009; and release a final 
order that responds to the remand no later than April 16, 2010.
    If confirmed, I look forward to working with my colleagues to 
satisfactorily resolve the questions posed to us by the Tenth Circuit 
and to continuing our work toward fundamental reform of the Universal 
Service and intercarrier compensation systems in an expedited fashion.
    Additionally, I have long advocated that more comprehensive USF 
reform should follow five basic principles. We must: (1) slow the 
growth of the Fund; (2) permanently broaden the base of contributors; 
(3) reduce the contribution burden for all, if possible; (4) ensure 
competitive neutrality; and (5) eliminate waste, fraud and abuse. I 
also support eliminating the identical support rule and moving over 
time toward support based on a company's own costs. If confirmed, I 
will remain mindful of these principles as we continue our work toward 
fundamental reform of the Universal Service and intercarrier 
compensation systems.

    Question 3. As part of the Economic Recovery Act, the FCC will 
develop a national broadband plan by February 2010. In New Jersey, 
broadband has been deployed throughout the state, but many low-income 
residents--often in urban areas--cannot afford it, or it does not reach 
into their buildings. How will the FCC bring broadband to these 
underserved low-income residents, and not only more rural areas of the 
country?
    Answer. I assure you that, if confirmed, I will proceed mindful of 
the importance of competitive and technological neutrality. Given the 
incredibly diverse nature of our country--both in terms of geography 
and demographics--our plan must not favor one particular technology or 
type of provider over another, even inadvertently. Broadband deployment 
throughout America simply is not a one-size-fits-all proposition. 
Wireline, wireless and satellite technologies are meaningful 
alternatives, each worthy of our attention. Low income residents in New 
Jersey will benefit from the lower prices resulting from competition 
among an array of service providers. If confirmed, I look forward to 
working with Congress and my Commission colleagues to develop a 
thoughtful, reasonable, practical and pragmatic National Broadband 
Plan.

    Question 4. Almost 9 years after 9/11, we still do not have a 
national, interoperable public safety communications network. One of 
the major benefits of the DTV Transition that took place last week was 
supposed to be the creation of this network, but the portion of the 
airwaves set aside for public safety--known as the ``D block''--is 
still vacant. What accounts for this delay? When do you expect to have 
a plan for the D block?
    Answer. By way of background, Congress originally set aside 24 
megahertz of the 700 MHz band for public safety use in 1997, but a 
mechanism for funding the build-out of a nationwide interoperable 
network was not put in place then and hasn't been since. In the absence 
of congressionally appropriated funding for this network, the 
Commission felt that a public/private partnership was the best way to 
jump-start funding and construction of a nationwide broadband 
interoperable public safety network.
    Interested parties tell us that potential bidders were scared away 
by onerous build-out and service requirements that would have required 
the eventual licensee to incur massive costs in an atmosphere of 
extreme uncertainty regarding how many, if any, public safety entities 
might actually sign up as paying customers. Even at this late date--
nearly 2 years after we finalized our original rules--there remains a 
lack of consensus among public safety entities as to the direction in 
which we should proceed.
    If confirmed, I will continue to work with Congress to formulate 
new ideas. I will stay engaged with the public safety community. And, I 
will look forward to working with my new colleagues with renewed vigor 
to devise a new plan for this valuable spectrum.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                        Hon. Robert M. McDowell
    Question 1. I think that we need to provide parents with tools to 
guide their children's television viewing. I also think the FCC should 
take a broad look at children's programming issue and whether there are 
new policies or incentives to encourage quality programming on our 
airwaves. Could you please comment?
    Answer. First, as a father of three young children, I appreciate 
your leadership on this important issue. If confirmed, I will be 
pleased to work with my colleagues to consider children's programming 
issues, including the possibilities for creative new policies or 
incentives to encourage quality programming. The Commission already is 
undertaking efforts to implement the Child Safe Viewing Act, which 
Congress enacted in December 2008. You have directed us to review and 
report on the existence and efficacy of various ``advanced blocking 
technologies'' that allow parents to shield their children from 
inappropriate video and audio content when such content is distributed 
across a wide range of electronic communications systems. I hope that, 
by advising Congress on the proliferation of technologies now available 
or in development for broadcasting, cable, satellite, wireless devices 
and the Internet, we will help parents better understand their options 
as well. The agency's efforts also may assist industry in spotting gaps 
or weaknesses in existing parental-control mechanisms, and thereby spur 
additional innovation.

    Question 2. I am concerned about what children are exposed to on 
TV, including sexual content. The current review of blocking 
technologies by the FCC is very important. However, I would also note 
that we need to find ways to encourage quality children's programming 
on television. How do we incent broadcast and cable channels to provide 
such programming? Could the FCC do a notice of inquiry on this issue?
    Answer. Again, as the parent of three young children, I share your 
concern regarding the coarsening of content on television. The 
Commission has authority to open inquiries on matters within its 
jurisdiction, such as children's television programming. An inquiry 
proceeding might provide the Commission with useful opportunities to 
hear from various interested parties, including the television 
industry, educators and parents, about new possibilities for 
encouraging the development of quality children's programming on both 
broadcast and cable channels. Should I be confirmed, I would support a 
well-written and properly balanced inquiry.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Warner to 
                        Hon. Robert M. McDowell
    Question. As you know, Congress directed the FCC to allocate 24 MHz 
in the 700 MHz band for public safety use. The FCC then put the D Block 
up for auction under service rules that would have created a public-
private partnership with the public safety licensee to build and manage 
a shared network. However, the D Block failed to attract a winning 
bid--as you know--and no plans for the re-auctioning of that block have 
been made. Could you share your thoughts on the D Block and the public 
safety allocation--what do you think the next steps should be?
    Answer. By way of background, Congress originally set aside 24 
megahertz of the 700 MHz band for public safety use in 1997, but a 
mechanism for funding the build out of a nationwide interoperable 
network was not put in place and hasn't been since. In the absence of 
congressionally appropriated funding for this network, the Commission 
felt that a public/private partnership was the best way to jump-start 
funding and construction of a nationwide broadband interoperable public 
safety network.
    Interested parties tell us that potential bidders were scared away 
by onerous build-out and service requirements that would have required 
the eventual licensee to incur massive costs in an atmosphere of 
extreme uncertainty regarding how many, if any, public safety entities 
might actually sign up as paying customers. Even at this late date--
nearly 2 years after we finalized our original rules--there remains a 
lack of consensus among public safety entities as to the direction in 
which we should proceed.
    If confirmed, I will continue to work with Congress to formulate 
new ideas. I will stay engaged with the public safety community. And, I 
will look forward to working with my new colleagues with renewed vigor 
to devise a new plan for this valuable spectrum.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                        Hon. Robert M. McDowell
    Question 1. You brought up the need for reform to the Universal 
Services Fund. Will you continue to recognize the high cost of 
providing services in Alaska?
    Answer. Since becoming a Commissioner in 2006, I have visited 
Alaska three times--with my last trip being to Barrow this past winter. 
I have enjoyed learning more about Alaska's unique characteristics. As 
a result, I am committed to ensuring that Alaska remains connected to 
the world at large and is not left behind technologically. For example, 
I felt it critical when the Commission adopted the cap on competitive 
eligible telecommunications carrier (CETC) support in May 2008, to 
include an exception for all of the providers serving Alaska Native 
lands and tribal lands across the country--some of the most under-
served parts of America. This limited exception was designed to ensure 
that companies operating in these remote areas will continue to receive 
high-cost support to provide their services while we move toward a 
permanent reform of the Universal Service system.
    I look forward to continuing to work with the people of Alaska and 
you on these critical issues.

    Question 2. Of the many proposed forms of reform, which do you 
think have the greatest chance of maintaining stability and viability 
of the fund?
    Answer. I maintain that we must follow five principles when 
considering reforms to the Universal Service Fund. We must: (1) slow 
the growth of the Fund; (2) permanently broaden the base of 
contributors; (3) reduce the contribution burden for all, if possible; 
(4) ensure competitive neutrality; and (5) eliminate waste, fraud and 
abuse. I also support eliminating the identical support rule and moving 
over time toward support based on a company's own costs. If confirmed, 
I will remain mindful of these principles as we continue our work 
toward fundamental reform of the Universal Service and intercarrier 
compensation systems.

    Question 3. Satellite providers to Alaska are concerned that they 
will be exempted from the national broadband plan. It is important as 
we go forward the FCC recognize the importance of satellite to help 
fill the backhaul which is next to impossible to provide without major 
investment in satellite technology.
    Answer. I assure you that, as we develop our record in this 
proceeding, I will proceed mindful of the importance of competitive and 
technological neutrality. Given the incredibly diverse nature of our 
country--both in terms of geography and demographics--our plan must not 
favor one particular technology or type of provider over another, even 
inadvertently. Broadband deployment throughout America simply is not a 
one-size-fits-all proposition.
    Satellite technologies are a meaningful alternative to wireline and 
wireless, and each is worthy of attention. To deny the people of Alaska 
the benefits of broadband connectivity via wireless and satellite, for 
instance, would be tantamount to isolating the tens of thousands of 
Americans who live on Native lands and in subsistence villages.

    Question 4. Do you support the need for the Commission, NTIA, and 
RUS to be able to support deployment of broadband in any form needed?
    Answer. As discussed immediately above, I fully recognize and 
appreciate the importance of competitive and technological neutrality.
    The first priority for any government involvement in broadband 
deployment should be to focus on unserved areas. I will support 
intelligently crafted and flexible ideas that are geared toward 
rectifying market failure in the context of broadband deployment.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                        Hon. Robert M. McDowell
    Question 1. While there are more than 1.6 billion Internet users 
worldwide that number is eclipsed by 4 billion cell phone subscribers. 
Mobile phones are the single most widespread information and 
communication technology today and for good reason. The increased 
mobility, access, and productivity are all tangible results of wireless 
technology. A once nascent service has emerged as an indispensable tool 
that millions of consumers and countless businesses use on a daily 
basis.
    But with all this growth, we are seeing constraints--spectrum is 
already a scarce resource in many areas--there is no new spectrum to 
allocate, only redistribute. That is why we must be proactive in 
advancing supportive spectrum policy and spectrum availability. Even 
President Obama and senior officials of the Administration have called 
for better use of the Nation's wireless spectrum.
    To assist in this effort, Senator Kerry and I have introduced 
legislation that calls for a comprehensive and accurate inventory of 
how the spectrum managed by both NTIA and the FCC is currently being 
used and by whom. This is the first step in tackling comprehensive 
spectrum policy reform.
    Do you support such a spectrum inventory effort, given that there 
is at the very least a perceived scarcity of spectrum for advanced 
communications and broadband services? A GAO report in 2006 stated that 
there is ``evidence that some of the spectrum is currently 
underutilized'' so it seems such effort would be beneficial toward 
making sure it is utilized efficiently, right?
    Answer. Given the need for the United States to preserve and expand 
our international competitiveness, all policymakers have an ongoing 
obligation to identify potential new spectrum resources. Conceptually, 
a spectrum inventory would be a beneficial exercise. If undertaken in a 
thoughtful, pragmatic and deliberate manner, an inventory would be a 
significant step toward making additional spectrum available for new 
advanced wireless services. If confirmed, I look forward to partnering 
with the NTIA, as well as closely coordinating with Congress and my 
Commission colleagues to develop and refine this idea.

    Question 2. What additional resources, if any, and how much time 
would FCC require to complete an accurate inventory?
    Answer. I would respectfully defer to the FCC Chair, as CEO of the 
Commission, on this question.

    Question 3. The biggest issue last year with respect to network 
neutrality was with Comcast and its network management practices of 
peer-to-peer traffic. In August of last year, the FCC concluded Comcast 
violated the Commission's Internet open-access guidelines by blocking 
BitTorrent peer-to-peer traffic and found that Comcast's broadband-
network-management practices were arbitrary and capricious. The 
Commission gave the carrier 30 days to ``disclose the details'' of 
those ``unreasonable'' network practices, as well as its plan for 
replacing them by year's end with network-management practices 
acceptable to the FCC. Comcast subsequently filed suit against the 
Commission challenging the FCC's authority to enforce those principles.
    Given that the FCC is charged with regulating interstate and 
international communications, if the Court rules in favor of Comcast 
and that the FCC didn't have the authority to enforce its Internet 
Principles, what steps will you take to ensure that the Commission has 
the power to protect consumers' ability to access content, applications 
and services of their choice and that anti-competitive practices are 
being employed by carriers, which is what the principles were adopted 
for in the first place?
    Answer. By way of background, I opposed last summer's Comcast/
BitTorrent order primarily because the order was legally deficient. As 
a procedural matter, what we had before us was an order regarding a 
pleading that was filed as a ``formal complaint.'' Yet, our rules 
mandate that formal complaints apply only to common carriers. Although 
I agree that we have general jurisdiction over these areas, the 
Commission did not then--and does not now--have rules governing 
Internet network management to enforce. When issued in 2005, the 
Commission did not intend the Internet Policy Statement to serve as 
enforceable rules but, rather, as a statement of general policy 
guidelines. Furthermore, the policy guidelines were not issued after a 
public notice and comment period as required by the Administrative 
Procedure Act. Additionally, the guidelines are not codified as rules 
in the Code of Federal Regulations. Even if the complaint was not 
procedurally deficient and we had rules to enforce, the Commission did 
not conduct a proper factual investigation. As a result, the evidence 
in the record was weak and conflicting. All we had upon which to rely 
were the apparently unsigned declarations of three individuals 
representing the complainant's view, some press reports, and the 
conflicting declaration of a Comcast employee. The rest of the record 
consisted of differing opinions and conjecture.
    That said, as always, we owe it to both industry and consumers to 
engage in a principled and transparent decisionmaking process on any 
next steps in this area. At the end of the day, I will, if confirmed, 
work constructively with my colleagues to ensure that we proceed in a 
prudent and thoughtful manner to create the best possible regulatory 
and market conditions for American consumers.

    Question 4. The Joint board recommended an interim, emergency cap 
on high-cost universal service support for competitive eligible 
telecommunications carriers. Some of the reasons for the implementation 
of this cap were to preserve the sustainability and sufficiency of the 
fun and it was determined the cap wouldn't inhibit broadband deployment 
in rural areas. That recommendation was adopted in May of 2008 with 
your support. Here we are well over a year and the interim cap is still 
in place.
    What are your views on the impact the cap has had on sustaining 
USF, in light of the fact that the Contribution Factor has increased to 
13 percent for the third quarter--it was at 11.3 percent when the cap 
was placed. It seems as if the cap didn't have the desired goal of 
reigning in the growth of the fund, did it?
    Answer. The increases in the contribution factor this year have 
been attributable to a variety of factors, including reductions in the 
revenue base and true-ups and prior period adjustments of all four 
Universal Service mechanisms. Data from the Universal Service 
Administrative Company (USAC) reveals that, in the first three quarters 
of calendar year 2009, the interim Competitive Eligible 
Telecommunications Carrier (CETC) cap resulted in a reduction of demand 
on the high cost fund of $231.6 million. Absent the interim CETC cap, 
the contribution factor for this quarter would have been about 13.5 
percent.
    I agree that the interim CETC cap is not a permanent solution to 
this problem. I have consistently stated that, while the Universal 
Service system has been instrumental in keeping Americans connected and 
improving their quality of life, this system is in dire need of 
comprehensive reform. I have maintained that we must follow five 
principles when considering reforms to the Universal Service Fund. We 
must: (1) slow the growth of the Fund; (2) permanently broaden the base 
of contributors; (3) reduce the contribution burden for all, if 
possible; (4) ensure competitive neutrality; and (5) eliminate waste, 
fraud and abuse.

    Question 5. Do you believe the interim cap has not restrained the 
expansion of wireless infrastructure in rural and unserved areas as 
initially determined and, if so, could you explain how?
    Answer. As discussed immediately above, I agree that the CETC cap 
is not a permanent solution for reform of the Universal Service Fund. 
If confirmed, I look forward to joining with Congress and my Commission 
colleagues to undertake a comprehensive reform of this system.

    Question 6. Also, does the FCC have data on the number of 
complaints it has received from telecommunications customers 
specifically about the USF charge on the bill compared to the number of 
complaints it receives from individuals that lack access to reliable 
and affordable communications services?
    Answer. After receiving this question after the hearing, my office 
has requested this data from the appropriate offices at the FCC. We 
will provide you with this information as soon as we receive it.

    Question 7. In November 2007, the Federal-State Joint Board on 
Universal Service recommended that the FCC make fundamental revisions 
in the structure of existing USF mechanisms. Specifically, the Joint 
Board recommended establishing three separate ``funds''--one being a 
$300 million broadband fund that would be tasked primarily with 
disseminating broadband Internet services to unserved areas, with the 
support being expended as grants for the construction of new facilities 
in those unserved areas.
    Do you agree with the Joint Board's recommendation of establishing 
a broadband fund in order to address the continuing problem of the lack 
broadband availability in rural areas? How can we do that while trying 
to keep the fund manageable?
    Answer. My colleagues and I joined in a unanimous vote to approve 
an order declining to implement all of the Joint Board's 
recommendations. That said, it is important to understand that the 
nearly $8 billion in subsidy programs under the USF umbrella help 
support the facilities over which broadband services ride and, 
therefore, at a minimum indirectly subsidize broadband. The cost of USF 
is continuing to skyrocket. Accordingly, the importance in analyzing 
options that would reform both the contribution and distribution 
mechanisms is more apparent than ever--given that the contribution 
factor is now almost 13 percent--an all time high.
    If confirmed, I will continue to proceed with the hope that a 
reformed system would operate in the most efficient and effective 
manner possible--collecting only the amount necessary, and spending 
only what is collected, in pursuit of its congressionally mandated 
mission to ensure that all Americans have access to affordable quality 
services.

    Question 8. Will USF reform be a priority of the Commission this 
year?
    Answer. Since arriving at the Commission more than 3 years ago, I 
have repeatedly expressed a strong interest in tackling USF reform. As 
to the timing of any future actions, I would respectfully defer to the 
FCC Chair, who controls the Commission's agenda.

    Question 9. The DTV Transition for full-power television stations 
has finally occurred and by most reports it went smoothly without any 
major problems. However, the FCC's consumer DTV help line did receive 
more than 900,000 calls since Monday of last week. The FCC reported 
that about 50 percent of those calls were about reception issues or 
difficulty receiving a specific station.
    One problem that seems to be woven into those reception complaints 
is with the DTV Cliff Effect, where the broadcast signal is so weak 
that all that appears on a viewer's TV is a blank screen. The FCC 
previously estimated that ``approximately 18 percent of stations, or 
319, are predicted to lose coverage of 2 percent or more of the 
existing population they reached with their analog signals.''
    How accurate was that prediction? And can you specifically 
elaborate on how prevalent of a problem the cliff effect has been 
within these first few days of the transition?
    Answer. As station-specific reception issues have come to light for 
some viewers in several markets since the June 12 transition, we have 
been actively working with local broadcasters to resolve those 
situations. The Commission at this time does not have sufficient 
information to assess the accuracy of its earlier prediction about the 
digital cliff effect, at least with respect to reception issues on the 
edges of digital stations' predicted service areas. However, once we 
have compiled all of the relevant data, I will ask the FCC Chair to 
share it with Congress.
    To date, it appears that some viewers in a few larger markets are 
encountering difficulties receiving some, but not all, of the stations 
in their market. The Commission has found that some of these viewers 
can be helped through a combination of antenna repositioning and extra 
efforts to rescan boxes. As a result, we released a new consumer 
advisory, which explains those fixes.
    We will continue working with broadcasters and consumers to explore 
all possible options for addressing technical issues. From what we can 
tell so far, a combination of different factors is in play in different 
places, so we expect to resolve difficulties on a case-by-case basis.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                        Hon. Robert M. McDowell
    Question 1. As you know, in September 2005, the FCC adopted a set 
of net neutrality principles that explicitly allows broadband providers 
to take reasonable steps to prevent unlawful activity such as child 
pornography and piracy or theft of copyrighted content over their 
networks. Please tell me your intentions to confirm and adhere to this 
policy during your tenure at the FCC.
    Answer. Without exception, I analyze proposed FCC decisions with an 
eye toward identifying (and working to eliminate) rules and policies 
that may have possible unintended negative consequences, including 
impairing a network owner's ability to prevent unlawful activity such 
as child pornography and piracy or theft of copyrighted content over 
its network. In fact, your question touches upon a concern I have 
already expressed in two major FCC proceedings.
    First, in 2007, I cast a partial dissent in our 700 MHz service 
rules proceeding. In voting against the open access condition, I noted 
my disappointment that the majority did not try to work with industry 
to forge a consensus solution rather than rushing to regulate without 
thinking through the detrimental effect the rule would have on a 
carrier's ability to flexibly manage its network. More recently, I 
opposed last summer's Comcast/BitTorrent order primarily because the 
order was legally deficient. I also noted the tremendous importance of 
granting network operators the continued flexibility to guard against 
the use of their networks to distribute unlawful Internet content such 
as child pornography and pirated or copyrighted content.
    If confirmed, I will continue to identify and eliminate, where 
possible, those proposed rules and policies that may have possible 
unintended negative consequences. I will also support policies that 
will promote vigorous growth in the broadband markets to ensure that 
all Americans have access to the promise of high-speed Internet 
services, and that the Internet remains robust, open and safe.

    Question 2. As the platforms for delivering content continue to 
evolve and what was once the sole domain of ``TV content'' is now 
delivered via Internet (via programmers' websites, iTunes for purchase, 
content sites such as Hulu and YouTube, etc. . . .), some market 
behavior indicates that content owners are shifting their broadband 
business plan to leverage rules from the 1992 Communications Act 
written for negotiations between cable operators and content providers. 
Specifically what concerns me is that a content owner is now demanding 
network operators to pay for the right to distribute online content on 
a per subscriber basis whether their subscribers access the content or 
not, in effect double billing consumers for access to online content. 
Do you believe this to be an issue the FCC needs to address, and if so, 
what policies do you believe should guide the FCC's action?
    Answer. Regulators should give careful consideration before taking 
any action that may interfere with private contracts, absent clear 
statutory authority to do so. The Communications Act currently does not 
give the Commission power to regulate terms and conditions between 
content owners and those who distribute content online. Should Congress 
grant such authority to the Commission, I will, if confirmed, work with 
my colleagues to implement the statutory directives.

    Question 3. Are you apt to investigate the existing rules that 
govern how television programming is distributed to cable and satellite 
operators in order to ensure that consumers, particularly those that 
reside in small and rural communities, are being treated appropriately 
by the market?
    Answer. The Commission adopted an order in September 2007 that 
extended the prohibition on exclusive contracts between vertically 
integrated programming vendors and cable operators for satellite-
delivered programming for 5 years, until October 5, 2012. I supported 
the extension of the program access exclusivity ban to help further 
encourage competition in the video distribution market.
    As part of that 2007 order, we also launched a proceeding to 
examine negotiations in the marketplace for retransmission consent and 
programming carriage. I made it clear at the outset that I am concerned 
about the Commission venturing into what has long been squarely within 
the realm of the private sector. Of course, we must always pay careful 
attention to Congress' mandates and intentions with respect to these 
issues. If I am confirmed and Congress provides further guidance in 
this arena, I will work with my colleagues to act upon those 
directives.

    Question 4. What are your thoughts on the forbearance process and 
especially the interpretation of ``deemed granted'' petitions?
    Answer. With respect to ``deemed granted'' petitions, as Section 10 
of the Communications Act is currently written, action on a forbearance 
petition requires a majority of Commissioners to act to deny the 
request. The Commission is bound by the statutory provisions governing 
forbearance petitions. If, in the opinion of Congress, the operation of 
this statute is causing an undesired result, then it could certainly 
modify that provision. In the meantime, I favor a substantive vote by 
the Commission on each forbearance petition.
    With respect to the forbearance process in general, I believe the 
process is flawed and should be fixed. Only Congress can amend Section 
10, which is simple and clear in its mandate, but the Commission can 
take steps to improve its implementation. We currently are considering 
a draft proposal seeking comment on procedural rules that will help 
ensure the forbearance process is more efficient, predictable, fair, 
and transparent for all parties concerned--including the Commission.

    Question 5. Our broadband ranking has stagnated at 15th in the 
world for a few years now. Competition is a key ingredient in driving 
investment and system upgrades that will improve broadband quality. 
Given that 90 percent of households have only two choices for broadband 
providers, should FCC policies promote competition to these limited 
last mile access points?
    Answer. FCC policies should always promote competition, including 
in what has historically been a bottleneck: the last mile. During my 
time at the Commission, I have tried to promote more competition in the 
last mile by: supporting initiatives to make it easier for new entrants 
to compete in the video marketplace and, therefore, build new last-mile 
infrastructure; fighting for 700 MHz auction rules that would promote 
competition through the crafting of a wide variety of unencumbered 
market and spectrum block sizes; and taking steps to open up the use of 
the television ``white spaces,'' including for possible limited uses of 
this spectrum for point-to-point backhaul in rural areas as a 
substitute for special access, among others. America's technological 
future could be brilliant if we, as policymakers, make the right 
choices. If confirmed, you have my commitment to support policies that 
will promote, not stifle, freedom, competition, innovation and more 
choices. I believe that if we adopt such policies, we will create 
boundless opportunities for American consumers and entrepreneurs alike.

    Question 5a. Does the FCC's current copper line retirement policy 
hinder competition by continuing this duopoly?
    Answer. The Commission in the 2003 Triennial Review Order declined 
to prohibit incumbent LECs from retiring copper loops or copper 
subloops that they have replaced with fiber. Instead, the Commission 
emphasized that its Section 251(c)(5) network modification disclosure 
requirements (with minor modifications) apply to the retirement of 
copper loops and copper subloops. It also noted that any state 
requirements that apply to an incumbent LEC's copper loop or copper 
subloop retirement practices continue to apply.
    This policy is consistent with the Commission's general preference 
to promote facilities-based competitive deployment of broadband 
facilities. Such competition continues to grow, not just from the 
deployment of fiber by LECs, but also from cable providers entering new 
markets, overbuilders, and, increasingly, providers of fixed and mobile 
wireless broadband services.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Chuck Grassley to 
                        Hon. Robert M. McDowell
    Question 1. The FCC has had before it the remand from the Tenth 
Circuit concerning the non-rural high-cost universal service program 
for the entire time you have been on the Commission and just received 
yet another round of comments. The non-rural program is currently the 
only means by which a carrier can qualify for USF support based on 
forward-looking economic cost. Based on your experiences at the 
Commission, what are your thoughts on how to determine eligibility to 
receive high-cost funding? Do you think the current distinctions 
between the rural and the non-rural programs make sense?
    Answer. The Commission determined in May 1997 that high-cost 
universal service support should be based on the forward-looking 
economic cost of constructing and operating the network facilities and 
functions used to provide supported services. It also determined that 
rural carriers, which generally have higher operating and equipment 
costs (attributable to lower subscriber density, small exchanges, and a 
lack of economies of scale), could not at that time utilize the 
forward-looking cost model developed for non-rural carriers. The 
Commission chose instead to base rural support on embedded costs.
    Since that time, the Commission has twice declined to adopt a 
forward-looking economic cost model for rural carriers. More recently, 
the Federal-State Joint Board on Universal Service stated in a 
recommendation its belief that it is in the public interest to 
maintain, for the present, existing rural LEC support mechanisms based 
on the provider's embedded costs. These decisions and recommendations 
were intended to ensure that rural telephone companies receive 
sufficient, specific, and predictable high-cost universal service 
support as required under Section 254 of the Act.
    That said, the Commission has for too long avoided answering the 
fundamental questions raised on remand by the United States Court of 
Appeals for the Tenth Circuit (Tenth Circuit) regarding the high-cost 
universal service support mechanism for non-rural carriers. I was 
therefore pleased when the Commission committed to release a notice of 
inquiry no later than April 8, 2009; issue a further rulemaking no 
later than December 15, 2009; and release a final order that responds 
to the remand no later than April 16, 2010.
    If confirmed, I look forward to working with my colleagues to 
satisfactorily resolve the questions posed to us by the Tenth Circuit 
and to continuing our work toward fundamental reform of the 
intercarrier compensation and Universal Service systems. In that 
context, the Commission can appropriately address its decision to 
provide different support mechanisms for rural and non-rural carriers.

    Question 2. Iowa is a predominantly rural state. The GAO reported 
in 2008 that the USF high cost fund's structure has contributed to 
inconsistent distribution of support and availability of services 
across rural America. If we fail to remedy this situation of today's 
system, the problem will likely only get worse if the system is 
expanded to include broadband support. Why do you think vastly 
different high-cost support mechanisms present a fundamental inequity 
in the USF system? How should this inequity be addressed by the FCC to 
remedy the situation?
    Answer. I have consistently stated that, while the Universal 
Service system has been instrumental in keeping Americans connected and 
improving their quality of life, this system is in dire need of 
comprehensive reform. I have maintained that we must follow five 
principles when considering reforms to the Universal Service Fund. We 
must: (1) slow the growth of the Fund; (2) permanently broaden the base 
of contributors; (3) reduce the contribution burden for all, if 
possible; (4) ensure competitive neutrality; and (5) eliminate waste, 
fraud and abuse.
    If confirmed, I look forward to working with my colleagues to 
satisfactorily resolve the questions posed to us by the Tenth Circuit 
and to continuing our work toward fundamental reform of the 
intercarrier compensation and Universal Service systems.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Julius Genachowski
    Question 1. As part of the Telecommunications Act of 1996, Senator 
Snowe and I established the E-Rate program to provide schools and 
libraries with affordable access to telecommunications services and the 
Internet. No other program has been as singularly effective at closing 
our educational digital divide. Thanks to the E-Rate program, today 
more than 90 percent of all classrooms have access to the Internet. 
Children in the most rural communities are able to enjoy the 
educational benefits and opportunities that broadband provides. 
Recognizing the importance of the program, will you commit to me that 
you will support and protect the E-rate program as laid out in statute?
    Answer. Yes. I recognize the historic and ongoing importance of the 
E-rate program to schools and libraries and the goal of unlocking 
prosperity and opportunity for all Americans via communications 
technology. If confirmed, I commit to supporting and protecting the E-
rate program as laid out in statute.

    Question 2. Payphones are a vanishing feature of the American 
communications landscape. A decade ago, we had more than 2 million 
payphones across the country, but now have less than half as many. 
Despite this decline, they remain a primary link to the communications 
network for the 5-6 percent of American households without any form of 
household phone. They are a vital part of keeping Americans connected 
and can be a lifeline in times of emergency.
    In light of the important role that payphones play and the risk 
associated with the loss of communications service, will you review 
existing payphone policies at the FCC in order to ensure that the 
Congressional mandate to compensate each and every completed call is 
met? Furthermore, will you ensure that disputes over payphone 
compensation are resolved in an expeditious manner?
    Answer. Yes, if confirmed, I will review existing policies to 
ensure that the Congressional mandate in Section 276 of the 
Communications Act--to compensate each and every completed call--is 
met. I will also ensure that disputes over payphone compensation are 
resolved in an expeditious manner, as all matters before the Commission 
should be.

    Question 3. In the 110th Congress, I introduced a resolution, co-
sponsored by former Senator Obama, establishing a national goal for the 
universal deployment of next-generation broadband networks. 
Specifically, we called for networks with transmission speeds of 100 
megabits per second, to be ubiquitously deployed by 2015. What steps 
can we take to accomplish this objective?
    Answer. Extending next-generation broadband networks to all 
Americans is a vital national goal. Congress has entrusted the FCC with 
the task of developing a national broadband plan, which shall include 
``an analysis of the most effective and efficient mechanisms for 
ensuring broadband access by all people of the United States'' and 
``shall establish benchmarks for meeting that goal.''
    If confirmed, I will ensure that the Plan is developed pursuant to 
a transparent, fair, and data-driven process that is open to, and seeks 
the best ideas from, all stakeholders. While I recognize that the goal 
of a ubiquitous 100 mpbs network by 2015 is an ambitious one, if 
confirmed, I will look forward to the Commission tackling this issue 
thoroughly as part of its Plan and as part of its effort to seek 
universal service in a way that unlocks opportunity and prosperity for 
all Americans.

    Question 4. In the Cable Television and Consumer Protection Act of 
1992, Congress expressed concern about discrimination that can result 
from the vertical integration of multichannel video programming 
distributors and video programming vendors. Pursuant to this law, the 
FCC set up a regulatory regime to govern program carriage disputes. 
These rules are an important part of making sure that independent 
programmers have a fair chance of securing carriage on multichannel 
video programming distributors, like cable companies and satellite 
companies. It is my impression, however, that the FCC rarely resolves 
carriage disputes in a timely way. How can the FCC be a more efficient 
forum for the resolution of these disputes?
    Answer. Enforcing the program carriage provisions of Section 616 of 
the Communications Act is an important task entrusted to the FCC. In 
order to achieve the purposes of the statute and serve the needs of 
video service consumers, the FCC must resolve carriage disputes in a 
timely fashion. I look forward to understanding specific concerns you 
may have about current program carriage dispute procedures at the 
agency and, if confirmed, will work with you and members of the 
Committee and my fellow Commissioners to achieve this goal.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                           Julius Genachowski
    Question 1. In order to effectively extend mobile broadband to 
rural areas, companies must have access to backhaul facilities (also 
known as special access) at reasonable rates. Do you believe a review 
of special access rates could facilitate deployment of mobile 
broadband? If so, would you advise the Committee within 3 months of 
taking office of when you would undertake such a review?
    Answer. I believe that the United States should lead the world in 
mobile services, including mobile broadband, and that it is essential 
to extend these services to rural as well as urban areas. I have not 
yet been briefed by the FCC's staff on the effect of special access 
rates on mobile broadband deployment, nor on the details of any review 
or data relevant to this issue. If confirmed, I look forward to 
learning more about this important issue, to understanding your 
concerns in the area, and working with you and members of the Committee 
to find ways to bring prosperity and opportunity to all Americans.
    If confirmed, I commit to advising the Committee within 3 months on 
my view about whether a review of special access rates is appropriate 
and, if so, when the agency would undertake such a review.

    Question 2. The Federal Communications Commission (FCC) formed NECA 
in 1983 to perform telephone industry tariff filings and revenue 
distribution. What do you believe is an appropriate level of oversight 
by the FCC over the activities and decisions made by the NECA?
    Answer. I have not yet been briefed by the FCC's staff on the 
specific activities and decisions of NECA and the FCC's current level 
of oversight. As a general matter, I am a strong believer in the goals 
of accountability, transparency, efficiency, and effectiveness when it 
comes to the management of government programs. I believe that any 
oversight and management of NECA should ensure that the programs it 
implements are achieving the goals Congress envisioned in the law. If 
confirmed, I look forward to understanding your concerns in this area 
and to working with you and other members of the Committee on this 
issue.

    Question 3. The Federal Government, through the FCC, has spent 
decades trying to expand minority ownership and operation of radio 
broadcasting companies. Even with those efforts, only 7 percent of 
full-power radio stations across the country are minority-owned. 
Because of the massive credit crisis, many of these stations are having 
difficulties in continuing to access the capital markets and meet their 
growing debt burdens. What measures will you take in order to preserve 
and enhance diversity in the radio broadcasting business?
    Answer. Consistent with the provisions of law that guide FCC 
authority to issue licenses to utilize the public's airways, if 
confirmed I would look forward to working with you, the Committee and 
my fellow Commissioners in developing constitutionally permissible 
strategies to ensure that there is a wide dissemination of licenses so 
that women-owned, minority-owned, and small businesses have ample 
opportunity to compete, innovate, and contribute their voices to the 
national and local media marketplace.
    It has been reported that the Commission does not have complete 
data about the nature and extent of minority ownership of broadcast 
licenses. If confirmed, I would seek to improve the data that the FCC 
possesses in this area so that policymakers have an accurate assessment 
of license ownership and can develop appropriate and constitutionally 
permissible policies.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                           Julius Genachowski
    Question 1. Last year the Rural Carriers Association filed a 
petition at the FCC addressing exclusive agreements between wireless 
carriers and handset manufacturers. Subsequently, dozens of comments 
were filed on this subject by large and small carriers, consumer 
groups, manufacturers and regulators. Yesterday, I sent a letter to 
your future colleague Acting Chairman Copps, asking him to examine the 
conditions around these exclusive agreements and act if he believes 
that these agreements are harming competition and consumer choice. If 
confirmed, will you examine the RCA petition and act accordingly if 
these agreements prove to be harming consumers?
    Answer. Yes, if confirmed, I will ensure that the full record on 
the RCA petition is reviewed, and act accordingly to promote 
competition and consumer choice.

    Question 2. Despite a U.S. minority population that reaches 35 
percent of total population, there is a shocking lack of minority 
voices in media markets today. Minority owned radio licenses total just 
4 percent, while television broadcast licenses total just 3 percent. I 
have worked in the past with then-Senator Obama to focus the attention 
of the FCC on this growing problem--I would like to see this disparity 
addressed early in your Chairmanship. Will you commit to working with 
me and others who are concerned about this problem to increase minority 
presence in media ownership to better reflect our diverse population?
    Answer. Yes, consistent with the provisions of law that guide FCC 
authority to issue licenses to utilize the public's airways and 
constitutional precedent, if confirmed I would look forward to working 
with you and the Committee in developing constitutionally permissible 
strategies to ensure that there is a wide dissemination of licenses so 
that women-owned, minority-owned, and small businesses have ample 
opportunity to compete, innovate, and contribute their voices to the 
national and local media marketplace.

    Question 3. What measures might you encourage the Congress or the 
administration to take in order to preserve and enhance diversity in 
the radio broadcasting business?
    Answer. If confirmed, I look forward to learning more about the 
radio marketplace and the mechanisms that might prove successful in 
implementing congressional intent in this area. Among other areas, I 
also look forward to learning more about the possibility of low power 
FM radio as a new voice that could be licensed without harmful 
interference in communities around the Nation. If confirmed, I hope to 
work with you, the Committee, and my fellow Commissioners on this and 
other issues in the radio marketplace.

    Question 4. The value of our public airwaves was demonstrated last 
year when the auctioning of the 700 megahertz band of spectrum resulted 
in $20 billion for the U.S. Treasury. As wireless technology continues 
its rapid advance, wireless services are becoming less of a luxury and 
more of a necessity. This highlights our need for a modern day spectrum 
policy that puts this valuable natural resource to the best and most 
efficient possible use for the American people. Identifying additional 
spectrum for commercial use, both licensed and unlicensed use, leads to 
increased innovation and positive returns for consumers. I've 
introduced legislation with Senator Snowe and five bipartisan members 
of this committee to direct the FCC and the NTIA to perform a 
comprehensive spectrum inventory with the intent to identify additional 
spectrum for reallocation. Will you commit to considering this 
important initiative as part of the FCC's National Broadband Plan?
    Answer. Yes, I agree that the FCC and NTIA should work together to 
produce a comprehensive and accurate inventory of the way in which 
spectrum is managed by both agencies, as well as existing uses and 
users. I agree with you that identifying fallow spectrum and 
opportunities for improving spectrum efficiency are critical to good 
spectrum management. I believe an inventory will be a tremendous aid in 
spectrum policy.

    Question 5. The Recovery Act targets $7.2 billion for broadband 
deployment, and there is considerable disagreement about how this money 
should be spent. NTIA is currently deliberating over rules that will 
determine how much of this money is spent on building out broadband 
lines to rural America, and how much is spent on demand-side 
initiatives that will drive adoption rates above the current low 
levels. My concern is that we are funding projects that are sustainable 
beyond the 2 year window of funding availability--the worst thing we 
could do is pour this money into projects that 2 years from now will 
not be viable. One idea to increase demand among low income populations 
is to expand the Universal Service Fund's ``Lifeline'' program to cover 
broadband service. Lifeline currently subsidizes standard telephone 
service for low income Americans. A study by the Pew Research Center's 
Internet and American Life Project shows that only a quarter of low 
income Americans have access to broadband service. What are your 
thoughts on expansion of the successful Lifeline program to include 
broadband service for low income Americans?
    Answer. I believe efforts focusing on broadband adoption and 
affordability are vital to the goal of bringing 21st Century 
communications to all Americans. The national broadband plan entrusted 
to the FCC asks the agency to, among other things, develop a ``detailed 
strategy for achieving affordability of such service and maximum 
utilization of broadband infrastructure and service by the public.'' If 
confirmed, I intend to ensure that the FCC conduct an open, fair, 
transparent, and data-driven process to create this strategy and find 
ways to make sure that America not only has world-class networks, but 
that all Americans are able to benefit from them.
    I have not yet had an opportunity to be briefed by agency staff on 
the implications of adjusting the Lifeline program to include broadband 
service for low income Americans. It is an idea that I am very 
interested in learning more about. I look forward to hearing your 
thoughts on this matter and, if confirmed, to work with you and the 
members of the Committee to explore whether it would be an appropriate 
step for the FCC.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                           Julius Genachowski
    Question 1. Do you agree that the broadcast airwaves belong to the 
American public and that it is fair and necessary to enforce some form 
of public interest obligations to ensure the airwaves actually serve 
the public? I'm not speaking about the Fairness Doctrine here--this is 
not about political perspectives. This is about ensuring there is 
diverse, local content that serves our communities--content that isn't 
offensive to our children.
    Answer. I agree that the broadcast airwaves belong to the American 
public, and that broadcasters have an obligation to serve the public 
interest. Indeed, Section 309(k)(1) of the Communications Act expressly 
provides that the Commission shall grant a station renewal of its 
broadcast license if ``the station has served the public interest, 
convenience, and necessity.''

    Question 2. Last year I sent a letter to FCC Chairman Martin asking 
for details on the FCC's spectrum management. Like many letters, I 
think that one fell into a black hole at the FCC. At the time I also 
sent a letter to then Commerce Committee Chairman Inouye asking for a 
hearing on spectrum management. I would like to call up the FCC and 
NTIA to discuss fallow spectrum and greater efficiencies of spectrum 
management. The Senate adjourned before holding that hearing last 
session and I am making the same request of Chairman Rockefeller this 
session. In your tenure as Chairman, will you work to find fallow 
spectrum and ensure it is put to use?
    Answer. Yes I will. I agree with you that identifying fallow 
spectrum and opportunities for improving spectrum efficiency are 
critical to good spectrum management. The release of the 700 MHZ 
spectrum enabled by the Digital Television conversion will allow for 
the provision of wireless broadband services, both one-way and two-way, 
to the great benefit of consumers, including both public safety use, 
and commercial mobile broadband use. If confirmed, I look forward to 
working with you, the Committee, and the NTIA to identify opportunities 
to identify fallow spectrum and put it to use.

    Question 3. I have just sent a letter to the FCC with Senators 
Kerry, Wicker and Klobuchar asking that the Commission review the 
exclusive device contracts of the biggest wireless companies (Verizon, 
AT&T, Sprint, and T-Mobile) that dominate the market with 86 percent of 
all wireless customers. These deals ensure that smaller wireless 
companies cannot compete with the big companies. It has also meant that 
one of the most popular devices in the US, the iPhone, is not available 
in North Dakota since we aren't served by AT&T yet. While I don't 
expect you to have an opinion without considering a full public record, 
do you agree that the FCC should examine this issue?
    Answer. Yes, I agree that the FCC should examine the issue of 
exclusive contracts for devices. My understanding is that the FCC has 
at least one petition before it, requesting examination of exclusive 
agreements between wireless carriers and handset manufacturers, and if 
confirmed I look forward to making sure that the agency reviews the 
record in that proceeding, and determining how best to promote 
innovation, investment, competition, and consumer choice.

    Question 4. The process by which companies seek forbearance from 
regulation at the FCC seems to me to be incredibly broken. We are 
frequently seeing petitions submitted to the FCC requesting forbearance 
from regulations and the FCC has a terrible process for handling and 
reviewing these petitions. It is critical that the FCC get these 
decisions right. I believe in one city, the FCC granted forbearance on 
the grounds that there was significant competition in the city, but 
discounted the fact that the regulations in place were a necessary 
factor in allowing the incumbent's competitor to survive. The FCC's 
decisions have usually been made in the hour before the petition shot-
clock expired. I want to see changes in this process. Have you had a 
chance to review the forbearance procedures at the FCC? If so, do you 
agree changes and clarity are needed both in terms of standards for 
approval and process for consideration?
    Answer. I agree that clarity is vital in the standards of approval 
for forbearance and the process for consideration. I am aware that 
concerns have been raised, both at the Commission and in Congress, 
about the process as it exists today. As I understand them, concerns 
revolve around the expenditure of Commission resources to review and 
analyze applications that are subsequently withdrawn, the arrival of 
amendments or additional filings late in the forbearance process when 
the public has little or no time to review or respond to them, and the 
scenario resulting in the approval of a petition via the ``deemed 
granted'' provision when Commissioners' voting tally on a petition 
results in a tie, and with no written decision for the public or the 
courts to review. I understand that Acting Chairman Michael Copps has 
begun a review of the Commission's procedures with respect to petitions 
filed under Section 10.
    In general, I am concerned about any Commission proceeding that 
drags on for an unduly extended period of time, that is decided without 
transparency, and that does not represent an efficient use of 
Commission resources. I believe that consumers, competitors, and other 
interested parties in a proceeding on a petition should see resolution 
on a timely basis. The Commission's handling of such matters should be 
fair, open, transparent, and based on facts.

    Question 5. Independent programming on television contributes to 
diversity and enriches the American TV audience. However, in recent 
years, independent programmers have faced serious challenges in getting 
their programming on broadcast and cable television. One study notes 
that from 1989 to 2006, the amount of independent programming declined 
from 50 percent to 18 percent. Last year I asked the GAO to study the 
issue of independent programming and explain the decline, whether it's 
related to content ownership, and what we can do about it. I look 
forward to working with you to find policy approaches that will lead to 
more independent and diverse programming on television. Do you agree 
that this is an important issue for the FCC to review?
    Answer. I agree that this is an important area to review and I look 
forward, if confirmed, to understanding your concerns in this area and 
working with you and the Committee to understand the issues surrounding 
independent programming on television.

    Question 6. You will have a significant backlog at the FCC on day 
one. There are a number of complaints that have been pending before the 
FCC for years, including a number of cable carriage complaints where 
programmers unaffiliated with a cable company complain that they have 
been discriminated against in favor of affiliated programming. Are 
there things the FCC can do to ensure that these disputes are concluded 
in a reasonable amount of time at the FCC?
    Answer. Resolving disputes in a reasonable period of time is a 
vital goal for the agency, and one that I would take very seriously if 
confirmed. While I have not yet been briefed on the agency's procedure 
for handling program carriage complaints, I look forward to learning 
more and, if confirmed, to working with you, the Committee and my 
fellow Commissioners to find ways the FCC can resolve these disputes 
efficiently, equitably, and in a way that improves the choices 
available to video service consumers.

    Question 7. Recently a group of artists filed a complaint at the 
FCC asking the Commission to look into allegations against radio 
broadcasters that they have been violating their public interest 
obligations. This is related to a lobbying campaign regarding 
legislation determining whether artists should be paid for the 
performance of their music on broadcast radio. The complaint alleges 
that some stations have been running ads against the legislation while 
at the same time refusing to run ads for the opposing side. They also 
allege that some stations are refusing to play certain artists who have 
expressed support for the performance rights legislation.
    If true, these allegations call into question whether certain 
broadcasters are abusing the terms of their licenses. Do you believe 
that, if the allegations are true, they raise questions that should be 
discussed in the context of their license renewal? Do you believe the 
FCC should end the process of just rubber stamping a license renewal 
application and actually review applications? Do you believe that the 
FCC should return to the days when license renewals were reviewed every 
3 years instead of every 8 as they are today?
    Answer. I have not yet been briefed by the FCC's staff on this 
matter. If confirmed, I would ensure that the FCC look into these 
allegations and the all the questions they raise. On license renewal 
cycle, I also have not yet been briefed by FCC staff. I understand that 
there are different points of view on this question and I have not 
prejudged the issue.
    I look forward to hearing your concerns on these topics and, if 
confirmed, to working with you and other members of the Committee on 
resolving them.

    Question 8. Do you believe that network openness requirements of 
other countries have helped to spur broadband development for our 
competitors?
    Answer. Extending next-generation broadband networks to all 
Americans is a vital national goal. I believe the FCC can gain valuable 
insight in how to achieve this goal by studying the example of other 
countries and drawing appropriate lessons. The FCC will have an 
opportunity to begin this process when it fulfills Congress's 
instructions in the Broadband Data Improvement Act, which requires the 
FCC to consider information about broadband deployment in 25 countries. 
While I have not yet been briefed about the Commission's findings on 
this topic, I will be interested to see how other countries have 
addressed the issue of network openness.

    Question 9. I would like to see USF expanded to broadband service 
and moving rural broadband forward in terms of speeds and availability. 
But I know we first need to stabilize the fund. Do you agree that the 
Universal Service Fund (USF) that's expanded to broadband is a critical 
component of communications service in America? Do you agree that any 
USF reform should be done carefully and deliberately with full input 
from all stakeholders?
    Answer. I agree that reforming the universal service fund to 
support broadband is an important national objective. In the previous 
75 years, the universal service system played an essential role in 
bringing voice service to nearly all Americans--which in turn was a 
critical factor in establishing American's economic leadership, and in 
building prosperity and opportunity in rural as well as urban areas. I 
believe that the goal going forward must be to achieve the same result 
with respect to broadband--which is already an indispensable 
communications technology, and will only become more central to 
American lives over time. Orienting the universal service system toward 
broadband can play an important part in this transformation. If 
confirmed, I look forward to identifying effective, efficient ways to 
make sure that the universal service system can support the goal of 
universal broadband access.
    I also agree that USF reform must be done carefully and 
deliberately with full input from all. I believe the Commission's 
processes must be open, fair, transparent, and based upon facts. If 
confirmed, I would seek to consult closely with Congress, and my fellow 
Commissioners, to craft policies that provide predictability of subsidy 
support, marketplace certainty, and assurance of affordable, high-
quality service for consumers.

    Question 10. I am concerned about the lack of focus at the FCC over 
the last few years on international issues generally, and satellite 
issues specifically--I hear that these issues get pushed to background 
or more generally ignored. Over the last few years I have heard that 
processing times for satellite related applications have slowed 
dramatically at the Commission. Do you believe that the FCC should 
place a higher priority than it has in the recent past on international 
issues? Will you ensure that the International Bureau is properly 
staffed to manage the complicated set of international and global 
issues that are a critical part of modern communications?
    Answer. If confirmed, I will ensure that the International Bureau 
is properly staffed to manage the complicated set of international and 
global issues that are a critical part of modern communications. I 
believe that this can benefit U.S. consumers and businesses in a 
variety of ways, as it has in the past. With respect to satellite 
applications, I believe they should processed--like all license 
applications--expeditiously and, if confirmed, I will look into the 
processing times for satellite-related applications and work to ensure 
that the International Bureau is properly staffed for there to be 
prompt processing of applications.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Julius Genachowski
    Question 1. Mr. Genachowski, a few years back, the Commission 
placed as a condition to the Verizon-MCI and the AT&T-BellSouth mergers 
the requirement that each new combined company sells standalone 
broadband for a period of time. How successful do you think these 
conditions were in increasing broadband adoption? Do you have a sense 
of how actively the telecom companies marketed their standalone 
broadband products? Do you think it would have made a difference if 
those companies had to report to the Commission or Congress on its 
efforts to provide standalone broadband? Does the Commission intend to 
examine the issue of standalone broadband in the context of its 
national broadband plan?
    Answer. I have not yet been briefed by the FCC's staff on the 
effects of the standalone broadband provisions of the recent mergers 
you identify. If confirmed, I look forward to learning about this 
important question. In general, I support efforts to encourage full 
disclosure of the products, services, prices, and terms that 
communications providers offer to the public.
    With respect to the national broadband plan, I anticipate that the 
issue you raise would be among those raised by stakeholders and 
examined by the agency. If confirmed, I will ensure that the Plan is 
developed pursuant to a transparent, fair, and data-driven process that 
is open to, and seeks the best ideas from, all stakeholders.

    Question 2. Mr. Genachowski, what do you see as the FCC's role in 
safeguarding community media resources like PEG channels and production 
facilities?
    Answer. The Communications Act contains several provisions to 
ensure that local communities derive the maximum benefit from public 
resources extended to communications companies when such entities are 
authorized to provide service. For cable operators and other 
multichannel video distributors, access to public rights-of-way and 
issuance of a franchise to provide cable television service in a 
community comes with concomitant obligations to ensure that local 
community needs are met through support for and allocation of capacity 
for public, educational, and governmental (PEG) use.
    I believe these are important policies and represent yet another 
commitment by Congress to ensuring that communications companies 
provide tangible benefits to enrich and ennoble the media environments 
of the communities they serve.
    As I understand it, the FCC is obligated to fulfill certain 
statutory requirements of the franchising provisions of the 
Communications Act, including regulations pursuant to Title VI of the 
Communications Act to implement and enforce PEG capacity and use 
requirements as well as the franchise fee assessments that support such 
use. If confirmed, I will be committed to implementing and enforcing 
such provisions consistent with congressional intent and through 
processes that are open, transparent, fair, and fact-based.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                           Julius Genachowski
    Question 1. Broadcasters have to fulfill public interest 
obligations in exchange for using the public airwaves. In your opinion, 
can a broadcaster satisfy its public interest obligations solely by 
running public service announcements and volunteering in the community, 
or does it also have to provide adequate local news coverage?
    Answer. I am skeptical that a broadcaster could satisfy its public 
interest obligations solely by running public service announcements and 
volunteering in the community. With respect to local news, the 
Commission has noted in the past in the context of discussing the 
public interest obligations of broadcasters that ``television is the 
primary source of news and information to Americans.'' In the Matter of 
Public Interest Obligations of TV Broadcast Licensees, 14 FCC Rcd 21633 
(1999). Because of ``the impact of their programming and their use of 
the public airwaves, broadcasters have a special role in serving the 
public.'' Id. Americans value and rely upon the local news that 
broadcasters provide, and providing news coverage of matters of local 
significance is one of the most important ways that broadcasters can 
fulfill their obligations to the communities they serve.

    Question 2. In 2007, the FCC held a hearing in Newark, New Jersey, 
on the license renewal of WWOR--New Jersey's only high-power commercial 
television station. New Jerseyans testified about the station's failure 
to cover New Jersey news and events. Almost 2 years later, this station 
is still operating under its expired license and has not improved its 
service to New Jersey. If you are confirmed, will you review the record 
in this case thoroughly and immediately?
    Answer. Yes.

    Question 3. New Jersey is a net contributor of more than $180 
million a year to the Universal Service Fund. As the USF keeps growing, 
the burden on New Jersey and other donor states keeps getting bigger 
and bigger. What plans do you have to reform the USF and bring some 
fairness to donor states like New Jersey?
    Answer. I am aware of the growing level of universal service 
support and am concerned about the long-term impacts that such 
increases have on the viability of the fund and on ratepayers. 
Historically, my understanding is that consumers in large, more urban 
States pay more into the universal service than they received out of 
universal service funding. It is also my understanding that within 
States, there are Statewide universal service mechanisms that often 
cross-subsidize residential consumers from business users, and rural 
areas from more urbanized areas within the State. In the 
Telecommunications Act of 1996, Congress also included new provisions, 
such as the ``E-Rate'' provision to provide broadband access to K-12 
schools and public libraries, which today provide $2.25 billion in 
subsidized access to the Internet across the country. The E-Rate has 
assisted hundreds of thousands of children and library patrons to 
access the Internet in communities around the nation, including in more 
urban states.
    I believe that universal service mechanisms should be developed and 
administered in a way that is efficient and effective in meeting the 
objectives that Congress tasked the FCC to fulfill in the law. I am 
mindful of the impact that universal service has upon ratepayers, 
especially during the current difficult economic climate, and if 
confirmed, will endeavor to reform universal service by consulting 
closely with you and the Committee, my Commission colleagues, and 
affected parties, in a process that is open, transparent, fair, and 
fact-based.

    Question 4. As part of the American Recovery and Reinvestment Act, 
the FCC will develop a national broadband plan by February 2010. In New 
Jersey, broadband has been deployed throughout the state, but many low-
income residents--often in urban areas--cannot afford it, or it does 
not reach into their buildings. Under your leadership, how will the FCC 
bring broadband to these underserved low-income residents, and not only 
more rural areas of the country?
    Answer. The Act instructs the FCC to, among other things, conduct 
``an analysis of the most effective and efficient mechanisms for 
ensuring broadband access by all people of the United States'' and to 
create ``a detailed strategy for achieving affordability of such 
service and maximum utilization of broadband infrastructure and service 
by the public.''
    If confirmed, I will ensure that the national broadband plan is 
developed pursuant to a transparent, fair, and data-driven process that 
is open to, and seeks the best ideas from, all stakeholders. I believe 
that this process should bring forth useful solutions to the deployment 
and affordability/adoption issues in New Jersey and I look forward to 
working with you on these important issues.

    Question 5. Almost 9 years after 9/11, we still do not have a 
national, interoperable public safety communications network. One of 
the major benefits of the DTV Transition that took place last week was 
supposed to be the creation of this network, but the portion of the 
airwaves set aside for public safety--known as the ``D block''--is 
still vacant. When do you expect to have a plan for the D block?
    Answer. I share your view that interoperability for public safety 
networks is one of the highest priorities for the FCC. It has been too 
long since 9/11 without sufficient progress on interoperability. If 
confirmed, I will ensure that the FCC will have an expeditious process 
to establish a path to the prompt availability of nationwide 
interoperable broadband for public safety, including a plan for the D 
block.

    Question 6. Some cities, counties and states have built or plan to 
build interoperable broadband networks in the 700 MHZ public safety 
band. Public safety entities have requested authorization to use the 
700 MHZ band to address their needs in short order through the funds in 
the American Recovery and Reinvestment Act. As you develop a plan for 
this spectrum, how will you account for the work and planning that 
state and local public safety agencies are doing already?
    Answer. As the FCC develops a plan for the 700 MHZ public safety 
spectrum, it is essential that the FCC take into account the work and 
planning that state and local public safety agencies have already 
conducted. While I have not yet had an opportunity to review the record 
or be briefed by FCC staff, I understand that a number of localities 
have filed waiver requests with the FCC in order to move forward with 
700 MHZ networks in their jurisdictions. If confirmed, I commit to 
reviewing and acting on those waiver requests promptly.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                           Julius Genachowski
    Question 1. I think that we need to provide parents with tools to 
guide their children's television viewing. I also think the FCC should 
take a broad look at children's programming issue and whether there are 
new policies or incentives to encourage quality programming on our 
airwaves. Could you please comment?
    Answer. I agree completely that providing parents with appropriate 
tools to guide their children's television viewing is an essential 
goal. As the parent of 2-, 5-, and 17-year-olds, I share the concern of 
so many parents about children being exposed to inappropriate material 
on television. My interest in this area led me to choose to become 
involved with Common Sense Media, a non-partisan, non-profit 
organization dedicated to improving the media and entertainment lives 
of children and families.
    The report the Child Safe Viewing Act instructs the FCC to produce 
by August 29, 2009, should be an important step in this process. If 
confirmed, I look forward to being briefed about the work the 
Commission staff has done so far on this matter and I can assure you 
that completing the report will be a high priority for the agency.
    I am optimistic that technological innovation is capable of 
providing parents with new, easy-to-use tools to give them more choice 
about what their children are exposed to. I am hopeful that technology 
in this area can advance as quickly as it does in other areas of the 
communications marketplace, and I believe that the FCC needs to take a 
broad view of how it can help encourage the process. Giving parents the 
ability to easily and reliably identify high-quality, high-value 
educational programming may provide companies with increased incentives 
to produce such programming. I am very interested, if confirmed, in the 
FCC being involved in efforts to develop solutions that help parents 
and families, and I agree that a notice of inquiry on the issue could 
be a helpful first step.

    Question 2. I am concerned about what children are exposed to on 
TV, including sexual content. The current review of blocking 
technologies by the FCC is very important. However, I would also note 
that we need to find ways to encourage quality children's programming 
on television. How do we incent broadcast and cable channels to provide 
such programming? Could the FCC do a notice of inquiry on this issue?
    See answer to Question 1 above.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Julius Genachowski
    Question 1. Over the last 10 years, the U.S. has gone from being a 
world leader in Internet penetration to being 15th or 20th or worse, 
depending upon what statistics you read. Why did that happen? What can 
be done to reverse the trend?
    Answer. The statistics you cite are certainly cause for concern and 
I believe returning to a position of international leadership in terms 
of next-generation broadband networks is a vital goal for the country.
    Congress has entrusted the FCC with the important task of 
developing a national broadband plan, which shall include ``an analysis 
of the most effective and efficient mechanisms for ensuring broadband 
access by all people of the United States'' and ``shall establish 
benchmarks for meeting that goal.'' If confirmed, I will ensure that 
the Plan is developed pursuant to a transparent, fair, and data-driven 
process that is open to, and seeks the best ideas from, all 
stakeholders.

    Question 2. I believe that telephone and Internet access should not 
be considered luxuries but basic utilities. Yet Americans who live in 
rural areas, who make up 17 percent of the U.S. population, are much 
less likely to have broadband than suburban or urban dwellers. Rolling 
out broadband to rural America today should be made a priority in the 
same way that rural electrification was in the 1930s. The stimulus 
funds available for broadband also come at a time when the Nation could 
potentially take significant ``leap frog'' steps to overcoming the 
digital divide. Federal funding alone, however, will not be enough. 
What will you do as FCC Chairman to ensure that rural Americans benefit 
from advanced telecommunications, including broadband?
    Answer. In the previous 75 years, the universal service system 
played an essential role in bringing voice service to nearly all 
Americans--which in turn was a critical factor in establishing 
American's economic leadership, and in building prosperity and 
opportunity in rural as well as urban areas. I believe that the goal 
going forward must be to achieve the same with respect to broadband--
which is already an indispensable communications technology, and will 
only become more central to American lives over time. Orienting the 
universal service system toward broadband can play an important part in 
this transformation. If confirmed, I look forward to identifying 
effective, efficient ways to make sure that the universal service 
system can support the goal of universal broadband access.
    In the American Recovery and Reinvestment Act (the ``Recovery 
Act''), Congress tasked the FCC with developing a national broadband 
plan that has universal access to broadband for all Americans as its 
overarching objective. The Recovery Act also included funding for the 
data collection and mapping of broadband deployment and assets 
throughout the country. I believe this mapping will assist policymakers 
to better gauge the nature and extent of broadband deployment in the 
country.
    If confirmed, I would look forward to consulting closely with 
Congress, and collaborating with my fellow Commissioners, on crafting 
broadband policies and universal service mechanisms to make further 
progress in extending service to unserved areas through open, fair, 
transparent, and data-driven processes.

    Question 3. As the FCC formulates a national broadband plan, the 
adoption of broadband by end users should be an important part of 
measuring its success. Simply laying fiber pipe across the country is 
not sufficient if people cannot afford or do not understand the 
economic and practical value of adopting it. What educational efforts 
or other activities will be needed to ensure high adoption rates for 
broadband? What do you propose to do to help low-income Americans 
afford access to broadband? Do you support extending current Lifeline 
and Link-Up programs to cover broadband?
    Answer. I believe efforts focusing on broadband adoption and 
affordability are vital to the goal of bringing 21st Century 
communications to all Americans. The national broadband plan entrusted 
to the FCC requires the agency to, among other things, develop a 
``detailed strategy for achieving affordability of such service and 
maximum utilization of broadband infrastructure and service by the 
public.'' If confirmed, I intend to conduct an open, fair, transparent, 
and data-driven process to create this strategy and find ways to make 
sure that America not only has world-class networks, but that all 
Americans are able to benefit from them. I anticipate that the strategy 
will include discussion of educational efforts and measures targeted at 
helping low-income Americans afford access to broadband.
    I have not yet had an opportunity to be briefed by agency staff on 
the implications of adjusting the Lifeline program to include broadband 
service for low income Americans. It is an idea that I am very 
interested in learning more about. I look forward to hearing your 
thoughts on this matter and, if confirmed, to work with you and the 
members of the Committee to explore whether it would be an appropriate 
step for the FCC.

    Question 4. New Mexico is a rural state which faces difficult 
``digital divide'' issues. However, my state is developing an exciting 
broadband initiative and intends to apply for NTIA broadband funds with 
a coordinated, multi-partner proposal that includes state government, 
private telecom companies, rural and tribal communities, and nonprofit 
organizations. As New Mexico attempts to foster wholesale `open 
network' solutions for publicly-funded fiber infrastructure throughout 
the state, how should state broadband planners consider the limitations 
on public/private shared networks which are imposed by E-Rate and the 
FCC Telehealth Program?
    Answer. I believe strongly in the goal of bringing 21st Century 
communications to all Americans, and am very interested in learning 
more about the exciting broadband efforts taking place in New Mexico. I 
have not yet had the opportunity to be briefed in detail on the issue 
of public/private shared networks in the context of E-Rate and the FCC 
Telehealth Program. However, if confirmed I look forward to learning 
more about this issue, and I will make sure that the Commission's staff 
serve as a resource to you and to the many participants in the ongoing 
efforts in New Mexico. One of the reasons I believe that openness is to 
important in the Commission's processes is to ensure that Commission 
policies are informed by the facts and the real experiences of those in 
all sectors seeking to help bring broadband to Americans.

    Question 5. When President Clinton visited Shiprock, New Mexico, he 
was introduced by a bright Navajo girl who had won a computer. Yet she 
could not connect her new computer to the Internet. In fact, her family 
could not even get a telephone line to their home. Shortly after their 
daughter's story made the news, her family had a satellite telephone 
installed free of charge in their home. Yet far too many tribal areas 
still do not have basic phone service, let alone broadband. Telephone 
access in Indian country today is less than 70 percent. Broadband 
access may be only 10 percent. Although the FCC has taken some positive 
steps to address this problem, the digital divide facing Indian country 
still remains. How will the FCC under your leadership work to erase the 
digital divide in Indian country?
    Answer. I am very concerned about the digital divide in Indian 
country. Given the vital importance that broadband access to the 
Internet plays in every aspect of our lives and our economy, ensuring 
universal access to broadband in every community is essential. Indeed, 
Congress strongly reinforced this in the American Recovery and 
Reinvestment Act when it tasked the FCC with developing a National 
Broadband Plan. That Plan has as its overarching objective achieving 
universal access to broadband. Importantly, it also requires the FCC to 
provide a detailed strategy for achieving affordability of such 
service, which is may be vitally important in achieving success in 
adoption in Indian country once service is extended to unserved areas. 
If confirmed, I look forward to working with you on this critical 
issue.

    Question 6. Given the distinct challenges and unique situation of 
our Nation's tribes, do you support having a tribal office within the 
FCC to better assist tribes' efforts to gain access to modern 
telecommunications services?
    Answer. This is an interesting suggestion and I believe it merits 
my understanding better how such an office, or designated staff, could 
better assist tribes' efforts to gain access to modern communications. 
If confirmed, I look forward to working with you on this idea.

    Question 7. My understanding is that the Telecommunications Act 
does not specifically mention tribes yet it should be understood that 
tribes were meant to be included. Will you support a flexible 
regulatory approach in order to meet the spirit of the law when helping 
tribes improve telecommunications access in Indian country?
    Answer. I am not deeply familiar with the issue you describe, but 
if confirmed, I will seek to work closely with you and the Committee to 
understand your concerns and ensure that congressional intent with 
respect to the law is fulfilled.

    Question 8. The FCC has not had a hearing in 10 years that focused 
on telephone service on tribal lands. Would you seek to reinitiate 
hearings that focus directly on broadband and other telecommunication 
services critical to tribal lands?
    Answer. Yes. I believe the FCC should do so.

    Question 9. During the campaign, President Obama said that 
reforming our universal service system will be a priority. I think that 
this essential if we are going to ensure affordable Internet access in 
rural parts of the country. Broadband access is becoming more and more 
important for economic development. Like the telephone in an earlier 
era, broadband has become essential in many ways. Job seekers must 
often look online for employment listings and file their applications 
electronically. Companies are less likely to locate or expand to areas 
where high speed Internet access is not affordable. Important public 
information from government agencies and news outlets is often 
available online. Will universal service reform be a top priority for 
the FCC under your leadership?
    Answer. Yes. I believe that the FCC must tackle the issue of 
universal service reform, along with the related issue of intercarrier 
compensation, for precisely the reasons you describe.

    Question 10. What principles should guide any effort to reform 
universal service?
    Answer. I believe any reform of universal service should be 
conducted in an open, transparent, fair, and data-driven process. I 
believe that the principles that should guide reform are embodied in 
the statutory provisions Congress gave the FCC to implement. 
Specifically, these principles are embodied in Section 254(b) of the 
Communications Act and include ensuring quality and affordability, 
access to advanced services in every region of the nation, comparable 
service and rates in rural, insular, and high cost areas as in urban 
areas, equitable and nondiscriminatory contributions to funding, and 
specific and predicable support mechanisms.

    Question 11. Which other countries might provide models for U.S. 
efforts?
    Answer. I believe the FCC should look broadly at international 
experiences for lessons that can be helpful as the FCC crafts a 
national broadband plan.

    Question 12. I support the FCC's role in helping ensure that radio 
and television serve the needs and interests of their local 
communities. Yet some previous proposals such as the ``unattended 
operations'' rule would unduly harm small local broadcasters while not 
achieving the desired result in the most efficient manner. As the FCC 
considers ways to promote localism--and ensure that broadcasters 
understand and address the needs of their local community--will you 
consider weighing the costs that the FCC regulations place upon 
broadcasters with the benefits they provide to the community?
    Answer. Yes, if confirmed, I will certainly weigh the costs of FCC 
regulations against the benefits they provide.

    Question 13. Companies across the country complain of delays in 
processing their applications for DTV translators. What should the FCC 
do to expedite such applications? Is the current FCC electronic filing 
system adequate to expeditiously process such applications?
    Answer. I have not yet had an opportunity to be briefed by the FCC 
staff on the agency's progress in the area of processing applications 
for DTV translators. I understand that the Commission last month 
addressed many issues relating to the processing of so-called ``in-
contour'' applications, but that other issues remain, in particular for 
more distant translators. If confirmed, I am interested in learning 
more about where these issues stand and finding ways to ensure that the 
FCC can address applications in a timely fashion.
    I have also not yet had an opportunity to be briefed on the 
agency's electronic filing system and its suitability for processing 
applications of this sort, but I look forward to learning more about 
this issue as well.
    I hope that the Commission can be a resource to you and other 
members of the Committee, and I am very interested if confirmed in 
ensuring that the FCC's website is easy to use for license applicants, 
other entities with business before the Commission, and for the 
American public.

    Question 14. Satellites are an important part of the Nation's 
telecommunications infrastructure. The regulatory process, however, has 
been criticized as cumbersome and slow. How would you make the 
regulation of the satellite industry more efficient and ensure that 
applications are acted upon quickly?
    Answer. If confirmed, I will ensure that the International Bureau 
is properly staffed to manage the complicated set of international and 
global issues that are a critical part of modern communications. I 
believe that this can benefit U.S. consumers and businesses in a 
variety of ways, as it has in the past. With respect to satellite 
applications, I believe they should processed--like all license 
applications--expeditiously and, if confirmed, I will look into the 
processing times for satellite-related applications and work to ensure 
that the International Bureau is properly staffed for there to be 
prompt processing of applications.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                           Julius Genachowski
    Question 1. When I was Governor of Virginia, I worked with 
Congressman Boucher to get grants to deploy broadband to Lebanon, 
Virginia. The community developed its own workforce training center--
which attracted Northrop Grumman and IT firm CGI to set up facilities 
in Lebanon and provide 700 jobs to residents. But pulling this 
broadband deployment effort together in Lebanon took a lot of work and 
coordination among the local, state, and Federal Governments--and the 
industry. Not every community has experience with projects of this 
type.
    a. In the National Broadband Plan that the FCC is currently 
developing, what do you think can be done to provide communities with 
assistance with their broadband deployment efforts?
    b. If such communities had access to expert, independent 
consultants who provide them with impartial advice to develop their 
project and application, it would improve the quality of their projects 
and increase the likelihood that their broadband deployment efforts 
would be successful. What are your thoughts on having independent 
consultants available to communities that need it?
    Answer. I believe that providing communities with assistance in 
achieving broadband deployment goals can be an important strategy as 
part of the national broadband plan. If confirmed, I am certainly 
interested in developing ways that the FCC can work with state and 
local governments to bring the benefits of 21st century communications 
networks to all areas of the country and to all Americans. I have not 
yet been briefed in depth on the idea of independent consultants, but I 
am interested in the Lebanon experience and look forward to learning 
more about it. In general, I would like to see the FCC gather best 
practices and ideas from around the country in developing a national 
broadband plan.

    Question 2. I understand that one of the benefits of the digital 
transition is that it makes possible not only high-definition video and 
high quality sound for broadcasters' main programming channels, but 
also new services that fully utilize the added capacity made possible 
by digital technologies. For example, I understand that Qualcomm has 
introduced its MediaFlo mobile television product and that the Open 
Mobile Video Coalition is developing the capability to develop mobile 
video services that would deliver programming such as local news, 
weather, sports and emergency alerts, to cell phones, computers, 
screens on the back of driver seats in cars and various new devices. I 
understand that a pilot of the Coalition's service will be launched in 
Washington soon and as many as 70 stations will put this service on the 
air before the end of year. Could I ask you to have the FCC follow 
these new technologies closely and keep us informed about them?
    Answer. Yes. I believe that communications is the key to unlocking 
opportunities and prosperity and that the United States should have a 
world-leading 21st century infrastructure. My recent experience in 
working with start-up technology companies has convinced me that it is 
critical to have an FCC that is technologically savvy and follows 
advances in the field. If confirmed, I think it is important to ensure 
that the FCC follows new technologies closely, such as the ones you 
mention, and I look forward to sharing this information with you and 
other interested Members of Congress.

    Question 3. I understand that the FCC collects broadband data from 
providers on its Form 477. States may collect similar data from 
providers for their own broadband deployment efforts. As they work on 
broadband deployment projects from the American Recovery and 
Reinvestment Act, states would be in the position to easily augment the 
FCC Form 477 data with the data they provide to the NTIA and the Rural 
Utilities Service. The FCC has historically operated in a structured/
closed environment. In light of the new Administration, the assignments 
at hand and the need for the Commission to collaborate with agencies 
throughout the Federal Government, the states, and a vast number of 
stakeholders. How will you evolve the Commission into a more 
collaborative environment that embraces concepts such as data sharing 
(with data sharing agreements that preserve confidentiality, etc.)?
    Answer. The American Recovery and Reinvestment Act included funding 
for the data collection and mapping of broadband deployment and assets 
throughout the country, with roles for the NTIA, the FCC, and the 
states. I believe this mapping will help policymakers to better gauge 
the nature and extent of broadband deployment in the country and also 
lay the foundation for ongoing collaborative efforts, as you mention.
    I strongly believe that the FCC must operate in an open, fair, 
transparent, and data-driven manner. It is only by bringing the best 
ideas, data, and analysis to the table that the Commission will be able 
to meet the complex challenges and abundant opportunities it faces.

    Question 4. With more and more broadband advocates pointing to 
wireless as the solution to rural broadband deployment, I am concerned 
that industry has neither the economic incentives nor the build-out 
obligations to ensure universal wireless broadband access. What can and 
should the FCC do to make sure that rural consumers are not left 
behind?
    Answer. I agree that wireless broadband holds tremendous promise 
for reaching rural consumers. As we seek ways to extend the reach of 
broadband, we must reward investment and innovation and promote 
competition in the rollout of technologies.
    As mentioned above, the Recovery Act also included funding for the 
data collection and mapping of broadband deployment and assets 
throughout the country, which I believe can and should increase 
understanding of broadband access issues in rural areas.
    In addition, I believe that reforming universal service, and the 
related issue of intercarrier compensation, are issues that merit the 
early and careful attention of the Commission, and that also affect 
wireless broadband buildout.
    If confirmed, I would look forward to consulting closely with 
Congress, and collaborating with my fellow Commissioners, on crafting 
policies to make further progress in extending service to all 
Americans.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                           Julius Genachowski
    Question 1. Thank you for your commitment to work with my office on 
USF. In Alaska, our companies--both traditional incumbents and 
competitive carriers--are using a wide variety of technologies to 
deliver universal service. That has helped Alaska to bring modern 
telecommunications to all parts of Alaska. Will you ensure that 
technological and competitive neutrality remains a cornerstone of our 
universal service policies?
    Answer. As you note, a variety of technologies and carriers today 
bring communications to individuals in Alaska and indeed to communities 
throughout the Nation. In general, I am energized by the prospect of 
new technologies and new entrants providing essential services to 
consumers at affordable rates. If confirmed, I look forward to learning 
more about technological and competitive neutrality in connection with 
the full range of universal service programs, including the High Cost 
Fund, the Lifeline and Linkup programs, the E-Rate, the Rural Health 
Care program, funds providing access to individuals with disabilities, 
and other initiatives. Going forward, I look forward to working with 
you and the Committee on universal service issues in order to ensure 
the program's long term success and viability and to achieve the goals 
Congress envisioned when it enacted the provisions of the law.

    Question 2. The FCC has recognized that the Nation's tribal lands, 
including Alaska's native regions, are in special need of universal 
service support to continue to improve the telecommunications 
infrastructure in those areas. Will you commit to continuing to 
maintain this special focus on tribal lands and Alaska native regions?
    Answer. Yes. I also look forward to working with you to learn more 
about Alaska's unique needs relating to its native regions.

    Question 3. I want to ask about improving broadband. In Alaska, 
many of our communities today can only be reached over satellite. I 
hope that, as the FCC considers how to define broadband and its 
policies for advancing broadband, it keeps in mind that some parts of 
the country are still not connected by fiber to the national backbone. 
Can you assure me you would do so?
    Answer. Yes. Even as NTIA and the Rural Utilities Service implement 
the broadband grant programs as enacted earlier this year in the 
American Recovery and Reinvestment Act, to extend broadband service to 
parts of the Nation that remain unserved and underserved, large 
portions of rural America, particularly in rural States such as Alaska, 
will not see fiber builds extend to their most remote regions. I am 
very interested in the role that wireless and satellite-based services 
can play in these very remote regions in providing broadband access to 
consumers. If confirmed, I assure you that I will remain mindful of 
this reality and look forward to working with you and the Committee as 
we look at broadband issues in the future.

    Question 4. I understand from rural incumbent Alaska telephone 
companies and their consumers that the existing interstate universal 
service system and regulatory interconnection framework has resulted in 
the provision of high-speed Internet service availability to large 
portions of rural customers served by rural incumbent carriers 
throughout the United States. And I understand that the results in 
these rural areas is in stark contrast to the availability of high 
speed broadband in rural areas of the Nation where incumbent telephone 
companies are not subject to the same rules governing universal service 
and interconnection. Are you familiar with this? Do you know why rural 
areas served by rural incumbent carriers have a high degree of high-
speed broadband availability while other rural areas do not?
    Answer. I am not familiar with the situation you describe but, if 
confirmed, look forward to being briefed by expert staff at the agency 
to better understand this issue and the rationale, if any, of the 
differing rules.

    Question 5. Will you commit to provide this Committee with a report 
within 120 days after you arrive at the FCC that gives us specific 
information about the availability of high speed broadband in rural 
areas of each state, highlighting where the incumbent carrier is a 
rural telephone company subject to one set of universal service and 
interconnection rules, and contrasting the results in those areas to 
rural areas where the incumbent telephone carrier is not classified as 
a rural carrier and is subject to other universal service and 
interconnection rules?
    Answer. In the American Recovery and Reinvestment Act, Congress 
provided funding for broadband grants to extend service to unserved and 
underserved areas. Moreover, Congress also provided funding to 
implement the mapping of broadband service in the country. The FCC, for 
its part, has revised its data collection rules for carriers and will 
be obtaining more and better data about broadband service. While I 
would like to provide you with the information you seek in the time-
frame you desire, it is difficult to commit to such a schedule without 
knowing the current state of information at the agency or the 
operational time-frame for achieving the objectives of the recently 
funded provisions. Please know that I believe that this is exactly the 
type of information the agency must possess in order to make smart 
policies. If confirmed, I assure you that I will endeavor to provide 
you and the Committee with as much relevant information as possible, as 
soon as possible, upon which you and other policymakers depend.

    Question 6. Companies now take stringent measure to protect the 
privacy of their consumers. However on-line privacy continues to be a 
concern for all Americans. When we go on-line, we would like to have 
peace of mind that our personal information is not being misused. The 
technology exists to determine where customers are going on the 
Internet and there are companies who would like to use and monetize 
this information. Shouldn't industry be encouraged to adopt and 
implement ``best practices'' for consumer privacy? Doesn't it make 
sense to focus on all providers who have access to consumer information 
holistically?
    Answer. Yes, I believe that privacy is an extremely important issue 
for consumers. There are various provisions of the Communications Act 
addressing privacy rules for telephone, cable, and wireless companies 
that cover many, but not all, aspects of a consumer's communications 
use. I also agree that industry could be well served by adopting and 
implementing ``best practices'' for consumer privacy. Companies could 
potentially earn the important trust of consumers if they adhere to a 
voluntary code of electronic ethics embracing best privacy practices. 
In addition, as Congress looks into this issue and potentially 
considers omnibus privacy legislation, if confirmed, I would ensure 
that the FCC is available as a resource to you and the Committee.

    Question 7. As you know, in September 2005, the FCC adopted a set 
of net neutrality principles explicitly allowing broadband providers to 
take reasonable steps to prevent unlawful activity such as piracy or 
theft of copyrighted content over their networks. The Internet has 
clearly become a vehicle for some type of criminal behavior. I am 
interested in knowing that it is your intention to confirm and adhere 
to this policy during your tenure as FCC Chairman.
    Answer. If confirmed, I intend to confirm and adhere to this 
policy. I agree with the existing FCC precedent that net neutrality is 
about protecting the right of consumers to access lawful content, 
services and applications of their choice.
    I believe in the importance of enforcing Federal law on the 
Internet, including copyright and intellectual property laws.
    Illegal copyright infringement is a threat to our economy, with 
harm measured in the billions of dollars, representing lost wages and 
lost jobs for American workers. It is a threat to the creativity that 
our copyright laws are designed to protect and encourage, and a threat 
to a significant contributor to our economy and U.S. global 
competitiveness.
    It is vital that illegal conduct be curtailed on the Internet. I do 
not interpret the goals of net neutrality as preventing network 
operators from taking reasonable steps to block unlawful content.

    Question 8. Satellite providers to Alaska are concerned that they 
will be exempted from the national broadband plan. It is important as 
we go forward the FCC recognize the importance of satellite to help 
fill the backhaul which is next to impossible to provide without major 
investment in satellite technology. Do you support the need for the 
Commission, NTIA, and RUS to be able to support deployment of broadband 
in any form needed?
    Answer. I support the need for the Commission, NTIA, RUS, and other 
branches of government to support the deployment of broadband in the 
appropriate form. I recognize that for many parts of the country this 
can and should include satellite technology.

                                  <all>

</pre></body></html>
